<html>
<title> - FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 2003 FOREIGN AFFAIRS BUDGET REQUEST</title>
<body><pre>[Senate Hearing 107-299]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-299
 
 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 2003 FOREIGN 
                         AFFAIRS BUDGET REQUEST
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 5, 2002
                               __________

       Printed for the use of the Committee on Foreign Relations









 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                        U.S. GOVERNMENT PRINTING OFFICE
                                WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)

  












                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     4
Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    58
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  staement.......................................................    40
Powell, Hon. Colin L., Secretary of State, Department of State, 
  Washington, DC.................................................     7
    Prepared statement...........................................    22
    Responses to additional questions for the record from:
      Senator Biden..............................................    59
      Senator Boxer..............................................    68
      Senator Bill Nelson........................................    70
      Senator Gordon Smith.......................................    71
      Senator Brownback..........................................    73

                                 (iii)

  












 FOREIGN POLICY OVERVIEW AND THE PRESIDENT'S FISCAL YEAR 2003 FOREIGN 
                         AFFAIRS BUDGET REQUEST

                              ----------                              


                       TUESDAY, FEBRUARY 5, 2002

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:17 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr., (chairman of the committee), presiding.
    Present: Senators Biden, Sarbanes, Feingold, Wellstone, 
Boxer, Helms, Lugar, Hagel, Chafee, Brownback, and Enzi.
    The Chairman. Good morning. Mr. Secretary, welcome back to 
the committee. We are delighted to have you here and we look 
forward to having a chance to hear what you have to say. You 
have had a good run here and I want to compliment you on the 
way you have handled yourself, the Department and the 
administration, let me begin by saying that.
    Let me do a little housekeeping first. I will have an 
opening statement that will be about 5 minutes, maybe less. 
Then I will go to Senator Helms and then we will go to the 
Secretary. We are going to, unfortunately, have a vote at 
10:30. We will go to the end of the Secretary's statement and 
if need be, if the vote time runs out, we will come back and 
hear the remainder of it, and then the committee will break for 
the time it takes for the entire committee to go and vote and 
come back with your permission, Mr. Secretary.
    Today the Committee on Foreign Relations begins what we 
hope to be a series of hearings to review American foreign 
policy in the wake of the attacks on the United States last 
September. The essential objectives of the hearings are two-
fold: to highlight the serious national security challenges 
facing this country, and to ensure that we are allocating our 
resources properly to meet those challenges. In other words, to 
do the job the Congress is supposed to do.
    We began with Secretary of State Powell, who has done, as I 
said, a first-rate job in guiding American foreign policy, 
particularly since the attacks of September 11, but I would say 
there has really been no change. You have done it well from the 
very beginning and you have not missed a beat.
    The administration has skillfully assembled and led an 
international coalition to wage a war against al-Qaeda and the 
Taliban and to attack the threat of terrorism on all fronts--
militarily, diplomatically, legally and financially. Mr. 
Secretary, we welcome you back to the committee.
    Out of the destruction of September 11 came seeds of 
opportunity in my view, and I know you believe that as well. 
The challenge for the United States now seems to me to ensure 
that we seize the opportunities that are available to build a 
new framework for international affairs for the 21st century.
    In that regard, we will be interested in hearing from the 
Secretary today and in months ahead on several key issues, and 
I'd just like to highlight a handful.
    First, are we doing enough to secure our victory in 
Afghanistan? America's armed forces have waged a brilliant 
campaign to end the tyrannical rule of the Taliban, but having 
spent 4 days not too long ago in Kabul, and I know Mr. 
Secretary, you have been there as well, it is clear that much 
remains to be done.
    Al-Qaeda and Taliban elements remain active in many parts 
of the country. Security is inadequate not only in the 
countryside, but even in Kabul itself, and the task of 
reconstruction of a nation devastated by two decades of war is 
immense, although it does not require a Marshall Plan.
    We have to complete the job in Afghanistan, militarily 
against terrorists and the Taliban operatives, and through U.S. 
participation in a multinational security force in my view, and 
economically in a partnership with other nations to rebuild the 
country, which was started in Tokyo.
    Second, what are the implications for the President's 
declaration last week that North Korea, Iran and Iraq comprise 
an ``axis of evil''? Was this merely a rhetorical device 
designed to lump together three nations who we have long 
considered dangerous rogue states, or does it indicate a 
significant shift in U.S. policy toward these nations?
    I agree with the President that each nation poses a 
security threat to the United States and to the civilized 
world. But they are hardly identical or allied with each other, 
and our policies toward them have up to now involved very 
different strategies.
    For example, working with our partners in South Korea and 
Japan, we have until now and maybe continue as well to embrace 
a policy of engagement with North Korea, so as to achieve an 
agreement for a verifiable end to the country's long-range 
missile program and sales as well as their nuclear program. 
Does this mean that that approach is no longer in play here?
    Third, what is the current state of U.S. strategic and 
nonproliferation policy? Since the Secretary was last before 
us, there have been several significant events. One, the 
administration announced the United States would withdraw from 
the ABM Treaty. Two, the administration concluded after a 
lengthy review that most ongoing nonproliferation programs with 
Russia and other Eurasian states should be sustained. And the 
new National Intelligence Estimate affirmed that the United 
States remains at greater risk from the nonmissile delivery of 
a weapon of mass destruction than from the delivery of 
ballistic missiles. Do we have the balance right in terms of 
our expenditures?
    I hope the Secretary can update us on the administration's 
discussions with Russia, on mutual arms reductions, 
particularly the question of whether the administration intends 
to reach an agreement on a binding treaty that would be 
submitted to the Senate.
    Any understanding with Russia on the future of our 
respective nuclear arsenals must, in my view, rest on more than 
a handshake. And let me make my view clear. Any formal 
agreement on mutual force reductions should be in the form of a 
treaty.
    The Senate did not allow the previous administration to do 
an end run around it on arms control and I don't believe we 
should allow this one to do it either, if that was the intent, 
and I do not know what the intent is.
    I also believe that the events of September 11 and the 
subsequent discovery of information about al-Qaeda's efforts to 
obtain weapons of mass destruction, combined with the National 
Intelligence Estimate, make it imperative that we focus more 
resources on what should be our highest national security 
priority, and that is preventing the proliferation of nuclear, 
chemical and biological weapons.
    And finally, is the President's budget for international 
affairs adequate to protect our national security? The 
President requests $25.4 billion, which is less than the amount 
provided in 2002, if you include the emergency additions we 
added to the budget.
    The question is if you take that away, there is about a 6 
percent increase. Is that enough? True, as compared to the 
regular appropriations contemplated before September 11, this 
budget, as I said, contains a 5.9 percent increase in nominal 
terms. But these are not regular times, as the President has 
correctly emphasized. The budget this year should be measured 
against the total spending for last year. By that standard, the 
budget for fiscal 2003 appears to assume that we can return to 
the status quo ante.
    Aside from the promised expansion of the Peace Corps, a 
development that I welcome, and a continuation of the 
Secretary's proposal to address the personnel shortfall in the 
Department, which I think is critical, there appear to be few 
significant initiatives or increases in the foreign affairs 
budget that reflect the changed world in which we live.
    The President's budget provides for a significant increase 
in the Department of Defense and homeland security, but it 
appears to fall short in providing enough resources for our 
first line of defense, our diplomatic corps. I might add, I 
just spoke today with our charge, former Ambassador in 
Afghanistan, and the Secretary makes this point all the time--
more of our diplomatic corps are at risk with less protection, 
although, by the way, these young Marines you all trained, they 
are something else. They are something else. But at any rate, 
diplomats are more at risk than even our men in uniform. More 
have been killed in recent years, and so I want to talk to the 
Secretary about that. I know he shares the same concerns.
    Let me turn now to my friend, Senator Helms, who has had a 
brilliant career in this committee and this is the beginning of 
the final lap, and I expect it will be a sprint between now and 
the time this Congress ends. But I welcome his comments. I 
should say, Mr. Chairman, when you finish speaking, maybe we 
should leave and vote so the Secretary can be uninterrupted in 
his statement.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Today the Committee on Foreign Relations begins a series of 
hearings to review American foreign policy in the wake of the attacks 
on the United States last September. The essential objectives of the 
hearings are two-fold: to highlight the serious national security 
challenges facing this country and to ensure that we are allocating our 
resources properly to meet those challenges.
    We begin with Secretary of State Powell, who has done a first-rate 
job in guiding American foreign policy, particularly since the attacks 
of September 11. The administration has skillfully assembled and led an 
international coalition to wage the war against al-Qaeda and the 
Taliban, and to attack the threat of terrorism across all fronts--
military, diplomatic, legal and financial. Mr. Secretary, we welcome 
you back to the committee.
    Out of the destruction of September 11 can come seeds of 
opportunity. The challenge for the United States is to ensure that we 
seize the opportunity to build a new framework for international 
affairs for the 21st century.
    In that regard, we will be interested in hearing from the 
Secretary, today and in the months ahead, on several key issues. Let me 
just highlight a handful:
    First, are we doing enough to secure our victory in Afghanistan? 
America's armed forces have waged a brilliant campaign to end the 
tyrannical rule of the Taliban. But having spent four days in Kabul 
last month, it is clear that much remains to be done:

  <bullet> al-Qaeda and Taliban elements remain active in many parts of 
        the country;

  <bullet> security is inadequate--not only in the countryside, but in 
        Kabul itself;

  <bullet> and the task of reconstruction of a nation devastated by two 
        decades of war is immense.

We must complete the job in Afghanistan--

  <bullet> militarily against terrorist and Taliban operatives, and 
        through U.S. participation in a multi-national security force,

  <bullet> and economically, in partnership with other nations, to 
        rebuild the country.

    Second, what are the implications of the President's declaration 
last week that North Korea, Iran, and Iraq comprise an ``axis of 
evil?'' Was this merely a rhetorical device, designed to lump together 
three nations we have long considered dangerous rogue states, or does 
it indicate a significant shift in U.S. policy toward these nations?
    I agree with the President that each nation poses a security 
threat--to the United States and to the civilized world. But they are 
hardly identical or allied with each other, and our policies toward 
them have involved different strategies. For example, working with our 
partners in South Korea and Japan, we have until now embraced a policy 
of engagement with North Korea so as to achieve an agreement for a 
verifiable end to that country's long-range missile programs and sales. 
Does the President intend to abandon this approach?
    Third, what is the current state of U.S. strategic and non-
proliferation poIicy? Since the Secretary was last before us, there 
have been several significant events:

  <bullet> the administration announced that the United States will 
        withdraw from the ABM Treaty;

  <bullet> the administration concluded, after a lengthy review, that 
        most ongoing non-proliferation programs with Russia and other 
        Eurasian states should be sustained;

  <bullet> and the new National Intelligence Estimate affirm that the 
        United States remains at greater risk from a non-missile 
        delivery of a weapon of mass destruction than from delivery by 
        a ballistic missile.

    I hope the Secretary can update us on the administration's 
discussions with Russia on mutual arms reductions, particularly on the 
question of whether the administration intends to reach agreement on a 
binding treaty that would be submitted to the Senate.
    Any understanding with Russia on the future of our respective 
nuclear arsenals must, in my view, rest on more than a handshake. Let 
me make clear my view: any formal agreement on mutual force reductions 
should be in the form of a treaty. The Senate did not allow the 
previous administration to do an end run around it on arms control, and 
I don't believe we will allow this one to do so, either.
    I also believe the events of September 11--and the subsequent 
discovery of information about al-Qaeda's efforts to obtain weapons of 
mass destruction, combined with the National Intelligence Estimate--
make it imperative that we focus more resources on what should be our 
highest national security priority: preventing the proliferation of 
nuclear, chemical or biological weapons.
    Finally, is the President's budget for international affairs 
adequate to protect our national security? The President's request of 
$25.4 billion is less than the amount provided in fiscal 2002, after 
including the emergency funds provided after September 11.
    True, as compared against the regular appropriations contemplated 
before September 11, the budget contains a 5.9 percent increase in 
nominal terms.
    But these are not regular times--as the President has correctly 
emphasized. And the budget this year should be measured against the 
total spending for last year. By that standard, the budget for fiscal 
2003 appears to assume that we can return to the status quo ante.
    Aside from the promised expansion for the Peace Corps--a 
development that I welcome--and the continuation of the Secretary's 
proposal to address the personnel shortfall in the Department, there 
appear to be few significant initiatives or increases in the foreign 
affairs budget that reflect the changed world in which we now live.
    The President's budget provides for a significant increase for the 
Department of Defense and homeland security, but appears to fall short 
in providing enough resources for our first line of defense--our 
diplomatic corps.
    Let me turn now to my friend, Senator Helms, who is beginning his 
final year in the Senate, for any comments he may have. Then we will 
hear from the Secretary.

    Senator Helms. Before I begin, Mr. Chairman, let us resolve 
next time this gentleman appears before this committee to make 
arrangements to use the auditorium studio because we have so 
many young people out there in the hallways, about a half an 
acre of them and they want to see the Secretary and they cannot 
see him. This is a fairly large hearing room. But anyway----
    The Chairman. I thought they were here to see Bertie. I did 
not know.
    Senator Helms. It is a tribute to you Mr. Secretary, I 
think, that so many young people are interested in what you say 
and what you do.
    The Chairman. I think you are right, Mr. Chairman.
    Senator Helms. Mr. Secretary, I bet that all of us are 
aware how delightful the occasion is when you visit the Foreign 
Relations Committee. You always attract many visitors and this 
morning is certainly no alternative.
    First, Mr. Secretary, I am confident that you probably 
agreed that the President's State of the Union Address the 
other night was reminiscent of, to a lot of us, President 
Reagan's appearances. They had the same technique of saying the 
right thing at the right time in the right way. Both came at 
times when great challenges confronted our Nation, and both set 
out to overcome them, and in the process, give confidence to 
the American people which is certainly evident in the case of 
President Bush.
    President Reagan defeated communism. President Bush, no 
doubt about it, will defeat terrorists. I believe that. 
America's enemies never obey the laws of war, or for that 
matter, any other laws. Their twisted and evil methods are 
intended to put at risk every innocent American, every man and 
woman and child in this country, and that is a challenge we got 
to face up to. And that is why, Mr. Secretary, I applaud your 
clear understanding that the terrorists being held at 
Guantanamo Bay absolutely are not, are not prisoners of war, 
and in no way do they merit any legal protections of the Geneva 
Conventions.
    There is an important higher truth which you obviously have 
grasped, my friend, to be in the custody of the United States 
is to enjoy the rights conferred by a decent people. Our 
military forces, the world has never known finer, have restored 
civilization to Afghanistan, but our country's greatest 
challenges lie ahead. We must finish the business of 
Afghanistan and bin Laden before we undertake new military 
commitments, and then, Mr. Secretary, Saddam must go.
    He is anathema to the well-being of the people of the 
Middle East, as well as to our own national security. There is 
no doubt that the people of Iraq will happily get rid of the 
scourge known by the entire world as Saddam Hussein. But it 
needs to be known that U.S. policy and if necessary, U.S. air 
power, support them.
    Sooner or later the dictatorships of Iran and North Korea 
must remain to confront a choice, to live in peace with the 
world or to join Omar and his life on an ash heap of history. 
The President warned the other night of the ``axis of evil,'' 
Iran, Iraq, North Korea and that he will not, as he put it, 
wait on events while dangers gather.
    Mr. Secretary, you and the President have the full support 
of Congress and the American people whenever and wherever you 
back up that statement.
    Now, Mr. Secretary, this is my final year in the Senate, 
and I do not intend that it be particularly idle. Several other 
issues beside the war on terrorism merit the immediate 
attention, in my judgment, of both the Congress and the 
administration.
    Now then, first the next round of the NATO expansion should 
begin at the Prague summit in November. I see no reason why the 
most successful alliance in history should not incorporate the 
Baltic nations and other countries that share our values and 
goals and interests. And I think we must put aside the notion 
that Russia may soon have a veto over NATO's decisions as Lord 
Robertson, the NATO Secretary General rather foolishly, in my 
judgment, suggested.
    Our new strategic relationship with Russia must be 
conducted in a manner to advance our national interests while 
promoting Democratic change in Russia. Today, Russia is selling 
missiles and nuclear technology to Iran, a charter member of 
the ``axis of evil,'' and a country that poses, to quote 
President Bush, ``a grave and growing danger to the United 
States.''
    Russia's war on the innocent people of Chechnya and 
Moscow's refusal to seek a negotiated settlement have resulted 
in more casualties than the Soviet Union's war in Afghanistan. 
The lawless environment of Chechnya is certain to become a 
breeding ground for terrorists.
    And third, we must move beyond the outdated relics of the 
cold war such as the ABM Treaty that in no way, no way advances 
the security interests of the United States. We must stand 
firmly behind our intentions to build and deploy ballistic 
missile defenses.
    The attacks of September 11 were devastating enough. We 
must do everything possible to make certain that any further 
attack will not be a nuclear one.
    Fourth, we cannot forget our commitment to democracy and 
rule of law around the world, particularly here in our own 
Western Hemisphere. In Latin America, the mistakes of nearly a 
decade of inattention are now apparent.
    And finally, Mr. Secretary, I do hope that we can complete 
work on the State Department authorization bill consistent with 
the budget that our President put forward yesterday, a bill 
containing reform of the Foreign Service, revamping of United 
States broadcasting programming, while continuing to enhance 
security at all of our overseas facilities.
    Again, we welcome you here. We always do. We always will.
    The Chairman. Mr. Secretary, with your permission, I 
apologize for doing this. We will recess, take about probably 9 
to 10 minutes to go over and vote and get back here and then we 
will be delighted and anxious to hear your statement.
    Secretary Powell. Of course, Mr. Chairman.
    The Chairman. Recess for 10 minutes, or as much time as it 
takes us to get back from voting.
    [Short recess.]
    The Chairman. Thank you for your patience, Mr. Secretary 
and everyone else. We welcome any statement you have to make. 
Please go forward.

    STATEMENT OF HON. COLIN L. POWELL, SECRETARY OF STATE, 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Powell. Thank you very much, Mr. Chairman. I 
thank you for your cordial welcome. It is a great pleasure to 
be before the committee again and I do have a prepared 
statement which I have distributed to the members and the staff 
and I would like to offer for the record.
    The Chairman. The entire statement will be placed in the 
record. Please proceed in any way you would like.
    Secretary Powell. Thank you very much, Mr. Chairman and 
Senator Helms, I thank you all for your gracious welcome. Sir, 
I know that you will be sprinting all the way through to the 
end of this, I have no doubt. But since this is probably my 
last opportunity to present a State Department budget to you as 
part of the President's budget, let me take this opportunity, 
sir, to thank you for all the support that you have provided to 
the Department, especially to our diplomats who are out there 
on the front line of offense, as I like to call it and also 
sir, if I can drift back to my earlier days, thank you for all 
the support you have provided to the men and women in uniform, 
our GIs who serve us so well. And Mr. Chairman, thank you for 
the personal support that you have given me going on some 15 
years. I deeply appreciate it, sir. Thank you so much.
    Mr. Chairman, I do have a statement that will go beyond 
just the crises of the day and try to lay out for you some of 
the opportunities that are out there. You captured it 
perfectly, Senator Biden, when you said there are seeds of 
opportunity. There are a lot of great things happening in the 
world right now. There are a lot of new opportunities that have 
been provided to us out of the crisis of the 11th of September, 
and other things that were going on before then that shows the 
impact that President Bush's leadership is having on the 
international environment. And as I go through my presentation 
and talk about some of these opportunities, I will marry them 
up with the crises of the day as well.
    I want to say a word, though, about something Senator Helms 
said. And that was the ``axis of evil.'' And it does have a 
familiar ring, Senator Helms. It occurred to me as well, the 
old ``evil empire.'' The fact of the matter is Ronald Reagan 
was right and the fact of the matter is George Bush is right. 
And as I go through my presentation, I hope that I will be able 
to demonstrate why these nations that he identified, and there 
are others in this category, I would submit, are deserving of 
this kind of designation.
    But, at the same time, it does not mean that we are ready 
to invade anyone or that we are not willing to engage in 
dialog. Quite the contrary. But because we are willing to 
engage in dialog, and we are quite willing to work with friends 
and allies around the world to deal with these kinds of 
regimes, there is no reason for us not to identify them for 
what they are, regimes that are inherently evil. There are 
people that aren't evil, but the governments that lead them are 
evil and clearly make this statement. And the more sure we are 
of our judgment, the better able we will be to lead the 
international coalition, lead nations who are like-minded in 
the pursuit of changes in the policies of these nations and it 
will make for a better and safer world for all of us. So I 
thank you for that comparison.
    I might touch on something you mentioned also, Senator 
Helms, which is not in my prepared statement, or my reading 
statement, and that is the detainees at Guantanamo Bay and 
other detainees held in Afghanistan that may be headed toward 
Guantanamo Bay.
    You are quite right, all of us in the administration are 
united in the view that they are not deserving of prisoner of 
war status. There is a question that we are examining and it is 
a difficult question and that is the legal application of the 
Geneva Convention.
    This is a new kind of conflict. It is a new world. But at 
the same time, we want to make sure that everybody understands 
that we are a nation of law, abiding by our international 
obligations. And so we are examining very carefully and have 
been for a number of days now the exact applicability or lack 
of applicability to the Geneva Convention to the detainees. 
This is a decision the President will be making in the very 
near future.
    Whether he finds one way or the other on this issue, the 
reality is that they will be treated humanely in accordance 
with the precepts of the convention because that is the kind of 
people we are. We treat people well. We treat people humanely, 
and you can be sure that is what's happening with the detainees 
at Guantanamo and all others who are in the custody of the 
United States Armed Forces or other parts of the U.S. 
Government.
    Mr. Chairman, I would like to begin my presentation by 
thanking you again for all of the support that this committee 
has provided to me and to the Department in my first year of 
stewardship. And let me begin once again by saying thank you 
for all the confirmations of appointees that you provided to 
me; 145 members of my team have passed through the committee's 
confirmation process: I thank you, especially, for passing out 
Ambassador Frank Ricciardone to go to the Philippines yesterday 
evening. That was a very important signal to us.
    As many of you will recall, in my first budget testimony 
last March, I said that I was going to break the mold and 
instead of just talking about foreign affairs, I wanted to 
focus on the financial condition of this Department, as well as 
the morale of the Department and the responsibilities that I 
have as chief executive officer of the State Department as well 
as chief diplomat of the United States.
    I did that last year and I did do it again this year 
because the resource challenges for the Department of State had 
become and still remains a serious impediment for the conduct 
of the Nation's foreign policy. You heard that testimony last 
year and you responded and we are very grateful. Because of 
your understanding and generosity, we have made significant 
progress. In the remainder of the fiscal year 2002, we will 
make even more progress in new hires for the Foreign Service. 
We have made great strides.
    We have doubled the number of candidates for the Foreign 
Service written exam. I'm very proud of the fact that we are 
communicating the message out to the young people of America 
that serving your Nation in the Foreign Service is a noble 
calling and something that all young people should consider as 
a career choice.
    Moreover, I am very pleased that among the new recruits 
that we have attracted to the Foreign Service exam process, 17 
percent of them are minorities. In African-Americans alone, we 
tripled the number of applicants for taking the exam, and I am 
very proud about that.
    We are doing the same with the Civil Service. We are 
looking at the Department as a team, not just Civil Service 
officers, Foreign Service nationals, but all part of one great 
team that is bound together by trust and commitment to the 
foreign policy of the administration, the foreign policy of the 
American people.
    We also want to make it a friendlier place to get into. 
When I took over last year, it was taking 27 months from the 
date somebody took the Foreign Service exam to get into the 
Foreign Service. It is now down to less than 1 year. So we have 
made that kind of progress in 1 year and I hope to make even 
greater progress to get it down to just a matter of months.
    We are also well underway in bringing state-of-the-art 
information technology to the Department. We have an aggressive 
deployment schedule for our OpenNet system, which is a way of 
getting the Internet down on every single desktop in the 
Department of State. I want everybody to have access to each 
other and to the Internet, some 30,000 State users worldwide.
    And we are also deploying our classified connectivity 
program at the same time. We want to make sure that we are in 
the forefront of technology in order to do our job better. In 
right-sizing our facilities and shaping up and bringing smarter 
management practices to our overseas building program, we are 
moving forward briskly as well.
    I heard from Congress that we had to do a better job on 
embassy construction, bringing more modern business practices 
into the construction and refurbishing of our embassies. And 
you all know that General Chuck Williams, who I brought on 
board to do this, is hard at work and is doing a terrific job 
in making sure that we have a master plan. We do have a master 
plan that takes us all the way through 2007 and I am very 
pleased with the progress that we are making.
    I am also very pleased to report that I think the morale of 
the Department is on the upswing. We have focused on families. 
We have focused on security. We have focused on putting people 
back into the ranks. For a couple of years in the 1990's, we 
did not even recruit people for the Foreign Service. You cannot 
do that. You put an air bubble in the system. But now as a 
result of your generosity and as a result of the request that I 
hope you will respond to that I am making this year for more 
people for the Foreign Service, another 400 positions, I think 
that will help to improve morale.
    The people in the Foreign Service now know that everybody 
cares about them. The administration, the Department, and the 
Congress.
    Just as an aside, Senator Biden, I know you and some of 
your colleagues were in Kabul. I hope you had a chance when you 
were around our embassy, which is now reopened, to talk to some 
of those Foreign Service Nationals, an often misunderstood part 
of our family team. These are those wonderful foreigners who 
work in our embassies.
    In the case of Kabul, after we were driven out and had to 
leave, those Foreign Service Nationals stayed there and they 
took care of that building. It got banged up a little bit, but 
when we went back in a couple of months ago, it was pretty much 
intact. And one of the funny stories is that in the basement--
--
    The Chairman. Except for the plumbing.
    Secretary Powell. But in the basement of the building, we 
discovered that all of the automobiles that had been left there 
were there in perfect condition. All we had to do was charge 
the batteries and they all started. So through all that period 
of the Taliban, those cars were there. As our Charge, Ron 
Crocker, said to me, we have the finest fleet of 1985 
Volkswagen Passats in the world, and there they all were lined 
up ready for inspection.
    The Chairman. By the way Ron and his wife and that staff 
not only do the normal duties, they sweep, they physically 
themselves clean, they wash the dishes. I mean, it is 
incredible what that job, what your team is doing there.
    Secretary Powell. The team is marvelous, and Mr. Chairman, 
you all travel a lot. It is reflective of the kind of people we 
have at all of our missions and stations overseas and that is 
why it is so important we let them know we believe in them and 
we trust them.
    With regard to our budget last year, I told you that the 
out years were a source of concern to me and they still are. In 
fact, given the cost of the war on terrorism, the downturn of 
the economy and the accompanying shrinkage of revenues I am 
even more concerned this year than last, but I was confident 
last year that I could make the case for the State Department 
and I am confident that I can do it again this year.
    We need to keep the momentum going. That is why for fiscal 
year 2003 you will get no break from me. I am going to focus on 
resources again this year because it is so critical that we 
continue to push the organization and conduct of America's 
foreign policy into the 21st century. So let me deal with the 
resources requested using my CEO hat before turning to foreign 
policy.
    The President's request for the Department of State and 
related agencies for 2003 is $8.1 billion in our operating 
accounts. These dollars will allow us to continue initiatives 
to recruit, hire, train and deploy the right work force. It 
will help us to continue to upgrade and enhance our worldwide 
security readiness, even more important in light of our success 
in disrupting and damaging the al-Qaeda terrorist network.
    The budget request will include $553 million that builds on 
the funding provided from the emergency response fund of the 
increased hiring of security agents and for counterterrorism 
programs.
    The budget will also continue to upgrade the security of 
our overseas facilities. The request includes $1.3 billion to 
improve physical security, correct serious deficiencies that 
still exist and provide for security-driven construction of new 
facilities at high-risk posts around the world.
    It will also allow us to continue our program to provide 
state-of-the-art information technology to our people 
everywhere. And it will allow us to build an aggressive public 
diplomacy effort to eliminate support for terrorists and thus 
deny them safe haven.
    We have got to do a better job with the message we do to 
the world. The budget includes $518 million for international 
broadcasting, of which $60 million will be dedicated to the war 
on terrorism. This funding will enable the Voice of America and 
Radio Free Europe/Radio Liberty to continue increased media 
broadcasts to Afghanistan and the surrounding countries and 
especially throughout the Middle East.
    And let me say a little bit more about that. The terrorist 
attacks of September 11 underscored the urgency of implementing 
an effective public diplomacy campaign. Those who abet terror 
by spreading distortion and hate and inciting others take full 
advantage of the global news cycle. And we have to do the same 
thing.
    Since September 11, there have been over 2000 media 
appearances by State Department officials. Our continuous 
presence in Arabic and regional media by officials with 
language and media skills has been unprecedented. Our 
international information Web site on terror is now on line in 
seven languages. Internet search engines show it is the hottest 
page on the topic. Our 25-page color publication, ``The Network 
of Terrorism,'' is now available in 30 languages with different 
adaptations all around the world, including a full insert in 
the Arabic edition of Newsweek. ``Right content, right format, 
right audience, right now'' describes the philosophy we will be 
applying to our overseas public diplomacy efforts.
    All of these State Department and related agencies programs 
and initiatives that I have just touched on the surface of are 
critical to conduct America's foreign policy. And some of you 
know my feelings, I am quite sure, about the importance or the 
success of any enterprise of having the right people in the 
right places. And if I had to put one of these priorities at 
the very pinnacle of our efforts, it once again would be 
recruiting.
    So as I indicated earlier, we are going to sustain the 
strong recruiting program we began last year. We want to get to 
the point where our people can undergo training without being 
pulled out of jobs because we have a float in our personnel 
system for people to go off to be trained and so I think that 
we have been successful in the first year in our stewardship of 
the Department. And I hope that you see the same thing, your 
staffs see the same thing, and we can enjoy your continued 
support this coming year and the years ahead.
    Mr. Chairman, I now want to talk about foreign policy. And 
I will talk about it in the usual terms and the regional 
setting in talking about specific countries. But I hope as I do 
this, you will see it in a broader tapestry, the tapestry of 
the growth of democracy around the world, the impact that 
market economic principles are having around the world as more 
and more nations understand that this is the direction in which 
they must move. I hope you will see it in terms of more and 
more nations, notwithstanding the terrible crises that still 
exist and the horrible regimes that are still in place.
    Nevertheless, more and more nations are understanding the 
power of the individual. When you empower an individual man and 
woman with the opportunity to reach the heights of possibility 
limited only by their own willingness to work and ambition, and 
not by the political system in which they are trapped or in 
which they are living, so many wonderful things have happened. 
So as I get into the eachs, let us not forget the power of the 
whole, the power of democracy and the power of the free 
enterprise system.
    Let me begin, sir, by talking about Russia. One of the 
major items on my agenda over almost every single day has to do 
with Russia. President Bush in his conduct of our foreign 
policy with Russia has defied some of our critics and he has 
structured a very strong relationship. The meetings that he has 
had with President Putin and the dialog that is taking place 
between Russian Foreign Minister Ivanov and me and between 
Secretary Rumsfeld and his counterpart at a variety of other 
levels have positioned the United States for a strengthened 
relationship with Russia, the land of eleven time zones. The 
way that Russia responded to the events of September 11 was 
reflective of this positive relationship.
    Russia has been a key member of the anti-terrorist 
coalition. It has played a crucial role in our success in 
Afghanistan by providing intelligence, bolstering the Northern 
Alliance and assisting our entry into Central Asia. As a result 
we have seriously eroded the capabilities of a terrorist 
network that posed a direct threat to both of our countries.
    Just an illustration of how things have changed, a year or 
so ago when I first came into office, there was a bit of 
tension between me and my Russian colleagues over what the 
United States might or might not be doing in Central Asia. 
After September 11, after we coordinated with one another, 
after we had such a successful 9 or 10 months of dialog of 
building trust between the two administrations, things changed 
so radically. So much so that when my colleague, Foreign 
Minister Ivanov a few weeks ago was asked on television, Igor, 
why are you cooperating with the Americans in Central Asia, 
they are the enemy, aren't they?
    Foreign Minister Ivanov said no, you are wrong, the enemy 
is terrorism. The enemy is smuggling. The enemy is extremism. 
The enemy are all these other transnational threats. We are now 
allied with the United States in fighting these kinds of 
enemies. And we will find a way to move forward in cooperation.
    It is this kind of most dramatic change that I think is one 
of the seeds of opportunity that Senator Biden talked about, 
and as we go forward in this next year, we are not going to let 
this seed be trampled out. We are going to continue working 
with Russia and with the countries in the region to structure a 
new relationship that will bring stability to the region and 
provide opportunities for peace and democracy and economic 
reform.
    Similarly, the way we agreed with Russia to disagree on the 
ABM Treaty reflects the intense dialog we had over the 11 
months before we had that decision, a dialog in which we told 
the Russians where we were headed. We said to them clearly, we 
are going forward to achieve missile defense. We are going to 
have missile defense, and we can work together. And if we 
cannot work together, then we will have to agree to disagree. 
We did not just pull out of a treaty on a whim. We spent time 
exploring opportunities with them, exploring options with them. 
But we made it clear where we were going, and we asked them is 
there a way we could do this together to go forward.
    At the end of the day, we agreed to disagree and we 
notified Russia that we were going to withdraw from the ABM 
Treaty. I notified Foreign Minister Ivanov that we were going 
to make this decision, I went to Moscow and sat in the Kremlin 
with President Putin and described to him how we would unfold 
this decision so that he was ready for it and he could respond 
in an appropriate way in accordance with his national interest. 
President Bush talked to President Putin about it and then at 
the end of the day, we made our announcement.
    To the surprise of a number of people, an arms race has not 
broken out and there is not a crisis in U.S.-Russia relations. 
In fact, their response was: we disagree with you. We think you 
made the wrong choice, but you have made that choice and now 
that disagreement is behind us. Our strategic relationship is 
still important. It is vital, and we will continue to move 
forward. And I think this is an indication of a mature 
relationship with Russia and especially a positive relationship 
between the two Presidents, President Bush and President Putin.
    Both Presidents pledged to reduce further the number of 
their offensive nuclear weapons and we are hard at work on an 
agreement to record these mutual commitments. This is all part 
of the new strategic framework with Russia.
    To your point, Senator Biden, Mr. Chairman, we do expect 
that as we codify this framework, it will be something that 
will be legally binding and we are examining different ways in 
which this can happen. It can be an executive agreement that 
both Houses of Congress might wish to speak on, or it might be 
a treaty. We will explore it with Russia and we will discuss it 
within the administration the best way to make this a legally 
binding or codified agreement in some way.
    We even managed to come to an agreement in how we are going 
to work through NATO. We are now developing mechanisms for 
pursuing joint Russia-NATO consultations in actions at 20 on a 
number of concrete issues. Our aim is to have these mechanisms 
in place for the Foreign Ministers' ministerial meeting in 
Reykjavik in May. And as we head for the NATO summit in Prague 
in November, where the expansion of the alliance will be 
considered, I believe we will find the environment for the 
continued expansion of NATO a great deal calmer than we might 
have expected.
    And, Senator Helms, I just might mention that as we talk 
about NATO at 20, and as we talk about the expansion of the 
alliance, it will all be done without Russia having any veto 
about what NATO might do at 19 or what the alliance will do in 
determining who should be allowed into the alliance.
    Russians understand this perfectly. But at the same time, 
we are responsive to their concerns and we are trying to meet 
those concerns. That is what you would expect to do with 
somebody you are now calling a partner and not an enemy.
    We will defend our interests and we will defend the 
interest of our alliance. But we want to work with a new 
partner, the Russians, who increasingly want to be drawn and 
are attracted and want to be integrated in the West in a way 
that fits the mutual interests of both sides.
    I believe the way we handled the war on terrorism, the ABM 
Treaty, nuclear reductions, and NATO is reflective of the way 
we will be working together with Russia in the future.
    Building on the progress we have already made will require 
energy, goodwill, and creativity on both sides as we seek to 
resolve some of the tough issues on our agenda. We have not 
forgotten about Russian abuse of human rights and we raised 
issues with them. We raise Chechnya at every opportunity. We 
raise freedom of the press at every opportunity. We raise 
proliferation activities to countries such as Iran or Russian 
intransigence with respect to the sanctions policy for Iraq. 
And there has been considerable progress on that issue and we 
can discuss that in greater detail when we get to the question 
and answer period with respect to moving to smart sanctions.
    Neither have we neglected to consider what the situation in 
Afghanistan has made plain for all of us to see. How do we 
achieve that more stable security situation in Central Asia? In 
fact, the way we are approaching Central Asia is symbolic of 
the way we are approaching the relationship between us and 
Russia as a whole, and the growing trust between our two 
countries. Issues that used to be sources of contention are now 
sources of cooperation and we will continue to work with the 
Russians, as I indicated earlier, to make sure that the seeds 
that Senator Biden alluded to are landed in fertile ground, get 
the nutrition they need and blossom in a positive direction.
    Mr. Chairman, we have also made significant progress in our 
relationship with China. We moved from what was a very volatile 
situation in April, when a reconnaissance plane was brought 
down over Hainan Island, and people were concerned that this 
would be such an obstacle that we wouldn't be able to go 
forward and things would not work out.
    As it turned out, things did work out. We were able to 
recover our crew rather quickly and the plane came back not too 
long after that and both countries were interested in getting 
this incident behind us. And I think you saw as a result of the 
trip I took to China in the summer, but most importantly 
President Bush's trip to the APEC meeting in Shanghai in 
October, and the subsequent meeting between President Jiang 
Zemin and President Bush at that APEC summit, showed that the 
relationship was back on an improving track.
    There are certain shared interests that we have with China 
and we have emphasized those shared interests. They are 
regional and global interests such as China's accession to the 
WTO, stability on the Korean Peninsula and combating the 
scourge of HIV/AIDS. On such issues as we can talk and we can 
produce constructive outcomes.
    There are other interests where we decidedly do not see 
eye-to-eye such as on arms sales to Taiwan, human rights, 
religious freedom, and missile proliferation. On such issues, 
we can have a dialog and try to make progress, but we do not 
want the issues where we differ to constrain us from pursuing 
those where we share common goals, and that is the basis upon 
which our relations are going rather smoothly at present, that 
and counterterrorism.
    President Jiang Zemin was one of the first world leaders to 
call President Bush and offer his sorrow and condolences for 
the tragic events of September 11. And in the almost 5 months 
since that date, China has helped in the war against terrorism. 
Beijing has also helped in the reconstruction of Afghanistan 
and we hope will help even more in the future.
    Moreover, China has played a constructive role in helping 
us manage, over these past few weeks, the very dangerous 
situation in South Asia between India and Pakistan.
    When I could call the Foreign Minister of China, Mr. Tang, 
and have a good discussion, making sure that our policies were 
known and understood, it made for a more reasoned approach to 
what was a volatile situation between India and Pakistan. As a 
result, China supported the approach that the rest of the 
international community had taken. Beijing was not trying to be 
a spoiler, but instead was trying to help us alleviate tensions 
and convince the two parties to scale down their dangerous 
confrontation, which now it appears they are trying very hard 
to do.
    So it is a case where this so-called coalition that has 
been formed has a utility far beyond terrorism in Afghanistan. 
We are just talking to each other a lot more. We are finding 
other areas in which we can cooperate and the India-Pakistan 
crisis was one of them.
    All of this cooperation, however, came as a result of our 
careful efforts to build a relationship over the months since 
the reconnaissance plane incident. We never walked away from 
our commitment to human rights and nonproliferation or 
religious freedom. And we never walked away from the position 
that we do not think the Chinese political system is right for 
the 21st century. We do not. But we, at the same time, are 
anxious to engage and we continue to tell the Chinese that if 
their economic development continues apace and the Chinese 
people see the benefits of being part of a world at rest in the 
rule of law, we can continue to work together constructively.
    A candid, constructive, and cooperative relationship is 
what we are building with China; candid where we disagree, 
constructive where we can see some daylight and cooperative 
where we have common regional, global, or economic interests.
    These are the principles that President Bush will take with 
him to Beijing later this month when he meets again with 
President Jiang Zemin.
    As we improved our relationships with China, we also 
reinvigorated our bilateral alliance with Japan, Korea and 
Australia. Nowhere has this been more visible than the war on 
terrorism, where cooperation has been solid and helpful from 
all of our Pacific and Asian allies and friends.
    Prime Minister Koizumi of Japan immediately offered Japan's 
strong support within the confines of its constitution and he 
is working carefully to enhance Japan's capability to 
contribute to such global and regional actions in the future. 
Always the linchpin of our security strategy in East Asia, the 
U.S.-Japan Security Alliance now is as strong a bond between 
our two countries as it has been in a half century of its 
existence. Our shared interests, values and concerns, plus the 
dictates of regional security, make it imperative that we 
sustain this renewed vigor in our key Pacific alliance, and we 
will.
    With respect to the peninsula, our alliance with the 
Republic of Korea has also been strengthened by Korea's 
response to the war on terrorism and by our careful analysis of 
and our consultations with the South Koreans on where we needed 
to take the dialog with North Korea. President Bush has made it 
clear we are dissatisfied with the actions of North Korea, that 
they continue to develop and sell missiles that can carry 
weapons of mass destruction. But both we and the Republic of 
Korea are ready to resume dialog with Pyongyang on this or any 
other matter at any time North Koreans decide to come back to 
the table. The ball is in their court.
    We conducted our review last year. When that review was 
finished in the summer, I communicated to the North Koreans and 
communicated to our South Korean friends that the United States 
was ready to talk any time, any place, anywhere without any 
preconditions with North Korea.
    North Korea has chosen not to respond. North Korea has 
chosen to continue to develop missiles, although they comply 
with the moratorium that they placed upon themselves and they 
stay within the KEDO agreement as we do. But nevertheless, 
their actions have not been responsible and their people are 
still starving and we are helping to feed those people.
    So while we are open to dialog, I see no reason that we 
should not call it the way it is, and refer to them by the 
terms that are appropriate to their conduct and to their 
behavior and those of us who are in the business of dealing 
with North Korea realize it is a very, very difficult account. 
At the same time, we are waiting for them to come out and 
realize that a better world awaits them if only they would put 
this horrid past behind them.
    Other friends in the region have also been forward leaning 
and I could list all of them but just let me say that our 
Australian friends in particular have been forward-leaning in 
their efforts to support the war on terrorism. Heavily 
committed in East Timor already, Australia nonetheless offered 
its help immediately and we have been grateful for that help. 
The people of Australia are indeed some of America's truest and 
most trusted friends.
    As I look across the Pacific to East Asia I see a much 
improved security scene and I believe that President Bush and 
his interest in Asia and the Pacific region deserves a great 
deal of credit for this success.
    Let me turn for a moment, Mr. Chairman and members of the 
committee, to Europe, where I think there has been a great deal 
of success in our relations over the last year. In waging war 
together on terrorism, our cooperation with Europe has grown 
stronger.
    NATO invoked Article 5 for the first time ever on September 
12, the day after the events of September 11. Since then, the 
European Union has moved swiftly to round up terrorists, close 
down terrorist financing networks, and improve law enforcement 
and aviation security cooperation.
    President Bush has made it clear that even as we fight the 
war on terrorism, we will not be deterred from achieving the 
goal we share with the Europeans of a Europe whole, free and at 
peace. We continue to work toward this goal with our allies and 
partners in Europe. While in the Balkans there remains several 
challenges to achieving this goal, we believe we are meeting 
those challenges. We have seized war criminals and helped bring 
about significant changes in government in Croatia and 
Yugoslavia. Our military forces are partnered with European 
forces in Kosovo and Bosnia to help bring stability and self-
governance while European led action fosters a settlement in 
Macedonia. We need to finish the job in the Balkans, and we 
will. And we went in together and we will come out together.
    I also believe we have been successful in bringing 
Europeans to a calmer level of concern with respect to what 
many had labeled in Europe as unbridled U.S. unilateralism. 
Notwithstanding the reaction we have seen to the President's 
State of the Union Address last week, I still believe that is 
the case. We spend an enormous amount of our time consulting 
with our European and other friends. It is a priority for the 
President. He met with Chancellor Schroeder last week. I don't 
even want to count the number of European Ministers I have been 
in touch with over the last week or so.
    But beyond Europe, we have been in constant touch with 
Foreign Ministers around the world, Defense Ministers around 
the world. The President is readily available for leaders who 
come to this country. We believe in consultation, but we also 
believe in leading. We believe in multilateralism, but we also 
believe in sticking up for what we believe is right, and not 
sacrificing it just on the alter of multilateralism for the 
sake of multilateralism.
    Leadership is staking out what you believe in and coalition 
leading means leading, and that is what this President does. 
And I think he does it very, very well. And he demonstrated it 
in Europe last year, beginning with his speech in Warsaw, 
talking about a Europe whole and free; his participation in G-8 
meetings and the U.S.-European summit and the European summit; 
our extensive consultations with respect to the new strategic 
framework with Russia; and culminating in the brilliant way in 
which the President pulled together the coalition of terrorism. 
I believe we demonstrated to the world that we can be 
decisively cooperative when it serves our interest and the 
interest of the world.
    We have also demonstrated that when it is a matter of 
principle, we will stand on that principle whether it is 
universally applauded or not.
    I think we have been very successful. Let me note also that 
this sort of principled approach characterized our determined 
effort to reduce the threat of weapons of mass destruction, an 
effort well underway before the tragic events of September 11 
added even greater urgency.
    We and the Russians will reduce our deployed nuclear 
weapons. In the meantime, along with our friends and allies, we 
are going to go after proliferation. We are going to make sure 
that we do everything possible to cutoff the kinds of 
technologies that rogue nations are using to threaten the 
world.
    The principled approach that we take does not equate to no 
cooperation. Quite the contrary. We are ready to cooperate, not 
just with our European friends, but also with our Asian 
friends, and we are quite prepared to cooperate and anxious to 
cooperate in even broader form.
    We are looking forward to the World Summit on Sustainable 
Development in Johannesburg later this year. There we will have 
an opportunity to talk about all kinds of transnational issues, 
good governance, protection of our oceans, fisheries and 
forests and how best to narrow the gap between the rich 
countries and the poor countries of the world.
    And that also allows me then to turn to Africa where this 
summit will be held next September. We have crafted a new and 
more, I think, effective approach to Africa, the success of 
which was most dramatically demonstrated in the WTO 
deliberations in Doha last November that led to the launching 
of a new trade round. The United States found its position in 
these deliberations being strongly supported by the developing 
countries, most notably those from Africa.
    You may have some idea of how proud that makes me as the 
American Secretary of State, proud of this country, proud of 
this Congress for its deliberate work to make this possible. 
The Congress laid the foundation for our efforts with the 
African Growth and Opportunity Act, an historic piece of 
legislation with respect to the struggling economies in Africa.
    In the first year of implementation of this act, we have 
seen substantial increases in trade with several countries: 
South Africa, by 11 percent; Kenya 21 percent; Lesotho 51 
percent, and Madagascar, a whopping 117 percent, all based on 
the first three quarters of 2001 compared to the same period of 
2000.
    Likewise, we are very pleased with the excellent success we 
had with the first U.S. Sub-Saharan Africa Trade and Economic 
Cooperation Forum, which was held last October.
    A large part of our approach to Africa and to other 
developing regions and countries will be a renewed and 
strengthened concern with progress toward good governance as a 
prerequisite for development assistance. Where conditions are 
favorable, where the rule of law is in place, where there is 
transparency in their economic and financial systems, then we 
will encourage investment. We will encourage companies to take 
a look at those nations that are moving in the right direction.
    Agriculture, of course, is the background of Africa's 
economies and we are working with them to revitalize their 
agricultural sector in an open system in order to reduce hunger 
and to lift the rural majority out of poverty. Fighting 
corruption, good governance, getting rid of debt, getting rid 
of those despotic regimes and individuals who hold their people 
back, all of this is part of our agenda.
    The people of Africa know in many cases their governments 
do not deliver the health care, transportation and other 
systems that they need to be successful in the 21st century. 
And our policies toward these countries will be to put them on 
the right path, move them in the right direction and allow 
their people to enjoy the benefits that come from democracy and 
economic freedom.
    We also know that especially in Africa, none of this 
potential success is possible if we do not do something about 
HIV/AIDS. It's destroying families, destroying societies, 
destroying nations. That is why I am pleased to report that 
pledges to the Global Fund to fight AIDS, tuberculosis and 
malaria now exceed $1.7 billion and continues to grow. Soon the 
fund is expected to accept proposals and begin disbursing 
money. And we will continue to support that with additional 
contributions.
    Mr. Chairman, we have also, I think, had some success in 
our own hemisphere from the President's warm relationship with 
Mexico's President Fox, to the Summit of the Americas in Quebec 
last spring to the signing of the Inter-American Democratic 
Charter in Lima, Peru, to our ongoing efforts to create a free 
trade area of the Americas. All of this suggests to me that we 
are moving in the right direction in our hemisphere, even 
though there are difficult problems in Argentina, Colombia, 
Venezuela, and other places that are of concern to us.
    We need to keep democracy and market economics on the march 
in Latin America and we need to do everything we can to help 
our friends dispel some of the dark clouds that are there. Our 
Andean counter-drug initiative is aimed at fighting the illicit 
drugs problem while promoting economic development and human 
rights and democratic institutions in Colombia and among its 
Andean neighbors.
    For our Caribbean neighbors, the situation has gotten worse 
as a result of September 11. Lower growth, decreased tourism, 
increased unemployment, decreased tax revenue and decreased 
external financial flows. This economic decline is also 
affected by increasing rates of HIV/AIDS. I will be going to 
the Caribbean later this week to meet with the Foreign 
Ministers of the Caribbean to talk about these problems and to 
also talk about President Bush's Third Border Initiative, which 
seeks to broaden our engagement with our Caribbean neighbors 
based on recommendations of the region's leaders on the areas 
most critical to their economic and social development.
    The Third Border Initiative is centered on economic 
capacity building and on leveraging public/private partnerships 
to help meet the region's pressing needs.
    At the end of the day, it is difficult to exaggerate what 
we have at stake in our own hemisphere. Political and economic 
stability in our own hemisphere and our own neighborhood 
reduces the scale of illegal immigration coming to the United 
States, drug trafficking, terrorism, and economic turmoil. It 
also promotes the expansion of trade and investment. So we must 
remain engaged in our own hemisphere.
    I have touched on some of the dark clouds that are on our 
foreign policy horizon, but let me focus on one or two areas 
that are especially distressing.
    The Middle East, of course, is the one that is uppermost on 
my mind and the minds of most of us here in the room. With 
respect to the tragic confrontation between Israel and the 
Palestinians, I want you to know that we will continue to try 
and focus the parties on the need to walk back from violence, 
to find a political solution. Our priorities have been and will 
remain clear, ending the violence and terror through 
establishment of an enduring cease-fire and then move forward 
along the path outlined in the Tenet Security Workplan and the 
Mitchell Report recommendations agreed to by both sides and 
supported by the international community. This forward movement 
would ultimately lead to negotiations on all of the issues that 
must be resolved between the two parties.
    The Israelis and the Palestinians share a common dream, to 
live side by side in genuine, lasting security and peace in two 
states, Israel and Palestine, with internationally recognized 
borders. We share that vision. The President spoke to that 
vision in his speech at the U.N. last fall and I gave more form 
to that vision in the speech that I gave in Louisville.
    Even though things have not gone well in recent weeks, we 
cannot walk away from it. We must not become frustrated or 
yield to those who would have us turn away from this conflict 
or from this critical region. As the President has said, the 
United States has too many vital interests at stake to take 
such a step, and one of those vital interests is the security 
of Israel.
    A positive vision will not be realized, however, as long as 
violence and terror continue. The President and I and General 
Zinni have been unequivocal with Chairman Arafat. The 
Palestinian people will never see their aspirations achieved 
through violence. Chairman Arafat must act decisively to 
confront the sources of terror and choose, once and for all, 
the option of peace over violence.
    He cannot have it both ways. He cannot engage with us and 
others in the pursuit of peace and at the same time commit or 
tolerate continued violence and terror. I have made it clear to 
Chairman Arafat and to his associates that the smuggling of 
arms to the Palestinian authority by Iran and Hizbollah aboard 
the Karine A is absolutely unacceptable. Chairman Arafat must 
ensure that no further activities of this kind ever take place 
and he must take swift action against all Palestinian officials 
who are involved. He knows what he must do. Actions are 
required, not just words, if we are to be able to move forward.
    Israel must act as well. Prime Minister Sharon has spoken 
of his desire to improve the situation of life for Palestinian 
civilians confronted with the disastrous economic situation and 
suffering daily. We have urged the Israeli Government to act in 
ways that help ease these hardships and avoid further 
escalation or complicate efforts to reduce violence.
    Difficult as the present circumstances are, the United 
States will remain engaged. But, in the end, Israel and the 
Palestinians must make the hard decisions necessary to resume 
progress toward peace.
    With regard to another trouble spot that occupies much of 
our attention--Iraq--that country remains a significant threat 
to the region's stability. We are working at the U.N. and 
elsewhere to strengthen international controls.
    We stopped the free fall of the sanctions regime. We got 
the Security Council back together. We are working hard to come 
up with the smart sanctions that we think are appropriate and 
we will not stop in that effort. I am confident, very confident 
that by the end of this 6-month sanctions period, we will be 
able to implement smart sanctions in a way that all members of 
the Security Council will be able to abide with.
    There is reporting this morning that the Iraqi regime has 
asked the U.N. to have a discussion. It should be a very short 
discussion. The inspectors have to go back in under our terms, 
under no one else's terms, under the terms of the Security 
Council resolution. The burden is upon this evil regime to 
demonstrate to the world that they are not doing the kinds of 
things we suspect them of. And if they are not doing these 
things it is beyond me why they do not want the inspectors in 
to do whatever is necessary to establish that such activities 
are not taking place.
    With regard to Iran, we have a long-standing list of 
grievances, but at the same time, we have been in conversation 
with Iran. We take note of the positive role they played in the 
campaign against al-Qaeda and the Taliban. We take note of the 
contribution they have made to Afghanistan's reconstruction 
efforts. But we also have to take note of their efforts with 
respect to the ship, the Karine A. We have to take note of some 
of the things some parts of the Iranian Government are doing in 
Afghanistan which are not as helpful as what other parts of the 
Iranian Government are doing.
    We have to take note of the fact that they are still a 
state sponsor of terrorism. So we are ready to talk, but we 
will not ignore the reality that is before our eyes. Those who 
got so distressed about the President's strong statement ought 
to not be looking in our direction; they ought to be looking in 
the direction of regimes such as Iran, which conduct themselves 
in this way.
    I might just touch very briefly, Mr. Chairman, on the 
standoff between India and Pakistan. It is of concern to us, 
but I am pleased that both nations remain committed to finding 
a peaceful solution to this crisis, and we will continue to 
work with them. I visited there a few weeks ago and had 
positive discussions with both sides. And both sides have made 
it clear to me then and in their actions since, that they are 
trying to move forward to find a diplomatic solution.
    President Musharraf gave a very powerful speech that put 
his country on the right path, and I hope he will continue to 
take action to reduce incidents over the line of control, and 
round up terrorist organizations and do it in a way that will 
give India confidence that they are both united in a campaign 
against terrorism, and not let it degenerate into a campaign 
against each other.
    Mr. Chairman, I think you are aware of what we have been 
doing in Afghanistan. I do not need to belabor the point. We 
should be so proud of our men and women in uniform who fought 
that campaign with such skill and efficiency. And now the task 
before us is to make sure that we help the people of 
Afghanistan and the new authority of Afghanistan get the 
financial wherewithal they need to start building hope for the 
people of Afghanistan, and to bring reality to that hope.
    I was pleased that as one of the co-chairs of the Tokyo 
reconstruction conference, the conference was able to come up 
with $4.5 billion to be disbursed over a period of 5 years 
which will get the country started. The big challenge facing 
Mr. Karzai and his colleagues is the challenge of security, 
providing a secure environment throughout the country so that 
the reconstruction effort can begin.
    With respect to our continued campaign against terrorism, I 
think the President has spoken clearly. We will continue to 
pursue terrorism. We will pursue al-Qaeda around the world. We 
will go after other terrorist organizations and we will deal 
with those nations that provide a haven or a harbor for 
terrorists and we will not shrink from this. We have the 
patience for it, we have the persistence for it, and we have 
the leadership for it.
    Mr. Chairman, in my prepared statement you have the various 
details of budget items and since I have gone on quite a bit, I 
do not want to belabor it any longer. But I just wanted to take 
the time that I did to show that there is a lot more going on 
than just what we read about in the daily papers on a 
particular crisis.
    We have forged good relations with Russia and China and we 
have solid relations with the Europeans. We have solid 
relations with our allies in the Pacific-Asia region. We are 
working the problems with Africa and our own hemisphere.
    There is no part of the world that we are not interested 
in. We are a country of countries. We are touched by every 
country and we touch every country and we have a values-based 
foreign policy that rests on principle, and it is principle 
that is founded in our value system of democracy, the free 
enterprise system, the individual rights of men and women.
    We seek no enemies. We seek only friends. But we will 
confront our enemies and we will do it under what I believe is 
a solid, dedicated persistent leadership of the man who heads 
the foreign policy of the United States, President George W. 
Bush. Thank you, sir.
    [The prepared statement of Secretary Powell follows:]

     Prepared Statement of Hon. Colin L. Powell, Secretary of State

    Mr. Chairman, members of the committee, I am pleased to appear 
before you to testify in support of President Bush's budget request for 
FY 2003.
    Before beginning, I want to thank you for confirming almost all of 
the nominees for the State Department. They are now hard at work.
    Of those who remain to be confirmed, our ambassador-designate to 
the Philippines is of particular concern to me. We need Frank 
Ricciardone in Manila and we need him there as soon as possible. Not 
only have we not had an ambassador there in over eighteen months, it is 
now an even more crucial requirement as we scale up our assistance in 
helping President Arroyo combat the terrorists in her country. So, Mr. 
Chairman, I ask for your help in getting Frank confirmed, and in 
getting the remainder of our people to work as well.
    I also ask that you help me get the FY 2002/2003 State Department 
Authorization bill passed as quickly as possible and that it include 
full authorization of our budget request for FY 2003, that it lift the 
cap on UN Peacekeeping dues, allow us to pay the third tranche of UN 
arrears with no additional strings attached, and include the management 
authorities we have requested. Moreover, I would also be grateful for 
your help in removing from the final bill the foreign policy 
restrictions, earmarks, and reporting requirements that tie the 
Department's hands.
    And let me say here at the outset, Mr. Chairman, before I go into 
the details of the budget and our foreign policy, that President Bush 
has two overriding objectives that our foreign policy must serve before 
all else. These two objectives are to win the war on terrorism and to 
protect Americans at home and abroad. This Administration will not be 
deterred from accomplishing these objectives. I have no doubt that this 
committee and the Congress feel the same way.
    As many of you will recall, at my first budget testimony last March 
I said I was going to break the mold and instead of talking exclusively 
about foreign affairs, I was going to focus on the financial condition 
of the Department--both in terms of State Department operations and in 
terms of foreign operations. I did that because the resources challenge 
for the Department of State had become a serious impediment to the 
conduct of the nation's foreign policy. And you heard my testimony and 
you responded, and we are grateful.
    Because of your understanding and generosity, we have already made 
significant progress and in the remainder of FY 2002 we will make more. 
In new hires for the Foreign Service, we have made great strides. For 
example, we doubled the number of candidates for the Foreign Service 
Written Examination--and this year we will give the exam twice instead 
of just once. Moreover, our new recruits better reflect the diversity 
of our country with nearly 17% of those who passed last September's 
written exam being members of minority groups. We have also improved 
Civil Service recruitment by creating new web-based recruiting tools. 
And once we identify the best people we bring them on more quickly. For 
Foreign Service recruits, for instance, we have reduced the time from 
written exam to entry into service from 27 months to less than a year. 
We are also working with OMB to create extensive new performance 
measures to ensure that we are hiring the very best people.
    We are also well underway in bringing state-of-the-art information 
technology to the Department. We have an aggressive deployment schedule 
for our OpenNet Plus system which will provide desktop Internet access 
to our unclassified system for over 30,000 State users worldwide. We 
are deploying our classified connectivity program over the next two 
years. Our goal is to put the Internet in the service of diplomacy and 
we are well on the way to accomplishing it.
    In right-sizing our facilities and in shaping up and bringing 
smarter management practices to our overseas buildings program, we are 
moving forward briskly as well--as many of you are aware because 
General Chuck Williams has been keeping you informed about our 
progress. In fact, that is the first change we made, putting General 
Williams in charge and giving him assistant secretary equivalent rank. 
His Overseas Building Operations (OBO) has developed the Department's 
first long-range plan, which covers our major facility requirements 
through Fiscal Year 2007.
    The OBO has also developed a standard embassy design concept for 
small, medium, and large embassies. This concept will reduce cost while 
speeding up construction and enhancing quality. And in making all of 
our facilities, overseas and stateside, more secure, we are also making 
good headway. By the end of FY 2002, over two-thirds of our overseas 
posts should reach minimal security standards, meaning secure doors, 
windows, and perimeters. And we are making progress in efforts to 
provide new facilities that are fully secure, with 13 major capital 
projects in design or construction, another eight expected to begin 
this fiscal year, and nine more in FY 2003.
    I am also pleased that we have been able to improve the morale of 
our State Department families. We are especially proud of our interim 
childcare center at the National Foreign Affairs Training Center. It 
opened on September 4 and can handle a full complement of 30 infants 
and toddlers.
    The idea of family and the quality of life that must always nourish 
that idea even in the remotest station, is uppermost in our minds at 
the Department. While we concentrate on the nation's foreign affairs we 
must also focus on caring about those Americans who conduct it, as well 
as the many thousands of Foreign Service Nationals who help us across 
the globe. For example, our sixty Afghan employees in Kabul worked 
diligently to maintain and protect our facilities throughout the 13 
years the Embassy was closed. They worked at considerable personal risk 
and often went months without getting paid. They even repaired the 
chancery roof when it was damaged by a rocket attack. This is the sort 
of diligence and loyalty that is typical of our outstanding Foreign 
Service Nationals.
    With regard to our budget, last year I told you that the out years 
were a source of concern to me--and they still are. In fact, given the 
costs of the war on terrorism, the downturn in the economy and 
accompanying shrinkage of revenues, I am even more concerned this year 
than last. But I was confident last year that I could make the case for 
State and I am confident this year that I can do so. We have a solid 
case to make, and it is the case of how we best pursue America's 
interests and there is no doubt in this old soldier's mind that foreign 
policy stands foremost among the answers to that ``how.'' And Mr. 
Chairman, I am excited about the changes we've made and the momentum 
we've developed.
    We need to keep that momentum going. That is why for FY 2003 you 
will get no break from me. I am going to focus on resources again this 
year in my testimony, because it is so critical that we continue to 
push the organization and conduct of America's foreign policy into the 
21st Century.
    Since that heart-rending day in September when the terrorists 
struck in New York, Virginia, and Pennsylvania, we have seen why our 
foreign policy is so important.
    We have had great success over the past five months in the war on 
terrorism, especially in Afghanistan. And behind the courageous men and 
women of our armed forces has been the quiet, steady course of 
diplomacy, assisting our military's efforts to unseat the Taliban 
government and defeat the al-Qaida terrorists in Afghanistan.
    We've reshaped that whole region--a new U.S.-Pakistan relationship, 
a reinvigorated U.S.-India relationship, a new Interim Authority in 
Kabul, the Taliban gone, and the terrorists dead, in jail, or on the 
run. We are also forming important new relationships with the nations 
of Central Asia.
    In his second visit to the Department last year, President Bush 
told us that despite the great tragedy of September 11, we could see 
opportunities through our tears--and at his direction, the Department 
of State has been at flank speed ever since, making as much as possible 
of those opportunities.
    And we need to continue to do so and for many years to come. We 
will need resources to do it, so first let me focus on my ``CEO 
dollars'', and then I will turn to foreign policy.
  the budget priorities for fy 2003: department of state and related 
                                agencies
    The President's request for the Department of State and Related 
Agencies for FY 2003 is $8.1 billion. These dollars will allow us to:

  <bullet> Continue initiatives to recruit, hire, train, and deploy the 
        right work force. The budget request includes $100 million for 
        the next step in the hiring process we began last year. With 
        these dollars, we will be able to bring on board 399 more 
        foreign affairs professionals and be well on our way to 
        repairing the large gap created in our personnel structure and, 
        thus, the strain put on our people by almost a decade of too 
        few hires, an inability to train properly, and hundreds of 
        unfilled positions. In FY 2004, if we are able to hire the 
        final 399 personnel, we will have completed our three-year 
        effort with respect to overseas staffing--to include 
        establishing the training pool I described to you last year 
        that is so important if we are to allow our people to complete 
        the training we feel is needed for them to do their jobs. Soon, 
        I will be back up here briefing you on the results of our 
        domestic staffing review.

  <bullet> Continue to upgrade and enhance our worldwide security 
        readiness--even more important in light of our success in 
        disrupting and damaging the al-Qaida terrorist network. The 
        budget request includes $553 million that builds on the funding 
        provided from the Emergency Response Fund for the increased 
        hiring of security agents and for counterterrorism programs.

  <bullet> Continue to upgrade the security of our overseas facilities. 
        The budget request includes over $1.3 billion to improve 
        physical security, correct serious deficiencies that still 
        exist, and provide for security-driven construction of new 
        facilities at high-risk posts around the world.

  <bullet> Continue our program to provide state-of-the-art information 
        technology to our people everywhere. Just as I promised you 
        last year, the budget request will continue projects aimed at 
        extending classified connectivity to every post that requires 
        it and to expanding desktop access to the Internet for 
        Department employees. We have included $177 million for this 
        purpose. Over the past decade, we let the Department's 
        essential connectivity ebb to very low levels and we need to 
        correct that situation.

  <bullet> Continue and enhance our educational and cultural exchange 
        programs. The budget request includes $247 million for 
        strategic activities that build mutual understanding and 
        develop friendly relations between America and the peoples of 
        the world. These activities help build the trust, confidence, 
        and international cooperation necessary to sustain and advance 
        the full range of our interests. Such activities have gained a 
        new sense of urgency and importance since the brutal attacks of 
        September. We need to teach more about America to the world. We 
        need to show people who we are and what we stand for, and these 
        programs do just that.

  <bullet> Continue to meet our obligations to international 
        organizations--also important as we pursue the war on terrorism 
        to its end. The budget request includes $891.4 million to fund 
        U.S. assessments to 43 international organizations, active 
        membership of which furthers U.S. economic, political, 
        security, social, and cultural interests.

  <bullet> Continue to try to meet our obligations to international 
        peacekeeping activities. The budget request includes $726 
        million to pay our projected United Nations peacekeeping 
        assessments--all the more important as we seek to avoid 
        increasing even further our UN arrearages. UN peacekeeping 
        activities allow us to leverage our political, military, and 
        financial assets through the authority of the United Nations 
        Security Council and the participation of other countries in 
        providing funds and peacekeepers for conflicts worldwide. As we 
        have seen in Afghanistan, it is often best to use American GIs 
        for the heavy-lifting of combat and leave the peacekeeping to 
        others.

  <bullet> Continue and also enhance an aggressive public diplomacy 
        effort to eliminate support for terrorists and thus deny them 
        safe haven. The budget includes almost $518 million for 
        International Broadcasting, of which $60 million is for the war 
        on terrorism. This funding will enable the Voice of America and 
        Radio Free Europe/Radio Liberty to continue increased media 
        broadcasts to Afghanistan and the surrounding countries and 
        throughout the Middle East. These international broadcasts help 
        inform local public opinion about the true nature of al-Qaida 
        and the purposes of the war on terrorism, building support for 
        the coalition's global campaign.

    Mr. Chairman, on this last subject let me expand my remarks.
    The terrorist attacks of 9/11 underscore the urgency of 
implementing an effective public diplomacy campaign. Those who abet 
terror by spreading distortion and hate and inciting others, take full 
advantage of the global news cycle. We must do the same. Since 9/11, 
there have been over 2,000 media appearances by State Department 
individuals. Our continuous presence in Arabic and regional media by 
officials with language and media skills, has been unprecedented. Our 
international information website on terror is now online in seven 
languages. Internet search engines show it is the hottest page on the 
topic. Our 25-page color publication, ``The Network of Terrorism'', is 
now available in 30 languages with many different adaptations, 
including a full insert in the Arabic edition of Newsweek. ``Right 
content, right format, right audience, right now'' describes our 
strategic aim in seeing that U.S. policies are explained and placed in 
the proper context in the minds of foreign audiences.
    I also serve, ex officio, as a member of the Broadcasting Board of 
Governors, the agency that oversees the efforts of Voice of America and 
Radio Free Europe/Radio Liberty to broadcast our message into South 
Central Asia and the Middle East. With the support of the Congress, our 
broadcasting has increased dramatically since September 11. We have 
almost doubled the number of broadcast hours to areas that have been 
the breeding grounds of terrorists. The dollars we have requested for 
international broadcasting will help sustain these key efforts through 
the next fiscal year.
    In addition, Under Secretary Charlotte Beers leads an aggressive 
effort to create and implement new programs to reach new audiences. She 
is working with private sector companies, government agencies, and with 
our embassies to create avenues to broader, younger audiences in 
critical regions. One of our new initiatives will focus on Muslim life 
in America. It will include television documentaries and radio programs 
co-produced with Muslim-Americans, speaker exchanges, and op-ed pieces. 
We know that this must be a long-term effort that will bear fruit only 
over time. But we must do it. Two of America's greatest strengths 
during the Cold War were our vigorous information and exchange 
programs. I believe that we can and must build a comparable capability 
today if we are to confront successfully the new threat to our 
security.
    Mr. Chairman, all of these State Department and Related Agencies 
programs and initiatives are critical to the conduct of America's 
foreign policy. Some of you know my feelings about the importance to 
the success of any enterprise of having the right people in the right 
places. If I had to put one of these priorities at the very pinnacle of 
our efforts, it would be our people. We must sustain the strong 
recruiting program we began last year. At the same time, we will 
continue measuring our progress not simply on numbers hired but on how 
our new hire's enhance the Department's mission. We want to get to a 
point where our people can undergo training without seriously 
jeopardizing their missions or offices; where our men and women don't 
have to fill two or three positions at once; and where people have a 
chance to breathe occasionally. Morale at the Department has taken a 
definite swing upward and we want it to continue to rise and to stay as 
high as possible. As a soldier, I can tell you that such high morale, 
combined with superb training and adequate resources, is the key to a 
first-class offense--and that is what our men and women are, the first 
line of offense for America.
    So, before I turn to foreign policy, let me say once again how 
strongly I feel as the CEO of the State Department about this part of 
our budget. It is essential that we have the funds necessary to pay for 
our operations worldwide.
        foreign policy: successes, challenges, and opportunities
    In addition to the successes of the war on terrorism and the 
regional developments its skillful pursuit has made possible, we have 
been busy elsewhere as well.
    With regard to Russia, President Bush has defied some of our 
critics and structured a very strong relationship. The meetings that he 
had with President Putin and the dialogue that has taken place between 
Russian Foreign Minister Ivanov and me and between Secretary of Defense 
Rumsfeld and his counterpart, and at a variety of other levels, have 
positioned the United States for a strengthened relationship with the 
land of eleven time zones.
    The way that Russia responded to the events of September 11 was 
reflective of this positive relationship. Russia has been a key member 
of the antiterrorist coalition. It has played a crucial role in our 
success in Afghanistan, by providing intelligence, bolstering the 
Northern Alliance, and assisting our entry into Central Asia. As a 
result, we have seriously eroded the capabilities of a terrorist 
network that posed a direct threat to both of our countries.
    Similarly, the way we agreed to disagree on the ABM Treaty reflects 
the intense dialogue we had over eleven months, a dialogue in which we 
told the Russians where we were headed and we made clear to them that 
we were serious and that nothing would deter us. And we asked them if 
there was a way that we could do what we had to do together, or a way 
that they could accept what we had to do in light of the threat to both 
of our countries from ballistic missiles.
    At the end of the day, we agreed to disagree and we notified Russia 
that we were going to withdraw from the ABM Treaty. I notified FM 
Ivanov--we talked about our plans for two days. President Bush called 
President Putin. Then the two presidents arranged the way we would make 
our different announcements. And the world did not end. An arms race 
did not break out. There is no crisis in Russia-U.S. relations. In 
fact, our relations are very good. Both presidents pledged to reduce 
further the number of their nuclear weapons and we are hard at work on 
an agreement to record these mutual commitments. This is all part of 
the new strategic framework with Russia.
    We even managed to come to an agreement on how we are going to work 
through NATO. We are now developing mechanisms for pursuing joint 
Russia-NATO consultations and actions ``at 20'' on a number of concrete 
issues. Our aim is to have these mechanisms in place for the Reykjavik 
ministerial in May. And as we head for the NATO Summit in Prague in 
November, I believe we will find the environment for the continued 
expansion of NATO a great deal calmer than we might have expected.
    I believe the way we handled the war on terrorism, the ABM Treaty, 
nuclear reductions, and NATO is reflective of the way we will be 
working together with Russia in the future. Building on the progress we 
have already made will require energy, good will, and creativity on 
both sides as we seek to resolve some of the tough issues on our 
agenda. We have not forgotten about Russian abuse of human rights in 
Chechnya, Moscow's nuclear proliferation to Iran, or Russian 
intransigence with respect to revision of Iraq sanctions. Neither have 
we neglected to consider what the situation in Afghanistan has made 
plain for all to see: how do we achieve a more stable security 
situation in Central Asia? We know that this is something we cannot do 
without the Russians and something that increasingly they realize can't 
be done without us, and without the full participation of the countries 
in the region. We are working these issues as well.
    In fact, the way we are approaching Central Asia is symbolic of the 
way we are approaching the relationship as a whole and of the growing 
trust between our two countries. We are taking issues that used to be 
problems between us and turning them into opportunities for more 
cooperation. Such an approach does not mean that differences have 
vanished or that tough negotiations are a thing of the past. What it 
means is that we believe there are no insurmountable obstacles to 
building on the improved relationship we have already constructed.
    It will take time. But we are on the road to a vastly changed 
relationship with Russia. That can only be for the good--for America 
and the world.
    We have also made significant progress in our relationship with 
China.
    We moved from what was a potentially volatile situation in April 
involving our EP-3 aircraft which was forced to land on China's Hainan 
Island after a PLA fighter aircraft collided with it, to a very 
successful meeting in Shanghai in October between President Jiang Zemin 
and President Bush and an APEC Conference, hosted by China, that was 
equally successful.
    There are certain shared interests that we have with China and we 
have emphasized those interests. They are regional and global 
interests, such as China's accession to WTO, stability on the Korean 
Peninsula, and combating the scourge of HIV/AIDs. On such issues we can 
talk and we can produce constructive outcomes.
    There are other interests where we decidedly do not see eye-to-eye, 
such as Taiwan, human rights, religious freedom, and missile 
proliferation. On such issues we can have a dialogue and try to make 
measurable progress.
    But we do not want the interests where we differ to constrain us 
from pursuing those where we share common goals. And that is the basis 
upon which our relations are going rather smoothly at present. That, 
and counterterrorism.
    President Jiang Zemin was one of the first world leaders to call 
President Bush and offer his sorrow and condolences for the tragic 
events of September 11. And in the almost five months since that day, 
China has helped in the war against terrorism. Beijing has also helped 
in the reconstruction of Afghanistan and we hope will help even more in 
the future.
    Moreover, China has played a constructive role in helping us manage 
over these past few weeks the very dangerous situation in South Asia 
between India and Pakistan. When I could call China's Foreign Minster 
Tang and have a good discussion, making sure our policies were known 
and understood, it made for a more reasoned approach to what was a 
volatile situation. As a result, China supported the approach that the 
rest of the international community had taken. Beijing was not trying 
to be a spoiler but instead was trying to help us alleviate tensions 
and convince the two parties to scale down their dangerous 
confrontation--which now it appears they are beginning to do.
    All of this cooperation came as a result of our careful efforts to 
build the relationship over the months since the EP-3 incident. We 
never walked away from our commitment to human rights, non-
proliferation, or religious freedom; and we never walked away from the 
position that we don't think the Chinese political system is the right 
one for the 21st century. And we continued to tell the Chinese that if 
their economic development continues apace and the Chinese people see 
the benefits of being part of a world that rests on the rule of law, we 
can continue to work together constructively.
    A candid, constructive, and cooperative relationship is what we are 
building with China. Candid where we disagree; constructive where we 
can see some daylight; and cooperative where we have common regional or 
global interests. These are the principles President Bush will take 
with him to Beijing later this month. After meeting with Prime Minister 
Koizumi in Tokyo and with President Kim in Seoul, the President will 
spend a day and a half in Beijing and meet with President Jiang Zemin, 
as well as Premier Zhu Rongji. He will have ample opportunity to put 
these principles to work.
    As we improved our relationship with China, we also reinvigorated 
our bilateral alliances with Japan, Korea, and Australia. Nowhere has 
this been more visible than in the war on terrorism--where cooperation 
has been solid and helpful.
    Prime Minister Koizumi immediately offered Japan's strong support, 
within the confines of its constitution. And he is working to enhance 
Japan's ability to contribute to such global and regional actions in 
the future. President Bush's dialogue with this charismatic and popular 
Japanese leader has been warm, engaging, and productive. Always the 
linchpin of our security strategy in East Asia, the U.S.-Japan Security 
Alliance is now as strong a bond between our two countries as it has 
been in the half-century of its existence. Our shared interests, 
values, and concerns, plus the dictates of regional security, make it 
imperative that we sustain this renewed vigor in our key Pacific 
alliance. And we will.
    With respect to the Peninsula, our alliance with the Republic of 
Korea (ROK) has also been strengthened by Korea's strong response to 
the war on terrorism and by our careful analysis of and consultations 
on where we needed to take the dialogue with the North. President Bush 
has made it very clear that we are dissatisfied with the actions of 
North Korea, that they continue to develop and sell missiles that could 
carry weapons of mass destruction. But we have also made clear that 
both we and the ROK are ready to resume dialogue with Pyongyang, on 
this or any other matter, at any time the North Koreans decide to come 
back to the table. The ball is in Kim Jong-il's court.
    The Australians have been clearly forward-leaning in their efforts 
to support the war on terrorism. Heavily committed in East Timor 
already, Canberra nonetheless offered its help immediately and we have 
been grateful for that help. The people of Australia are indeed some of 
America's truest friends.
    As I look across the Pacific to East Asia I see a much-improved 
security scene and I believe that President Bush deserves the lion's 
share of the credit for this success.
    Another foreign policy success is the improvement we have achieved 
in our relations with Europe. In waging war together on terrorism, our 
cooperation has grown stronger. NATO invoked Article 5 for the first 
time ever on September 12. Since then, the European Union has moved 
swiftly to round up terrorists, close down terrorist financing 
networks, and improve law enforcement and aviation security 
cooperation.
    Moreover, President Bush has made clear that even as we fight the 
war on terrorism, we will not be deterred from achieving the goal we 
share with Europeans of a Europe whole, free, and at peace. We continue 
to work toward this goal with our Allies and Partners in Europe. While 
in the Balkans there remain several challenges to our achieving this 
goal, we believe we are meeting those challenges. We have seized war 
criminals, helped bring about significant changes in governments in 
Croatia and Yugoslavia, and our military forces are partnered with 
European forces in Kosovo and Bosnia to help bring stability and self-
governance, while European-led action fosters a settlement in 
Macedonia. We need to finish the job in the Balkans--and we will.
    I also believe we have been successful in bringing the Europeans to 
a calmer level of concern with respect to what was being labeled by 
many in Europe ``unbridled U.S. unilateralism''.
    There was significant concern among the Europeans earlier last year 
that because we took some unilateral positions of principle for us that 
somehow the U.S. was going off on its own without a care for the rest 
of the world. This was particularly true with respect to the Kyoto 
Protocol. So we set out immediately to correct this misperception. 
Beginning with President Bush's speech in Warsaw, his participation in 
the G-8 meetings and the European Union summit, our extensive 
consultations with respect to the new strategic framework with Russia, 
and culminating in the brilliant way in which the President pulled 
together the coalition against terrorism, I believe that we 
demonstrated to the world that we can be decisively cooperative when it 
serves our interests and the interests of the world.
    But we have also demonstrated that when it is a matter of 
principle, we will stand on that principle. In his first year in office 
President Bush has shown the international community who he is and what 
his administration is all about. That is an important accomplishment--
and one that is appreciated now everywhere I go. People know where 
America is coming from and do not have to doubt our resolve or our 
purpose. They may not always agree with us, but they have no doubt 
about our policy or our position. We want to ensure that this policy 
clarity and this firmness of purpose continue to characterize our 
foreign policy, and not just with the Europeans but with all nations.
    Let me just note that this sort of principled approach 
characterizes our determined effort to reduce the threat from weapons 
of mass destruction--an effort well underway before the tragic events 
of September 11 added even greater urgency. We and the Russians will 
reduce our own deployed nuclear weapons substantially. In the meantime, 
we are using a comprehensive approach, along with our friends and 
allies, to tackle WMD elsewhere, an approach that includes export 
controls, non-proliferation, arms control, missile defenses, and 
counter-proliferation. As you heard President Bush say last Tuesday 
night in the chambers of this Congress, ``the price of indifference [to 
WMD] would be catastrophic.'' There are terrorists in the world who 
would like nothing better than to get their hands on and use nuclear, 
chemical, or biological weapons. So there is a definite link between 
terrorism and WMD. Not to recognize that link would be foolhardy to the 
extreme.
    Principled approach does not equate to no cooperation. We know that 
cooperation is often essential to get things done. On our efforts to 
lift countries out of poverty, for example, and to create conditions in 
which trade and investment flourish, we need to cooperate. This summer 
in Johannesburg, we will participate in the World Summit on Sustainable 
Development. There we will have an opportunity to address such issues 
as good governance; protection of our oceans, fisheries, and forests; 
and how best to narrow the gap between the rich countries and the poor 
countries of the world. And that brings me to my next high mark in our 
foreign policy for the past year, Africa.
    Mr. Chairman, we have crafted a new and more successful approach to 
Africa--the success of which was most dramatically demonstrated in the 
WTO deliberations in Doha last November that led to the launching of a 
new trade round. The United States found its positions in those 
deliberations being strongly supported by the developing countries, 
most notably those from Africa. You may have some idea of how proud 
that makes your Secretary--proud of his country, and proud of this 
Congress for its deliberate work to make this possible. The Congress 
laid the foundation for our efforts with the African Growth and 
Opportunity Act--an historic piece of legislation with respect to the 
struggling economies in Africa. In the first year of implementation of 
this Act, we have seen substantial increases in trade with several 
countries--South Africa by 11%, Kenya by 21%, Lesotho by 51%, and 
Madagascar by a whopping 117%, all based on the first three quarters of 
2001 compared to the same period in 2000. Likewise, we are very pleased 
with the excellent success of the first U.S.-SubSaharan Africa Trade 
and Economic Cooperation Forum which was held last October.
    A large part of our approach to Africa and to other developing 
regions and countries as well, will be a renewed and strengthened 
concern with progress toward good governance as a prerequisite for 
development assistance. Where conditions are favorable, our development 
assistance in Africa will emphasize the vigorous promotion of 
agriculture. Agriculture is the backbone of Africa's economies and must 
be revitalized to reduce hunger and to lift the rural majority out of 
poverty. In addition, we will emphasize fighting corruption and 
President Bush's new initiative on basic education. Moreover, we want 
to emphasize methods that directly empower individuals--methods such as 
micro-lending, a superb vehicle for increasing the economic 
participation and security of the working poor. The people of Africa in 
particular know that in many cases their governments do not deliver the 
health care, transportation and communication networks, education and 
training, and financial investment needed to create 21st century 
economies. They know that this must change if there is to be hope of 
economic success--of job creation, private investment, stable 
currencies, and economic growth.
    We also know and more and more of Africa's people are coming to 
know that none of this economic success is possible if we do not meet 
the challenge of HIV/AIDS. That is why I am pleased to report that 
pledges to the Global Fund to fight AIDS, tuberculosis, and malaria now 
exceed $1.7 billion and continue to grow. Soon, the Fund is expected to 
accept proposals and provide grants to partnerships in those countries 
with the greatest disease burden and the least resources with which to 
alleviate that burden.
    We want the Global Fund to complement national, bilateral, and 
other international efforts to fight these dreaded diseases. Strong 
congressional support will ensure that the United States remains the 
leader in this global humanitarian and national security effort.
    I have not exhausted the list of our foreign policy successes 
either. In our own hemisphere we have met with considerable success, 
from the President's warm relationship with Mexico's President Fox, to 
the Summit of the Americas in Quebec, to the signing of the Inter-
American Democratic Charter in Lima, Peru, to our ongoing efforts to 
create a Free Trade Area of the Americas--including, as President Bush 
described three weeks ago, not only our current negotiations with Chile 
but also a new effort to explore the concept of a free trade agreement 
with Central America.
     Moreover, we have every expectation that the Financing for 
Development Conference in Mexico later this month will be successful. 
There, the importance of good governance, trade, and private investment 
will be the focus. We need to keep democracy and market economics on 
the march in Latin America. And to be sure, there are some dark clouds 
moving in now, and one of the darkest looms over Colombia where a 
combination of narco-terrorism and festering insurgency threatens to 
derail the progress the Colombians have made in solidifying their 
democracy.
    Our Andean Regional Initiative is aimed at fighting the illicit 
drugs problem while promoting economic development, human rights, and 
democratic institutions in Colombia and its Andean neighbors. Intense 
U.S. support and engagement has been the critical element in our 
counterdrug successes in Bolivia and Peru and will continue to be 
critical as we help our regional partners strengthen their societies to 
confront and eradicate this threat to their own democracies and to 
America's national security interests.
    There is another element to this challenge caused by our intense 
focus right now and for the foreseeable future on the war on terrorism. 
U.S. military and law enforcement forces previously assigned to 
interdict the flow of drugs between South America and the United States 
have been reduced by more than fifty percent. Because of this reduction 
we have less capability to stem the flow of drugs from south to north, 
thus we will be even more dependent on friendly countries in source and 
transit zones to help us deal with the drug threat.
    For our Caribbean neighbors, making the situation worse are the end 
results of September 11--lower growth, decreased tourism, increased 
unemployment, decreased tax revenue, and decreased external financial 
flows. This economic decline is compounded by high rates of HIV/AIDS 
infection and financial crime, as well as the traffic in illicit drugs.
    President Bush's Third Border Initiative (TBI) seeks to broaden our 
engagement with our Caribbean neighbors based on recommendations by the 
region's leaders on the areas most critical to their economic and 
social development. The TBI is centered on economic capacity building 
and on leveraging public/private partnerships to help meet the region's 
pressing needs.
    In addition to its economic provisions, the Third Border Initiative 
includes 20 million dollars for HIV/AIDS education and prevention 
efforts. This represents a two-fold increase in U.S. HIV/AIDS 
assistance to the region in just two years.
    As you are aware, Mr. Chairman, our ties to the Caribbean region 
are as much cultural and human as they are economic and political. The 
countries of the Caribbean attract millions of American visitors every 
year and the region is our sixth largest export market. Large numbers 
of Caribbean immigrants have found their way to America, including, I 
am proud to say, my Jamaican forebearers. Here people from the region 
have found freedom and opportunity and have added something wonderful 
to the great American cultural mix. But our primary goal must be to 
help ensure that the peoples of the Caribbean find new opportunities 
for work, prosperity and a better life at home.
    At the end of the day, it is difficult to exaggerate what we have 
at stake in our own hemisphere. Political and economic stability in our 
own neighborhood reduces the scale of illegal immigration, drug 
trafficking, terrorism, and economic turmoil. It also promotes the 
expansion of trade and investment. Today, we sell more to Latin America 
and the Caribbean than to the European Union. Our trade within NAFTA is 
greater than that with the EU and Japan combined. We sell more to 
MERCOSUR than to China. And Latin America and the Caribbean is our 
fastest growing export market. Clearly, the President is right to focus 
attention on this hemisphere and we will be working hard in the days 
ahead to make that focus productive, both economically and politically.
    Mr. Chairman, in addition to the dark clouds I have described 
within our hemisphere, there are vexing problems that persist 
elsewhere, the most prominent of which are in the Middle East. The 
situation between Israel and the Palestinians, Iraq, and Iran are among 
our concerns.
    With respect to the tragic confrontation between Israel and the 
Palestinians, we will continue to try and focus the parties on the need 
to walk back from violence to a political process. Our priorities have 
been and will remain clear: ending the violence and terror through 
establishment of an enduring cease-fire and then movement forward along 
the path outlined in the Tenet Security Workplan and the Mitchell 
Report recommendations, agreed to by both sides and supported by the 
international community. This forward movement would lead ultimately to 
negotiations on all the issues that must be resolved.
    Israelis and Palestinians share a common dream: to live side-by-
side in genuine, lasting security and peace in two states, Israel and 
Palestine, with internationally recognized borders. We share that hope 
for a better tomorrow for both peoples. President Bush expressed this 
positive vision in his speech to the United Nations last November, and 
I described it in my speech later that month in Louisville. And I thank 
one of your Senate colleagues, Senator Mitch McConnell, for inviting me 
on that occasion.
    We must not become frustrated, or yield to those who would have us 
turn away from this conflict--or from this critical region. As the 
President has said, the United States has too many vital interests at 
stake to take such a step, and one of those vital interests is the 
security of Israel. We must not lose sight of what we have achieved 
through our hard work and diplomacy in the region and beyond. There is 
a path out of the darkness, accepted by both Israel and the 
Palestinians--the Tenet Workplan and the Mitchell Report. We have 
mobilized our friends and allies, including the UN, the European Union, 
Russia and others throughout the region and the world, to speak with 
one voice in supporting this road back to peace.
    But first things first. Our positive vision will never be realized 
so long as violence and terror continue. The President and I, and 
General Zinni, have been unequivocal with Chairman Arafat. The 
Palestinian people will never see their aspirations achieved through 
violence. Chairman Arafat must act decisively to confront the sources 
of terror and choose once and for all the option of peace over 
violence. He cannot have it both ways. He cannot engage with us and 
others in pursuit of peace and at the same time permit or tolerate 
continued violence and terror. In that regard, I have made clear to 
Chairman Arafat that the smuggling of arms to the Palestinian Authority 
by Iran and Hizballah aboard the Karine A is absolutely unacceptable. 
Chairman Arafat must ensure that no further activities of this kind 
ever take place and he must take swift action against all Palestinian 
officials who were involved.
    Chairman Arafat knows what he must do. Actions are required, not 
just words, if we are to be in the position of working effectively 
again with him to help restore calm and forward movement. Israel too 
must act. Prime Minister Sharon has spoken of his desire to improve the 
situation of Palestinian civilians, confronted with a disastrous 
economic crisis and suffering daily. We have urged the Israeli 
government to act in ways that help ease these hardships and avoid 
further escalation or complicate efforts to reduce violence. Difficult 
as the present circumstances are, the United States will remain 
involved. But, in the end, Israel and the Palestinians must make the 
hard decisions necessary to resume progress toward peace.
    With regard to Iraq, that country remains a significant threat to 
the region's stability. We are working at the UN and elsewhere to 
strengthen international controls on Iraq. In the last year, we 
successfully stopped the free fall of sanctions and began to rebuild 
United Nations Security Council consensus on Iraq. The UNSC unanimously 
adopted resolution 1382 in November, committing itself to implement the 
central element of ``smart sanctions'' by May 30 of this year. This 
central element, or Goods Review List (GRL), identifies materials UNSC 
members must approve for export to Iraq and ensures continued 
supervision and control over dual-use goods. Its implementation will 
effectively lift economic sanctions on purely civilian trade and focus 
controls on arms, especially WMD. This will further strengthen support 
for UN controls by showing the international community that Saddam 
Hussein, not the UN and not the U.S., is responsible for the 
humanitarian plight of the Iraqi people. We are working with the 
Russians to get final agreement on the GRL.
    At the end of the day, we have not ruled out other options with 
respect to Iraq. We still believe strongly in regime change in Iraq and 
we look forward to the day when a democratic, representative government 
at peace with its neighbors leads Iraq to rejoin the family of nations.
    With regard to Iran, we have a long-standing list of grievances, 
from concerns about proliferation to Iran's continued sponsorship of 
terrorism. We have been clear in communicating to Teheran that its 
support for terrorism remains a serious unaddressed concern--and this 
includes the case of the Karine A transporting arms.
    Teheran's latest provocation, besides the arms aboard the Karine A, 
has been its apparent unhelpful activities in the post-Taliban 
environment of western Afghanistan. This, after being quite helpful as 
we prosecuted the war against terrorism in Afghanistan and, at the Bonn 
Conference, being helpful with the setup of the Interim Authority in 
Kabul.
    After citing the list of our grievances with Iran, however, I am 
still convinced that we may be able to talk to Iran, that we may be 
able to have a reasonable conversation with Iranian leaders. With 
respect to the situation in Afghanistan, for example, I believe we can 
demonstrate to them that it is not in their interest to destabilize the 
government that they helped to create in Bonn. The other issues will be 
more difficult; but I do believe constructive talks with Iran on 
Afghanistan are possible.
    Mr. Chairman, I have not yet spoken at length about the crisis in 
South Asia or the war against terrorism, both of which I know are on 
all of the committee members' minds. Let me turn to those two very 
important matters now.
                        the crisis in south asia
    The standoff between India and Pakistan is a very dangerous 
situation. Any situation where you have forces that are mobilized and 
are in proximity to one another and are at something of a war footing 
with nearly a million soldiers deployed, is a dangerous situation. One 
where both sides have nuclear and missile capability is dramatically 
more so. As President Bush and I worked this issue over the past few 
weeks, we noted however that there was an opportunity for a political 
and diplomatic solution--a solution that would avoid what could be a 
very disastrous conflict if it came to war.
    Prime Minister Blair visited the region in early January. Chinese 
premier, Zhu Rongji, visited New Delhi the week of January 14. As you 
know, I visited New Delhi and Islamabad three weeks ago. I talked 
frequently by phone with General Musharraf and with my counterpart in 
India, Foreign Minister Singh. We talked at length about how to reach a 
point where the two sides could say ``All right, let's start to 
deescalate.''
    President Musharraf's speech on January 12 was a seminal event. It 
not only dealt with terrorism and extremism in a way that I believe New 
Delhi found constructive, it sent a clear message to Pakistanis that 
terrorism must end if Pakistan is to enter the 21st century with 
expectations of progress and a decent life for its people. President 
Musharraf showed great courage and foresight in sending such a decisive 
message to his country and, by extension, to the Islamic world at 
large. Now he must show equal courage in implementing his concepts in 
Pakistan.
    From the start of this crisis, both New Delhi and Islamabad have 
indicated that they want to avoid war, that they are desirous of 
solving the standoff through political and diplomatic means. Now, as we 
are seeing and as we are hoping, events seem to be progressing toward 
that end. We will continue monitoring the situation, urging restraint 
and dialogue, and helping where and when we can. We will encourage both 
India and Pakistan to refrain from provocative rhetoric and to move 
toward redeployment of their military forces. We need to continue 
carefully walking down from the very precarious position each country 
has created with respect to the other.
    Mr. Chairman, let me now turn to the war on terrorism.
                          the war on terrorism
    A little over two weeks ago, I was in Tokyo to join the European 
Union, Saudi Arabia, and Japan in hosting the Afghan Donor Conference. 
Representatives from over 60 countries attended, as well as experts 
from the Multilateral Development Banks, and a number of UN agencies. 
The conference helped to ensure that a wide range of countries will 
help the Afghans rebuild their country. The United States pledged $296 
million at the conference and others pitched in accordingly. The total 
pledged at this point is around $4.5 billion with more than $1.8 
billion for the first year. I am pleased with the first-year funds, but 
we must do much better for the long haul.
    The heavy-lifting with respect to Afghanistan is only just 
beginning. We have helped the Afghans remove the oppressive Taliban 
regime from their country. We have destroyed the al-Qaida network in 
Afghanistan, with our troops mopping up some of the remnants as we 
speak. We have made possible the delivery of humanitarian aid, 
including massive amounts of food. We have avoided the wholesale 
starvation that many predicted. Moreover, we have helped the people of 
Afghanistan establish a multi-ethnic Interim Authority in Kabul, led by 
Chairman Karzai. One of its ultimate goals is to oversee an agreed 
process that will lead to a broad-based Afghan government--one that 
represents all the people of the country, people of every background 
and region, women as well as men.
    We also have a rare chance to disrupt seriously the flow of opium 
in the world, as Afghanistan has been the world's largest source of 
this drug which is the base for heroin. A government that is headed 
toward reconstruction, toward building a new and better life for its 
citizens, and a government that is concerned with feeding its 
population and giving them adequate education, good roads, clean water, 
and other needed services, will not be a government that permits the 
selling of opium to the world. And such a government needs to be secure 
as well.
    Many of our key allies and partners are contributing to the 
International Security Assistance Force in Kabul to help ensure a 
secure environment for Mr. Karzai to build a new Afghanistan. We are 
reviewing whether or not more forces might be needed for this force and 
we will continue to look closely at the security needs as we move 
forward. We want to do everything possible to prevent the rise of any 
alternative power to the Interim Authority, until a permanent 
government can be established and begin to take care of that challenge 
on its own.
    Much remains to be done and admittedly a lot of what remains will 
be difficult to accomplish. But we believe that at long last 
Afghanistan is on a positive track. There is no question that this is a 
time of great challenge for the Afghan people, but it is equally 
unquestionable that this is also a time of great hope. And, as 
President Bush pledged last week during Chairman Karzai's visit to 
Washington: ``The United States is committed to playing a leading role 
in the reconstruction of Afghanistan.''
    Mr. Chairman, you and several other Senators have been to 
Afghanistan. You have seen at first hand the desperate need but also 
the hope for the future. You know from your visit how important it is 
to provide the needed funds for reconstruction. We must have a long-
term commitment, from America and from the other countries dedicated to 
this process. If we can ensure such a commitment, and if we can achieve 
proper accountability and use of these funds, then I believe there is a 
good chance of making significant progress in bringing a new future to 
Afghanistan--and ending the days of warlordism and political chaos that 
bred the Taliban and made a fertile ground for terrorists.
    And as reconstruction begins in Afghanistan, the war against 
terrorism continues. As President Bush said last week in his State of 
the Union Address, ``What we have found in Afghanistan confirms that, 
far from ending there, our war against terror is only beginning.'' The 
administration is working together in new ways never before envisioned. 
And that's what this effort is going to require. FBI, CIA, INS, 
Treasury, State, NSC, the Attorney General and Justice Department, and 
others, are all coming together. This campaign is transnational, cross-
border, even global in a way we have never contemplated.
    What we are trying to do on the foreign policy side is to help 
analyze where al-Qaida cells might seek refuge. A country that 
immediately comes to mind is Somalia because it is quite a lawless 
place without much of a government and because it has been this sort of 
terrorist haven in the past, providing training camps, communications 
links, and financial cover.
    We are watching Somalia very closely. Terrorism might find fertile 
ground there and we do not want that to happen. No plans have been 
made--yet. But if we find al-Qaida there, you can rest assured we will 
take the appropriate action.
    We have also had a good dialogue with President Ali Abdallah Salih 
of Yemen and we believe that actions he is taking are a good first step 
toward the goal of uprooting the al-Qaida network there.
    There are other countries we are working with as well, some of whom 
have their own sort of terrorist problem that has spillover into our 
own problem. The Philippines has the Abu Sayyaf, who in the past have 
had connections with al-Qaida. But this is not just a campaign against 
al-Qaida--it is a campaign against terrorism throughout the world.
    So we are working with President Arroyo in the Philippines to 
assist that country in combating its terrorists--who as you know right 
now hold two American citizens as hostages.
    We are also working with the Sudan, a country with whom we have had 
major difficulties in the past few years. Even before September 11 we 
had been working with the Sudanese, asking them ``What do you get for 
this? What do you get for letting people like these terrorists have 
safe haven in the Sudan? What does it do for you except bring down the 
condemnation of the world?'' And they have been somewhat responsive. 
The problems in the Sudan are not solved by any means. But some new 
opportunities have opened up.
    As you can see, then, part of our approach to this extended 
campaign against terrorism is to work with countries such as the Sudan. 
We are not being naive, not being unmindful of the challenges that 
exist, but using diplomacy, using good people like Senator Danforth and 
others, and at the same time cooperating together on intelligence and 
law enforcement activities to put a stop to easy passage or safe haven 
for terrorists.
    We have not made any recommendation to the President about the 
major use of military force and the President has made no decision as 
yet with respect to such use of force. But there are many other actions 
that are taking place--actions of a law enforcement, political, 
diplomatic, financial, and intelligence-sharing nature.
    A sizable portion of the President's budget request is dedicated to 
these counterterrorism efforts, as you will see as I turn to the 
specific priorities of our budget request for Foreign Operations.
         the budget priorities for fy 2003: foreign operations
    The President's FY 2003 request for Foreign Operations is a little 
over $16.1 billion. These dollars will support the continuing war on 
terrorism, the work we are doing in Colombia and the Andean region at 
large, our efforts to combat HIV/AIDS and other infectious diseases, 
the important work of the Peace Corps and the scaling up of that work, 
and our plan to clear arrearages at the Multilateral Development Banks.
War on Terrorism
    As the war on terrorism expands, it will remain the top U.S. 
foreign policy priority. To fight terrorism as well as alleviate the 
conditions that fuel violent extremism, we are requesting an estimated 
$5 billion. In addition to the initiatives outlined previously under 
the budget for the State Department and Related Agencies, this funding 
includes:

  <bullet> Foreign assistance--$3.5 billion for economic and security 
        assistance, military equipment, and training for front-line 
        states and our other partners in the war on terrorism.

  <bullet> $3.4 billion from Foreign Operations accounts such as the 
        Economic Support Fund, International Military Education and 
        Training, Foreign Military Financing, and Freedom Support Act.

  <bullet> $88 million for programs in Russia and other states of the 
        former Soviet Union to reduce the availability to terrorists of 
        weapons of mass destruction. Ongoing programs engage former 
        weapons scientists in peaceful research and help prevent the 
        spread of the materials expertise required to build such 
        weapons.

  <bullet> $69 million for counterterrorism engagement programs, 
        training, and equipment to help other countries fight global 
        terror, thereby strengthening our own national security.

  <bullet> $4 million for the Treasury Department's Office of Technical 
        Assistance to provide training and other necessary expertise to 
        foreign finance offices to halt terrorist financing.

    And Mr. Chairman, while in the FY 2003 budget request there is no 
money identified at the moment for Afghanistan reconstruction, I know 
that President Bush, the Congress, and the American people recognize 
that rebuilding that war-torn country must be and will be a multi-year 
effort. The Administration will be working closely with this committee 
and with the Congress to sustain our contribution in future years.
Andean Counterdrug Initiative
    We are requesting $731 million in FY 2003 for the multi-year 
counter-drug initiative in Colombia and other Andean countries that are 
the source of the cocaine sold on America's streets. ACI assistance to 
Andean governments will support drug eradication, interdiction, 
economic development, and development of government institutions. 
Assisting efforts to destroy local coca crops and processing labs there 
increases the effectiveness of U.S. law enforcement here.
Global Health and HIV/AIDS
    In FY 2003, we are requesting $1.4 billion for USAID global health 
programs. Of this amount, we are requesting $540 million for bilateral 
HIV/AIDS prevention, care, and treatment activities, and $100 million 
for the Global Fund to fight AIDS, tuberculosis, and malaria, to which 
I referred earlier. All of this funding will increase the already 
significant U.S. contribution to combating the AIDS pandemic and make 
us the single largest bilateral donor to the effort. I should add that 
the overall U.S. Government request for international HIV/AIDS programs 
exceeds one billion dollars, including $200 million for the Global 
Fund.
The Peace Corps
    All of you heard the President's remarks last Tuesday evening with 
respect to the USA Freedom Corps and his objective to renew the promise 
of the Peace Corps and to double the number of volunteers in the Corps 
in the next five years. We have put $320 million for the Peace Corps in 
the FY 2003 budget request. This is an increase of over $42 million 
over our FY 2002 level. This increase will allow us to begin the 
scaling up that the President has directed. In addition to re-opening 
currently suspended posts, the Peace Corps will establish new programs 
in eight countries and place over 1,200 additional volunteers 
worldwide. By the end of FY 2003 the Peace Corps will have more than 
8,000 volunteers on the ground.
MDB Arrears
    The FY 2003 request includes an initiative to pay one third of the 
amount the United States owes the Multilateral Development Banks (MDBs) 
for our scheduled annual commitments. With U.S. arrears currently now 
totaling $533 million, the request would provide $178 million to pay 
one third of our total arrears during the fiscal year. The banks lend 
to and invest in developing economies, promoting growth and poverty 
reduction. We need to support them.
Summing Up
    Mr. Chairman, you have heard from me as CEO of the State Department 
and as principal foreign policy advisor to the President. I hold both 
responsibilities dear. Taking care of the great men and women who carry 
out America's foreign policy is as vital a mission in my view as 
helping to construct and shape that foreign policy.
    As I told this committee last year and as I have already reminded 
it again this year, the conduct of the nation's foreign policy suffered 
significantly from a lack of resources over the past decade. I have set 
both my CEO hat and my foreign policy hat to correct that situation. 
But I cannot do it without your help and the help of your colleagues in 
the Senate and across the capitol in the House. I believe we have 
demonstrated in the past year that we are worth the money. I believe we 
have demonstrated that we can be wise stewards of the people's money 
and put it to good use in the pursuit of America's interests abroad. I 
also believe that we have demonstrated conclusively that we are 
essential to that process of pursuing the nation's interests. With your 
able assistance, we will continue to do so in the months ahead.
    Thank you, and I will be pleased to take your questions.

    The Chairman. Thank you very much, Mr. Secretary. We will 
try to go through these rounds fairly quickly. And I know that 
we have many, many questions for you.
    Let me begin by one housekeeping matter. We are going to 
have some very serious and prolonged hearings on AIDS, with the 
strong support of the ranking member and leadership of the 
Senator from Wisconsin, as well as Senator Kerry, our colleague 
from Tennessee and others. There is a consensus here that it 
must not go unattended. It is not. And toward that end, we will 
be having the first hearing on the 13th, next Wednesday. And 
toward that end in that afternoon, Kofi Annan feels this is 
such an important thing to continue the tradition started by 
the Chairman, Senator Helms, we have jointly invited him to 
come down and not to testify because it is not particularly 
appropriate, but to come at 3 o'clock to the committee and we 
are inviting other Senators as well to participate. And so that 
will be at 3 o'clock in the afternoon on the 13th as well. So 
that is, we share your view.
    The last, not housekeeping but generic point I wish to make 
is if anyone doubts the resolve of this generation of young 
people, I hear it so often about this generation, they ought to 
follow you or me or others of us around the world, and be in 
that bunker or sit in the basement of that embassy which is in 
God-awful shape and the buildings and the structures there and 
see these young kids. I mean, they are incredible, absolutely 
incredible.
    I know you know the stories you heard when our one star, 
Bob Grim was telling us, he brought me in without staff and let 
me listen to some of the intel they had picked up and I have to 
tell one story.
    He tells us about a story, you know, we have, as you know, 
young Marines, the Special Forces folks, going out with a dozen 
or a couple of them going out with a dozen or more Northern 
Alliance people and, we are going, we are looking in those 
caves and we are in Tora Bora, we are in Jalalabad, we are 
going around trying to root these guys out.
    They tell me this one story where this group gets ambushed 
and all of the Northern Alliance guys take off and you hear a 
young sergeant say, I won't use exact language, but a young 
gunny saying I will be darned if I am leaving and the young 
captain with him saying I think we can take these guys. There 
were close to 50 of them. These two kids hunkered down. You can 
then hear the Northern Alliance guys saying, I won't use the 
vernacular, but as translated to me but hey, these guys are 
pretty tough and they go back with them and they defeat this 
group.
    And then that same group comes to me in the afternoon and 
says after another briefing, says Senator, these same kids are 
out there, we need help, you know, there is a group, there is a 
children's hospital in Kabul. There is no heat. We sent our 
engineer over there, we need $320 in parts. Defense did not 
have it, State did not have it. I said how did you do it? ``We 
passed the hat.''
    The same kids are out there getting shot at. They passed 
the hat for $325, went out and bought on the black market the 
material to fix the children's hospital to put heat in there. 
So I want to tell you, my dad's generation may be the greatest 
generation because they had the greatest challenge they were 
facing. This generation of kids has the capacity, if called 
upon, to be the greatest generation. They are something else. 
So I hope, I just wish people would see what they are doing.
    Secretary Powell. Thank you.
    The Chairman. I have been asked how many minutes. I have 
already trespassed on the minutes. Since it is close to 12, we 
will make it 7 minute rounds, is that good with you, Senator?
    Secretary Powell. You make the point, Mr. Chairman, there 
is greatness in every generation.
    The Chairman. There really is, and these kids are amazing, 
absolutely amazing.
    At any rate, on the ``axis of evil.'' You have spoken to 
the same people and many more than I have spoken to and Senator 
Hagel has spoken to being over at the Wehrkunde conference, and 
I was up at the World Economic Forum, and it may be understood 
by the administration but to say the least, it has confused our 
friends and angered some of our allies. They are confused not 
because they think these guys are good guys, but they wonder 
why if the criteria for calling North Korea evil, why do we not 
call China evil?
    China is exporting--we are sanctioning them--the same 
material. China is building, increasing their nuclear arsenal. 
Why Iran if not Syria. Assad in Syria has made the most 
inflammatory remarks I have heard anybody make at all in the 
world about the United States so far, except for bin Laden. And 
the list goes on.
    So my question is was it meant to stake out the general 
notion that we know these guys are bad guys, they are not the 
only bad guys or is it meant to be an all inclusive list or was 
it, I am not being facetious, was it a rhetorical connection 
between Roosevelt and or Reagan, axis and evil. These folks are 
not allies, they are not on the same page. Can you talk to me a 
little bit about that?
    Secretary Powell. What the President wanted to do was to, 
and remember the context in which he used the term, he was 
talking about terrorism, he wanted to make the point that even 
if we finished with al-Qaeda in Afghanistan, even if we got al-
Qaeda everywhere that is in the 50-odd countries that it is 
located, we still have a problem, the civilized world has a 
problem.
    The problem is there are still regimes out there that not 
only are supporting terrorist organizations as a matter of 
state policy, but they are also developing weapons of mass 
destruction and means to deliver them that might then allow 
them to become a terrorist state because they could do that, or 
they could provide the wherewithal to terrorist organizations 
to use these sorts of things against us. So I think it was a 
clear statement that these three particular countries, if not 
identical to each other with respect to their policies, have 
enough to link them with respect to their attitudes to the rest 
of the world and the kinds of things they are doing. And they 
are probably not the only ones we could have put into the club.
    With respect to your reference to China, we called China to 
account for their proliferation activities. We just put two 
more Chinese companies under sanction.
    The Chairman. I am not suggesting you add them, I am just 
wondering why you----
    Secretary Powell. We have a dialog with China. We can talk 
to China. We have ways of dealing with China in a sensible way. 
With North Korea, no. With Iraq, no. With Iran, no. And they 
continue to pursue these policies which frankly are dangerous 
to us. And the President wanted to make sure that everybody 
understood that.
    Now, the response that has come back has been mixed. Some 
people have said they understand exactly what he was talking 
about. I think most people understand exactly who he is talking 
about. But for some in the foreign policy community or 
editorial or journalistic community found it a bit too shocking 
and it rankled them too much. I think when you settle down, the 
President did not announce any new policies with respect to 
them because we have a set of policies in place with respect to 
each and every one of them.
    The Chairman. Well, just so you know what people have said 
to me, including Foreign Ministers of our major allies, is that 
big nations cannot bluff. The President said that we weren't 
going to wait for these dangers to get worse. They raised the 
question of whether or not we have changed our policy about 
using preemptive force to take out, for example, any of the 
facilities that the North Koreans we believe are using to 
develop these weapons, and whether we have decided that we have 
the right under international law or without international law 
to preemptively strike Iran as they continue to try to enhance 
their missile capability, which would be a change in policy. It 
would be--well--
    Secretary Powell. I am not aware of a policy of no 
preemption ever.
    The Chairman. No, no, but I mean, well, they, let me be 
more precise. They are asking whether or not the policy is now 
that we are just saying to them unless they cease and desist in 
these efforts now, we will use whatever force is necessary now 
to take out their capacity to develop these weapons.
    Secretary Powell. That is not what the President said, and 
if they would listen to what he said, that is not what he said, 
nor did he announce any new policies the next day nor did we.
    The Chairman. Well, proliferation is of great concern to 
all of us and I, and to the extent that Iraq is a problem, and 
I think it is. I happen to be one that thinks that one way or 
another Saddam has got to go and it is likely to be required to 
have U.S. force to have him go and the question is how to do it 
in my view, not if to do it, but I won't in my short time here, 
pursue that. But with regard to nonproliferation efforts, if 
Iraq is a concern and North Korea is a concern about 
proliferating the capability for individual terrorist groups to 
act, the virtual candy store that is out there is Russia, not 
because Russia wants to, but because Russia based on the Baker 
report and many other reports has everything that any terrorist 
could possibly want from fissile material lying around to, as 
Senator Lugar has forgotten more about this than I am going to 
know, but chemical munitions that are potentially available, 
not very much under guard to the attempts to get actually a 
nuclear capacity, and I am talking about of the ilk of the al-
Qaedas of the world.
    And we are going to spend this year in this budget $8.3 
billion on what the Joint Chiefs of Staff, as well as the 
national intelligence estimate, judges to be the least likely 
threat, that is an ICBM striking the United States and yet we 
are going to spend only 1 point--if you add everything up, it 
is less than $1.3 billion on dealing with the proliferation of 
this capability. Do you think that is the right balance?
    Secretary Powell. You can always find two items and make a 
judgment as to whether the balance is correct or not. And $1.3 
billion is a significant amount of money.
    The Chairman. It is a very, very small increase over what 
we had done last year.
    Secretary Powell. And there is also an absorption issue as 
well. In the past week I have discussed this with the Russian 
Prime Minister. I have also discussed it with the Russian head 
of the their chemical weapons holdings. It has now been moved 
from the Ministry of Defense to a civilian organization, where 
we can get a little better insight into what they are doing. We 
are looking at other ways of increasing the funding for these 
kinds of programs perhaps through some kind of debt relief.
    The Chairman. It seems to be a win-win circumstance if we 
could do it.
    Secretary Powell. Absolutely. But you are right. What 
impresses me is that the Russians also recognize this as well.
    The Chairman. That is clear to me. I will come back to ask 
about Iraq in the second round here if we have time. Senator 
Helms.
    Senator Helms. Thank you, Mr. Chairman. I have been a 
member of this committee about as long as anybody.
    The Chairman. We came the same day.
    Senator Helms. I have never heard a more comprehensive 
report by a Secretary of State, and I have heard a few.
    Secretary Powell. Thank you, sir.
    Senator Helms. And I have been your friend for a long time 
and I just want to compliment you, man to man.
    Secretary Powell. Thank you, sir.
    Senator Helms. I was pleased what you said about the 
President with respect to the ``axis of evil,'' that is to say, 
Iran, Iraq and North Korea. And I know you are aware but I want 
to make a point of it there have been two recent national 
intelligence estimates, they call them NIEs down in your shop, 
about each one of these countries making aggressive efforts to 
acquire weapons of mass destruction and ballistic missiles.
    Now, that is more than a minor interest to the United 
States and I am glad the President said what he did. He meant 
it and I agreed with him and I mean it.
    I am confessing how old I am. I think I may be the only guy 
in this room who remembers December 7, 1941. Now I remember it 
well because I went up to the Navy recruiting station after we 
put out an extra of my newspaper and volunteered for the Navy.
    I am a little bit disappointed. I am about to get over this 
situation with Japan, but there is a matter involving a lot of 
states in this country of ours, poultry producing states and 
are you aware of the ban on United States poultry by Japan?
    Secretary Powell. Yes, sir.
    Senator Helms. Howard Baker is working on it and doing a 
good job but I want to continue to be friends of the Japanese, 
but if they are going to take crazy positions like this, 
because there is one county in Pennsylvania where there was 
poultry disease, avian influenza, one county in Pennsylvania 
and that is all, and nowhere else in this country and yet they 
have banned our poultry. Now, I know you are going to look into 
that for us and I appreciate it.
    Now, last June, our President called for NATO enlargement 
from the Baltic to the Black Sea. There is no down side to 
broadening and strengthening the Atlantic alliance of free 
nations in my judgment, because it is a part, as you have 
stated this morning that we will enhance the security of our 
own country.
    But I am a little bit worried that NATO enlargement is 
taking a back seat to other priorities, and you have reassured 
me, but can you fully reassure me that it is going to be on the 
front burner?
    Secretary Powell. It is on the front burner and I am 
absolutely sure that a number of nations will be invited at the 
Prague summit to become members of NATO. I am not prepared to 
say today how many of the aspirants will be invited. But I 
think it is going to be a pretty good size addition to the 
membership, and the standard will be: do they contribute to the 
alliance? Have they met the standards of the membership action 
plan? And nobody will have a veto over whether they are in or 
out. It is up to the members of NATO to decide how to expand 
the club.
    At the same time, the NATO-Russia at 20 piece of it will 
give Russia some reassurance about the expansion of NATO as 
being something that is not threatening to them because it 
gives them a voice in NATO without any veto over NATO 
activities. And so that is why we are anxious to put together 
NATO-Russia at 20 by the time of the Reykjavik Ministerial in 
May to set ourselves up for the President's trip to Moscow, 
also in May, and then the Prague summit in the fall.
    Senator Helms. Mr. Secretary, this is almost a personal 
matter. A Hong Kong businessman, Li Guangqiang, was sentenced 
last week to 2 years in prison in China for transporting Bibles 
into China. Are you aware of that?
    Secretary Powell. Yes, sir. And we find it a deplorable 
sentence and deplorable charge.
    Senator Helms. It just occurred to me this morning when 
were you talking about the President and you going to China, 
this is a matter of importance to a lot of people in this 
country, and I wonder if the President and you would take up 
this matter with the Chinese because that is reprehensible. 
That is censorship at its worst, as far as I am concerned.
    Secretary Powell. The President called us about it as soon 
as he saw it a few weeks ago and he raised this kind of thing 
with President Jiang Zemin when he was in Shanghai last fall 
and I am sure it will come up again later this month.
    Senator Helms. I am sure it will, too. But this is just 
reprehensible.
    Finally, I am concerned about reports from Venezuela last 
week that President Chavez is consorting with narco-terrorists 
in Colombia. Physical evidence, namely a videotape and a 
memorandum establishes beyond any doubt, I think, that he is 
supporting the narco-terrorists in Colombia. Presuming all of 
that is so, what do you think ought to be the United States' 
position in the face of President Chavez's continued behavior 
both at home and abroad, and then a related area while I am at 
it, while I am encouraged to see the President's proposal to 
train Colombians in pipeline security, that is a necessity, how 
else can we increase help to the Colombian Government in their 
war against the narco-terrorists. I did not leave you much 
time.
    Secretary Powell. Briefly, we have been concerned with some 
of the actions of Venezuelan President Chavez, and his 
understanding of what a democratic system is all about. We have 
not been happy with some of the comments he has made with 
respect to the campaign against terrorism. He was not as 
supportive as he might have been and he drops in on some of the 
strangest countries to visit. I am not sure what inspiration he 
thinks he gets or what benefit it is to the Venezuelan people 
dropping in or visiting some of these despotic regimes. We have 
expressed our disagreement on some of these policies directly 
to him and he understands that it is a serious irritant in our 
relationship.
    Senator Helms. What did he say when you----
    Secretary Powell. He gets quite defensive. We have had our 
Ambassador go in on a couple of occasions and he becomes quite 
defensive. And we have also gone to some of our friends in the 
region to also suggest to President Chavez that there are 
perhaps better ways to deal with a campaign against terrorism 
and better ways to deal with the challenges his country is 
facing.
    With respect to the specific issue on the videotape and 
support of narcotraffickers, I saw those reports, but I think I 
had better wait until I get a complete analysis before I 
comment on any particular charges.
    With respect to the Colombian pipeline, as you know, this 
is a program that we are supporting to the tune of $98 million 
in our budget. Because it is a critical pipeline for Colombia, 
they do need to find a way to protect it in order to support 
their economic development and to keep their economy moving 
forward. But our principal focus with the Andean Initiative is 
on the counter-narcotics and not counter-insurgency.
    Senator Helms. Thank you again, Mr. Secretary.
    The Chairman. Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman.
    [The prepared statement of Senator Feingold follows:]

           Prepared Statement of Senator Russell D. Feingold

    I am pleased to welcome Secretary Powell here today. Since the 
Secretary last appeared before this committee in October, I recognize 
that he has worked tirelessly to bring together an effective 
international coalition to fight terrorism. And as the President and 
the Secretary of State have made clear on any number of occasions, the 
current coalition effort to fight terrorism must be waged on a variety 
of fronts. I believe the President's foreign affairs budget request for 
fiscal year 2002 begins the important but difficult process of defining 
a broad range of diplomatic, military and foreign assistance priorities 
for the next stage of our global effort to confront terrorism.
    The President's budget clearly recognizes that appropriate military 
actions, under the authority of the War Powers resolution, must be 
balanced by efforts to restrict terrorist financing, augment the reach 
and effectiveness of our foreign assistance programs, and improve our 
public diplomacy. I commend the President for giving careful 
consideration to the complicated, multi-faced nature of these foreign 
commitments. But in the coming months, as we shape the final budget, we 
must all struggle to ask whether these budget priorities meet our 
national security needs in this new and complex international 
environment.
    One striking aspect of the President's budget request is the 
significant expansion it proposes in military spending, including 
through expanded military relationships with other countries. Over the 
coming months we must ask whether these new military commitments 
respond most effectively to the security needs around us. In reviewing 
the proposed budget, I will seek to highlight the shared constitutional 
responsibilities of both the President and the Congress in making 
critical decisions concerning our international military commitments. 
The Joint Resolution adopted by Congress and signed into law by the 
President in September provided the President with statutory 
authorization to use all necessary and appropriate force against those 
responsible for the September 11 atrocities. But to preserve our 
constitutional framework and the popular resolve that has lent so much 
to our success to date, the President must recognize that as laudable 
as it might be for the U.S. to root out all bad actors around the 
globe, such action is outside the scope of the use of force resolution 
that Congress passed, and beyond the means of our current budget 
resources. As a result, we must work closely with the Administration to 
design an effective and cost-efficient response to the global threats 
that confront us.
    We must also ensure that these military commitments leave 
sufficient foreign aid resources to build safer, healthier democratic 
societies around the world. For we must all now recognize that economic 
development and global health are indeed important and long neglected 
components of a comprehensive national security strategy. The budget 
must similarly offer adequate support to promote human rights, the rule 
of law and democratic reform, particularly within coalition countries 
with weak governmental institutions and difficult human rights records 
that have nonetheless made the choice to side with us in the fight 
against terrorism. Indeed, we must demand attention to human rights and 
democracy as a basis for building a mature relationship with these new 
coalition partners, and our foreign affairs budget must provide the 
resources to accomplish this important objective.
    The President's budget also recognizes that we must ensure that our 
close strategic partners are not ignored as we move forward in building 
a new and unprecedented coalition against terrorism. We must act to 
reassure those states, although we must simultaneously recognize that 
there are few areas or regions of the world that have not been touched 
by the devastating events of September 11.
    As Chairman of the Subcommittee on African Affairs, I will also 
carefully follow the budget process as it affects our relationships 
with African states. And while I recognize that urgent needs in South 
Asia will require significant foreign assistance resources this year 
and in the years ahead, I will work to ensure that sub-Saharan Africa, 
a region with tremendous needs, will not be left short in an effort to 
free resources for other parts of the world. I also urge the Secretary 
to seize the public diplomacy opportunities that exist within these new 
budget priorities to reach out to African Muslim communities, and to 
use the new Peace Corps expansion to promote health and development 
across the African continent.
    We all have much work to do to craft a final budget that responds 
adequately and responsibly to the complex new environment around us. I 
look forward to working with Secretary Powell and the Administration to 
accomplish that task.

    Senator Feingold. Let me first thank you for your 
leadership in general but especially for your comments and your 
leadership on the HIV/AIDS issue. I am greatly looking forward 
to the hearings next week and I can't think of anything that is 
more pressing for the committee and you have devoted a lot of 
your effort to it and I thank you for that.
    Mr. Secretary, I appreciate your statement and I can safely 
speak for the people in my state in saying we are grateful for 
your tremendous leadership.
    I am eagerly awaiting the release of the annual Human 
Rights Report from the State Department later this month.
    In advance of the release, I wonder if you could describe 
how you might respond to some of the rather delicate diplomatic 
dilemmas that are often raised by the annual reports. If the 
previous years are any measure, and I think they will be, I 
believe that we can expect that the current reports will 
highlight significant concerns over the human rights practices 
of even some of our new partners on the war against terrorism.
    How difficult will it be in your opinion to engage in 
constructive dialog over human rights practices with some of 
our partners, particularly in Central and Southeast Asia and 
the Middle East without also then alienating our coalition 
partners or undermining the seriousness of the human rights 
concerns?
    Secretary Powell. I think over the years, we have 
established in that report that we are going to call it the way 
we see it. And last year, the first year that I had 
responsibility for it, the staff did it. They worked with the 
embassies. They called it the way they saw it. We looked 
through it carefully as it came up. But when it came to me, it 
was done. I did not try to change a single word of it in 
anything that had been submitted to me.
    A number of our friends were unhappy with the 
characterization of their society and their political system. 
We will talk to them about it, and show them where improvement 
is necessary and show them the standards required by the 
report.
    We have a number of new friends, but we are not unmindful 
that a number of these new friends, Uzbekistan, Turkmenistan, 
Tajikistan, Kazakhstan, do not have the kind of political 
systems yet that we think are appropriate to the 21st century. 
And we have no reservation about saying that to them.
    I had a Foreign Minister of one of those countries in our 
office yesterday and we talked about this very candidly. 
Corruption, human rights, religious freedom, all of these 
things are important in a relationship with the United States. 
And do not ever expect to have a meeting where we do not talk 
about these issues, even though I am complimenting you in the 
next sentence about what you have done in the war against 
terrorism.
    Senator Feingold. You do not anticipate any diminution in 
the use or the utility----
    Secretary Powell. I will have some difficult moments on the 
telephone or in meetings but that comes with the job. We will 
point out human rights failings, deficiencies, as we have 
detected them and so you can expect a human rights report that 
will be in the same tone and tense as last year, Senator, even 
though we have found some new partners to work with. We are 
pushing them in the right direction.
    Senator Feingold. I thank you for that answer. Obviously 
urgent needs in South Asia will require significant foreign 
assistance resources this year and in the years ahead and given 
the very stark budgetary realities that I was reviewing over in 
the Budget Committee today, I fear that sub-Saharan Africa, 
which you have already discussed, will be shortchanged in order 
to free up resources for other parts of the world.
    Can you assure me that this is not the case and it is not 
the administration's intention that the portion of the foreign 
assistance budget devoted to Africa be decreased in the year 
ahead?
    Secretary Powell. It is not our intention. As you know, as 
you go through the year, things happen, requirements come 
along. I will do everything I can to protect what we have in 
the budget for sub-Saharan Africa because the need is so great.
    I think you'll note that we have done pretty well by HIV/
AIDS with another $100 million from the State Department and 
another $100 million from the Health and Human Services account 
to make a contribution of $500 million to the Trust Fund within 
the last year alone.
    Senator Feingold. Perhaps I could pursue that a little bit. 
I am not certain that I am pleased with the level of funding 
for the Global AIDS Fund from the United States. I was 
concerned by press reports indicating that the administration 
is proposing the United States make a $200 million contribution 
to the Global Fund for AIDS, tuberculosis and malaria this 
year.
    I understood that was the same pledge as last year. The 
administration, at the time when some of us indicated that 
wasn't enough, recognized the problem and we were told that the 
contribution was only the beginning.
    Could you explain how that $200 million is arrived at and 
is there something beyond that I am not aware of?
    Secretary Powell. The initial commitment last year to get 
the fund started was $200 million. And then in the course of 
the year, with the assistance of the Congress, another $100 
million was added for a total of $300 million. And then in this 
year's submission, there is $200 million, $100 million out of 
my account, $100 million out of Tommy Thompson's account, for a 
total of $500 million over a period of about a year and a half.
    I would love to have made it a lot more in fiscal year 2003 
in the request. But in light of all of the other things that 
have to be dealt with, $200 million was deemed an appropriate 
contribution, and the Global Trust Fund is off to a good start 
with $1.7 billion. So we thought an additional $200 million in 
2003 was appropriate in light of all of the other constraints 
that exist within our accounts and within the overall Federal 
budget.
    Senator Feingold. Well, I certainly hope you are right. It 
is my sense that it is not adequate and I will be pressing for 
more, but I appreciate your answer.
    Finally, Secretary Powell, I have read reports of terrorist 
networks in Southeast Asia obviously with interest and alarm. I 
noted that Indonesia is coming up again and again in these 
reports. But I have been a bit puzzled to see some in the 
administration suggest that these reports should prompt the 
United States to abandon restrictions on military assistance to 
Indonesia, something I think you and I discussed at the time of 
your confirmation.
    I think that we can all agree that encouraging greater 
stability in Indonesia is unquestionably in the United States 
national interest but there is some disagreement about how to 
get from here to there. I am concerned that if the United 
States abandons efforts to encourage reform and respect for 
human rights and responsibility in the Indonesian military, we 
will in fact be encouraging greater instability in that 
critically important country.
    Do you agree that the United States should continue to 
pursue policies that push for reform and accountability from 
the Indonesian military?
    Secretary Powell. Yes, sir.
    The Chairman. Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciate your mentioning the African 
Growth and Opportunity Act and the good results that have come 
from it. I think they are very important. The emphasis that you 
are placing on that is exemplary. Likewise the additional 
moneys for the ISTC, the International Science Technology 
Center seems to me funds well placed in dealing with Russian 
scientists who were involved in Soviet nuclear, chemical, and 
biological weapons programs. This is perhaps one of the most 
important efforts in responding to the threat of proliferation 
as well as establishing relationships with these people. I want 
to commend that addition.
    I want to mention the Biden-Lugar debt-for-nonproliferation 
swaps with Russia. The chairman mentioned that in a speech he 
gave here in Washington yesterday, and I noted the press 
accounts of that. It is a difficult proposition in part because 
the Russian debt to us is much less than, for example, their 
debt to Germany.
    When I was visiting with Germans, they're very sensitive 
about the proposal. But at the same time, it makes good sense. 
I just trust that you are thinking about that, and potentially 
employing it. I know in my visit with Miss Rice that she had 
given some thought to that and I just want to underscore the 
utility. Likewise, you have visited with former Russian Prime 
Minister Kiriyenko about the elimination of chemical weapons, 
which was very important.
    One disturbing aspect of this, and perhaps this was part of 
your discussions and negotiations, is the inability of the 
United States to sign off on certifications that are required 
for the release of funds that had been appropriated by 
Congress. Now it has been a struggle as you know for us to work 
out with our House colleagues support for this project at 
Shchuchye, which is critical, and to which now Germany, Great 
Britain, Norway and Canada have committed resources.
    I know you share my concern for this problem, and without 
knowing the particulars as to your conversation with Kiriyenko, 
I am hopeful progress can be made in the near term to start the 
destruction of these dangerous weapons.
    Last month I visited NATO headquarters in Brussels. While 
there I gave a speech in which I advocated the compilation of 
two lists of threats. One, the list of countries that have al-
Qaeda or other terrorist threats that the President has now 
outlined in the State of the Union. The second list includes 
countries that have either materials programs or weapons of 
mass destruction. As the President has pointed out, the 
intersection of any of the participants in these two lists is 
potentially fatal to our NATO allies, quite apart from the 
serious blow to us. I think they understand that.
    You have heard the concerns that our NATO allies have 
expressed on whether they have been passed by or ignored in 
Afghanistan, but the point that I tried to make was there are 
many things they can contribute: intelligence, good police 
work, and interdiction of funds. A number of things can be done 
that do not require strategic lift capacity, smart weapons, or 
other military assets.
    In other words, as opposed to grousing about being passed 
by, there are instrumental things they can do to contribute to 
the war on terrorism. Many understand this and are making 
tremendous contributions. But I want to stress that we 
diplomatically work with our NATO allies to point out how 
important they are, not how irrelevant they are and I heard 
both sorts of testimony by administration officials at 
Brussels. I tried to weigh in on the side of importance of the 
alliance, as I know you would.
    Let me just mention one more thing. That is I saw that the 
Russians are back in Afghanistan, New York Times had a story 
about Foreign Minister Ivanov there. Not a surprise. And Iran 
reportedly denied any activity in the Herat area and so forth 
but the neighborhood is still a rough one. The President told, 
as you quoted today, Chairman Karzai, the United States is 
committed to playing a leading role in the reconstruction of 
Afghanistan.
    Our chairman, Chairman Biden has spoken out on this issue 
both during his visit there as well as subsequently. I would 
like to also. I really believe this is a critical moment in 
United States' foreign policy. This is a tough issue and I know 
the administration is still debating the proper policy and that 
is why this is not an adversarial comment.
    It simply appeared to me that Chairman Karzai was confident 
that the United States military was going to be in Afghanistan 
for a while. I believe that everyone in the region has 
confidence that the United States is going to be there, that 
others are not going to meddle or waiver, namely Russia, 
Pakistan, Iran and others that have been difficult in the past.
    Now, our military assistance providers apparently are going 
to be there and I have great hope in that thought. But it seems 
to me that although we are sending a good sum of money $290 
million, to Afghanistan, and maybe more to come, we really need 
a comprehensive plan to make that a success. I thought Michael 
McFaul's article in the Washington Post today was right. This 
needs to be the next Germany. We need to send a signal to that 
part of the world that supports human rights, democracy, 
economic success as opposed to a basket case, which I fear it 
will become even with Chairman Karzai, a leader of great 
stature. So with all these thoughts, I have exhausted most of 
my time but I would like your comment.
    Secretary Powell. If I could just touch each one rather 
quickly. On the debt swap, I have repeatedly offered up German 
debt but the Germans are not quite biting. Seriously, we are in 
serious conversations with the Germans and Chancellor 
Schroeder.
    Senator Lugar. They understand that, too.
    Secretary Powell. Oh, they understand that, yes. We are 
looking for some creative ways to do exactly what you describe, 
use our debt and the German debt, and see if that can be 
converted in a way that makes sense to fund some of these 
destruction activities within Russia. On Shchuchye, I think we 
finally got the certification cleared up.
    I can not tell you this morning whether or not all the 
papers have been signed, but I assured Mr. Kiriyenko that we 
are almost there. And that will release $50 million if my 
memory serves me correctly. The contribution of NATO, I could 
not agree with you more. The fact that we did not take 
everything off the menu that they offered should not be a 
condemnation. It was an embarrassment of riches, that the 
alliance was offering all it had.
    There were limits to what General Franks could use and put 
into the theater and what he really needed. It should not be 
seen as criticism of NATO that everything they offered was not 
taken up. When you look at what NATO offered and what the whole 
EU offered, it was considerable. As you noted, Senator, it was 
just as important a contribution for them to go after financial 
infrastructure, intelligence sharing, and all of the things 
that did not require a smart bombs or a C-17 airplane. And they 
are doing that, and they are doing it well, and we should 
applaud them and not snipe at them, because they are making 
that contribution in that way.
    With respect to Russia and Afghanistan, I did see a picture 
of my good friend, Igor Ivanov, getting off the plane at 
Bagram. The chairman did not mention it this morning. I saw 
Colonel Bigelow 10 days later and I congratulated him, by the 
way.
    The Chairman. He was stunned when I told him the Secretary 
of State was on the phone.
    Secretary Powell. In any event, Ivanov told me he was 
going, I knew he was going. I am sure he will call me tomorrow 
to tell me how the trip was. But I can also tell you that the 
great game is not going to startup again. We cannot have that. 
And everybody is trying to cooperate, to make sure that the 
interests of Afghanistan and the Afghan people are served and 
not any of the neighbors.
    All the neighbors are best served by a stable Afghanistan 
moving in a direction you described. They want our presence 
there. We contributed $297 million in this first year and it 
will be a recurring cost every year.
    It is not in the budget this year because we do not know 
what that number will be yet, but they want our U.S. military 
presence. General Franks and some of his people will be there 
for a while hunting up al-Qaeda and Taliban. The International 
Security Assistance Force is coming in with U.S. enabling. We 
have to help them get there. So there will be a U.S. presence. 
But the President is quite determined that we not put U.S. 
combat units on the ground to essentially perform military 
police and security kinds of functions. There are other units 
of other nations that can do that.
    The big challenge, Senator, is to assist them in every way 
possible to create their own national army and their own 
national police force because those are the people who are best 
able to provide security in Afghanistan, and not trying to 
saturate the whole country with infantry battalions. There are 
not enough infantry battalions in the U.S. Army or in the 
International Security Assistance Force to do that. So the IASF 
should take care of the hot spots or difficult areas that might 
be there while the Afghan Army and national police force are 
being built as rapidly as possible.
    The major contribution we can make to Mr. Karzai is to help 
him with building up that national army and national police 
force. The Germans have also volunteered to play an active role 
in the national police force construction.
    Senator Lugar. A framework long enough for them to succeed.
    Secretary Powell. Yes, sir.
    Senator Lugar. Thank you very much.
    The Chairman. Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman.
    Mr. Secretary, we are pleased to have you here. Nice to see 
you.
    I am very strongly supportive of your budget. In fact, I 
don't think it is adequate but it seems to me that in this 
challenge we're now confronting that there is a whole range of 
programs and activities under your jurisdiction that are 
extremely important in terms of whether we are going to be 
successful.
    Do you agree with that?
    Secretary Powell. Yes, sir.
    Senator Sarbanes. Not only in the immediate effort to deal 
with terrorism but also in advancing U.S. interests around the 
world. You have been the leader, I think, in making the point 
that we have to build these coalitions because if we are going 
to dry up this environment, we need the support of many others 
around the world in order to do that and therefore need to 
support a whole range of programs.
    On the face of it, the HIV/AIDS effort in Africa may not 
seem to be connected. Of course, the basic rationale for that 
is very much a humanitarian one but it also affects the 
perception of us by a significant number of players in an 
important continent, not only in this continent, but elsewhere 
as well. Doesn't it? Doesn't it have that spillover effect in 
terms of the U.S. posture?
    Secretary Powell. Yes, it does. People are looking to us to 
help solve this catastrophe in the sub-Saharan Africa.
    Senator Sarbanes. On many other issues as well, and if you 
do not have the resources with which to address these 
questions, it seems to me we are going to be markedly 
handicapped in exercising that leadership.
    Secretary Powell. I agree. I could use very effectively any 
additional moneys that were made available to me in almost any 
account on my list of accounts. But within the constraints of 
the Federal budget and the priorities of the President, I am 
pleased that we were able to get an almost 5 percent increase 
in our foreign operations and State operating accounts. But I 
could use whatever else the President or the Congress would 
choose to give.
    Senator Sarbanes. Now, is it really the proper balance that 
your accounts go up by about 5 percent, not taking into account 
inflation as I understand it. And the defense budget is going 
up 15 percent.
    Now, it seems to me there is a disproportion here. Of 
course, your budget is a lot smaller than their budget, so you 
could get a bigger percentage increase. It doesn't cost as many 
dollars. But what's the underlying rationale? I know the 
defense budget is important, and I'm obviously along with many 
others are going to be supportive of it but what's the 
underlying rationale for such a disproportion?
    It seems to me if you had a little bit of that, if some of 
that money that was going into defense were shifted over to 
your budget, the benefit to us would be greater, because you 
gave some programs that are sort of limping badly. And if you 
could give them a boost, the benefit to the national security 
and the national interest would be greater by a little better 
proportion between the defense budget and your budget.
    Secretary Powell. One could, of course, make that argument 
to any account in the Federal budget. In this case, because of 
the lack of investment in the Defense Department in recent 
years, they have a large need to replenish accounts, to build 
new fleets of equipment, and to deal with the transformation 
effort that is so badly needed that Secretary Rumsfeld has 
designed. And so looking at all of the needs, all of the 
departments of the Federal Government, the President made his 
judgment that he had to give priority within the total budget 
amount to be allocated. He had to give priority to the needs of 
the Defense Department, and was not able to give as much to the 
State Department as he might have wished or I might have 
desired.
    Senator Sarbanes. Well now what's the total amount of your 
budget?
    Secretary Powell. Roughly $25 billion.
    Senator Sarbanes. And the Defense budget is what, $379 
billion?
    Secretary Powell. I do not have it in front of me. I think 
that is about right.
    Senator Sarbanes. So that is about 15 times larger than 
your budget. It seems to me that you really do not have the 
resources with which to do the job that is in front of you.
    There are many opportunities for an effective use of 
resources by the State Department if you had the resources. It 
could significantly advance America's interests. I am not 
arguing that the Defense people ought not to get an increase. I 
think the case can be made for that, but it seems to me there 
is just a real disproportion here, particularly given how much 
smaller your budget is, so that a little bit of extra money on 
your side, as opposed to the Defense side, will go a long way 
in terms of achieving these objectives. It is not as though 
your budget were anywhere near theirs. As I said, their budget 
is about 14 or 15 times larger than yours, so just a tiny 
fraction shifted over to you would make a big difference.
    Secretary Powell. I am in a terrible position because I 
used to argue against this vociferously in a former life that I 
had. I do not think you should make that kind of comparison. I 
could make that comparison against the Social Security accounts 
or any other account. It is not necessarily that you buildup 
State at the expense of Defense.
    The President has to go through with his Cabinet, and with 
his OMB, and with his advisors, to make a judgment that within 
this amount of dollars that is going to be available for the 
Federal Government, this is how it is going to be allocated. 
And if somebody wished to increase the size of the State 
Department account, it does not necessarily have to be at the 
expense of the Defense Department accounts. It can be at the 
expense of the overall top line of the Federal budget or 
somebody else's.
    Senator Sarbanes. Well I was really putting it in that 
context because you both are working in the national security 
field. In other words, the State Department is also a front 
line for the national security interests, just like the Defense 
Department, so you are both working, in a sense, under the same 
rubric. And then the question becomes is the allocation a 
proportionate one in terms of trying to achieve our objectives 
and it just seems to me that it is clearly disproportionate. I 
see that my time has expired.
    Secretary Powell. The CIA is also in this position. What 
the President is faced with is looking at the requirements of 
each of the Departments and determining how best to serve those 
requirements within the constraints of the overall top line and 
how to prioritize the allocation of the money available to him 
as he sees it. And in the judgment he made, I am pleased that I 
was able to get an increase.
    Senator Sarbanes. Presumably seeing the allocations, you 
have not been moved to want to shift Cabinet positions?
    Secretary Powell. No, sir.
    The Chairman. Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you.
    Mr. Secretary, welcome. I want to at the outset 
congratulate you, your team, the President, the administration 
for a remarkable year. You have not only given the leadership 
in a cohesive relevant way to this country and to the world, 
but in fact, you have begun something that is in my opinion 
very much in a historical way a major redefinition of 
relationship's coalitions that sets the course for the world, 
that rarely come along in the history of man, and for that, you 
all deserve great credit.
    I think as you have laid out very clearly this morning that 
the difficult part of this is yet ahead. Not that what you 
accomplished over the last 5 months was easy, but I believe the 
great challenges lie ahead and you laid them all out and you 
laid them out very clearly.
    One of the points that you made which has continually been 
made by the President and others is the importance of our 
coalition. As Senator Biden articulated in some detail, and you 
of all people understand it quite well, the military, the 
training, the commitment of our people is again of historic 
proportions.
    In the history of man, I doubt if there has ever been a 
military or leadership of that, that is so professional and 
driven by a goal of making the world better and more just. As 
much of the success in Afghanistan and central Asia so far that 
can be attributed to that and a great deal can be, the 
relationships with our partners I think also play a very 
significant role in that and if we are to move on and do other 
things, and take advantage of the noble cause, that is ours, in 
my opinion it is going to require even more of a cohesive 
coalition.
    Your good friend and former colleague, General Scowcroft 
said yesterday that in his opinion the war on terrorism will be 
much decided by intelligence and by cooperation. You know this 
and you have been on both sides of it.
    Where I am going with this is in your definition and 
explanation of what the President said the other night, ``axis 
of evil,'' as you said a very clear statement, but you also 
know because you are one of the very few in this administration 
who ever has really known war, not known war firsthand but the 
consequences and once you get started down a track, you take a 
nation down a track, you cannot in State Department parlance, 
walk it back.
    Words have meaning. Symbols have meaning. You, too know 
that very well. There are expectations that come with words, 
there are consequences that come with words. There is a follow-
through and a commitment that has to come with words. ``Axis of 
evil'' is not a throw away speech line. Maybe some think it is. 
I don't.
    I think a lot of people in the world are serious about that 
as well, or they should be. I was a little concerned at 
somewhat of a cavalier attitude that I have heard from this 
administration and I have known you too long to know that you 
do not play that way, but here this morning, one of your 
comments about something of the effect that if it was too 
shocking for some, well, that is just the way it is.
    This is serious business, as you know. I want you to 
succeed. I want the President to succeed. I think everybody in 
the Senate and the Congress wants this President to succeed. We 
do not want to see you unravel what we have done. Senator 
Lugar's point about commitments and resources and all the rest 
that must go into Afghanistan, we have just begun.
    You also articulated clearly, we are probably in, my words, 
the most dangerous time in the Middle East since 1973. We have 
two nuclear powers eyeball to eyeball over Kashmir. You laid 
out all the other or some of the many other troubled spots in 
the world. You also said that we cannot field enough divisions 
to take care of all of it. And then with the President's 
statements, new definition of the category of evil, which 
Chairman Biden asked some relevant questions, what about Russia 
being one of the great suppliers of this and China and Syria 
and others.
    I think, Mr. Secretary, we have to be very careful here 
what we are doing. I just finished and I know you do not have 
time to read these things anymore, because you are trying to 
run a lot of parts of our world. I just finished the new book 
that Michael Beschloss wrote, of which you may have seen parts, 
called ``Reaching for Glory: Lyndon Johnson's Secret White 
House.''
    And you know because you served two tours in Vietnam and 
were wounded there and commanded troops there and saw much of 
the folly in the conduct of the war, not the purpose of the 
war, not the noble cause of the war, but the conduct of it. 
That consumed Johnson, and why did it consume him? It consumed 
him because he did not know how to get out. He got us onto a 
course. It wasn't only Johnson, we recognize that. But we got 
into something that we couldn't get out of. It destroyed 
Johnson, destroyed his Presidency, reshaped American politics 
for a generation.
    We could continue to debate that war but the point is this. 
When we say things and we set the Nation on a course and we say 
we are going to do this no matter what, that makes people 
uneasy because there is some expectation that falls in behind 
that. This is not an issue, Mr. Secretary, of whether you agree 
with the governments of Iran or Iraq or North Korea, they are 
all bad governments. That's not the issue, that's the easy 
argument here.
    The tough argument is what do you do about it, how do you 
influence it? The behavior of those nations with coalitions, 
with your partners. I made a speech and I recognize that, but I 
also wanted to convey something that to many of us, Mr. 
Secretary, this is not a cavalier, funny business here. I know 
you did not mean to say that but there is some in this 
administration that I think are taking it that way, and so what 
if our sissy European allies do not like it.
    Actions and words have consequences that are very dangerous 
at a time in the history of man when there is very little 
margin of error left. As I've said, I have known you for a long 
time and respect you too much not to be very direct with you on 
the concern I have. And with that I know I have trespassed on 
my time and your patience, Mr. Secretary, but thank you.
    The Chairman. Please.
    Secretary Powell. It was not a rhetorical flourish. He 
meant it. He did set the Nation on a course. He was trying to 
make the point to our friends and allies, coalition partners 
and like-minded people around the world, that these are very 
dangerous regimes. And it is not enough just to say they are 
dangerous regimes, that action is going to be required.
    It does not mean the war is going to start tomorrow or that 
we are going to invade anybody. In fact, it may mean, in the 
short-term we focus on the policies that we have in place with 
respect to each of the three countries he mentioned and other 
countries that might have been mentioned. And it was not with a 
cavalier attitude of dismissing the contributions made by our 
alliance partners. We value them. And I have spoken to a lot of 
my alliance partners since the speech was given to make sure 
they have it in perspective.
    But it was not just a rhetorical flourish. You heard 
President Bush speaking in a way that was intended to rally the 
forces of civilization against these kinds of regimes and to 
put us on a course that would eventually cause them to change 
or to be changed, and not necessarily by an invasion or by 
cruise missiles going in but by the weight of this alliance 
that you spoke of being brought to bear against these kinds of 
regimes and the actions they are taking.
    We are not unmindful of the proliferation possibilities and 
the things that are happening in Russia and China, but we know 
how to work with them. We know how to deal with them. There are 
ways to have dialogs with these countries that show that they 
are moving in the right direction, and as Senator Lugar knows 
and you know so well, sir. But with the regimes the President 
spoke about, you do not have quite that same opportunity.
    If they want to take that opportunity, if they want to have 
a dialog, if they want to stop supporting terrorist activities, 
if they want to start feeding their people and not developing 
longer range missiles which they intend to sell to others, then 
let that dialog begin. They have nothing to fear from America's 
Armed Forces because we can solve them politically and 
diplomatically in concert with our alliance partners. And I 
never dismiss or am I dismissive of our alliance partners. I 
spend most of my time making sure they are part of the 
alliance, like-minded nations applying a set of values to the 
kind of challenges we are facing.
    The Chairman. Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Mr. Secretary it 
is good to see you. Thank you for all you are doing for the 
country. I'd like to commend Senator Hagel for his statement. 
Very courageous.
    Yes, there is little margin for error and I do think we 
need friends in the world. We don't want enemies obviously. 
Sometimes rhetoric can drive wedges rather than bring people 
together and Senator Hagel knows from whence he speaks having 
served in a situation of war.
    I'd like to also followup on Senator Sarbanes' questions 
about balancing the ER funds and you did say that if you 
received more money, you could put it to good use. And how 
could you do that if you were fortunate enough to receive more 
money as the process comes to Congress?
    Secretary Powell. I could start at the top and run down. 
But I would love to have more international military education 
and training to get more of these officers in nations that are 
now moving in our direction into our military school system, 
working with the Pentagon to expose these officers to values 
and start to change the nature of their armed forces and what 
an armed force is supposed to do in a democratic nation.
    I would love to put more into HIV/AIDS. I would love to 
have more money available for economic development activities. 
I would put more into our food accounts. There is no limit to 
the opportunities I would have to spend money wisely. But money 
is tight. We have our budget problems. The President determined 
what the Nation can afford at this time. And also we are in a 
deficit. He heard from all of the Cabinet departments. He knew 
our needs and he made what he considered was an informed and 
balanced allocation of the resources that he thought the Nation 
made available to him.
    Senator Chafee. I certainly do respect that and since the 
President's budget, now the process comes over to our side of 
the branch of government, and do you submit a request to the 
administration or to OMB?
    Secretary Powell. Yes.
    Senator Chafee. Is that a public document?
    Secretary Powell. No. I do not think so. We go through our 
internal--nice try.
    Senator Chafee. Why not?
    Secretary Powell. We go through our internal process within 
the Department. We get more requests than we know we can fund. 
So we have to do our own pruning within the Department. Then we 
submit our request for the two accounts that fund the 
operations of the Department of State--Commerce, State, Justice 
and then Foreign Ops--and we submit it to OMB and the fight 
begins.
    I have been in OMB. One of my earlier incarnations in life 
was to serve in OMB for a year. So I know what they go through 
down there. They have to handle a lot of different 
requirements, often competing and making their recommendations 
to the President as to how he should allocate what he believes 
should be available to them. And that is a process we go 
through. They have a pretty good understanding of what our 
needs are. The OMB analysts that work with us, they know these 
accounts as well as my people do. It is a good dialog of 
equals.
    Senator Chafee. And if, again, to followup, if you were so 
fortunate again to receive more funds, certainly the Congress 
would want to make sure we are addressing the areas that your 
Department has prioritized. I am sure that members here have 
their own priorities but you would want them in some kind of 
concert and so I will look forward if that were to happen to 
occur, because I certainly do agree with Senator Sarbanes in 
fighting the war in terrorism. It's important to fight the 
despair and poverty and lack of health and education that 
breeds the disenfranchisement that leads to discontent and 
hatred and unfortunately ultimately for whatever reason is 
steered toward us and is at the top of the heap.
    I do think there is a balance, to fight the war, perhaps 
more resources should be as some of the civilized countries are 
saying toward a new Marshall Plan, or at the bottom of the 22 
developed countries in percent of GNP toward foreign aid. I 
think we have to address that as part of the war on terrorism.
    Secretary Powell. Thank you, Senator. Should the Congress 
in one form or another see fit to determine that the State 
Department accounts should receive more in either the budget or 
the supplemental process later, I can assure you we would apply 
it in a very effective way to achieve the goals you just 
described.
    Senator Chafee. Do you agree with me on the success of the 
war on terrorism should include more of, I do not want to use 
the cliche too often but new Marshall Plan involvement in the 
poorer countries of the world?
    Secretary Powell. Yes, sir. I am not sure I would use the 
Marshall Plan image because the Marshall Plan was essentially 
loan guarantees to rebuild industrialized societies. But I 
think a new kind of plan would be appropriate for some of these 
poverty stricken countries. It has to be something that matches 
political and economic developments within the country and not 
just money down the rat hole to corrupt countries that have not 
made the fundamental choices of moving to market economies and 
moving to democratic systems and having transparent political 
organizations in their financial and law enforcement sector, 
resting it all on the rule of law. To put money into places 
like that is frankly not wise in my judgment.
    You may have to help them with food because their people 
are starving. But you cannot, we can no longer invest in places 
that cannot use the investment in a sensible way, nor can we 
encourage private investment to go to places where the rule of 
law does not exist or corruption is rampant. If they do not 
have transparency in their system their political democracy and 
economic democracy is not mature enough, then you cannot be 
sure the money will be well spent.
    Senator Chafee. Of course the difficulty there is even 
walking away from even trying to find out how we can invest in 
these countries just because of the fear that it is going to 
end up in some Swiss bank account, our hard earned tax dollars 
by some despot and meanwhile we are not joining with the other 
civilized countries that are trying to find a way, realizing 
that some of it might not be as effective as we would like to 
be but hopefully designing some kind of a mechanism to help 
these countries.
    Secretary Powell. Yes.
    The Chairman. With your permission, it is about 12 minutes 
before 1 o'clock. Can we keep you another 10 minutes or so, and 
I will share the time with all of our colleagues here. But I 
want to ask you, with regard to your budget, in fact, you may 
be up to a quarter billion dollars short of what you are asking 
for, mightn't you, because we pledged $296 or $297 million at 
Tokyo, and because it occurred after the budget requests, that 
is not in this budget.
    Do you know whether or not it is going to come out of your 
budget, or is it a supplemental?
    Secretary Powell. The $297 million is out of 1902.
    The Chairman. Out of 1902, and you are able to get all $297 
million out of 1902.
    Secretary Powell. Yes. My experts assure me.
    The Chairman. Well, I'd like for the record, if you would, 
not that I doubt it, I'd like to see it.
    Secretary Powell. I have an exhibit that shows the source 
of the $297 million.
    The Chairman. You need not do that now; you can submit it 
for the record.
    [The following information was subsequently received:]

                Afghanistan Funding (Tokyo Announcement)

                        [In millions of dollars]

    In FY 2002, we are going to provide Afghanistan reconstruction 
assistance totaling $296.75 million. Funding breakout is:

 
Emergency Response Fund Supplemental.......................     $107.60
  P.L. 480 Food Assistance.................................       30.00
  International Disaster Assistance........................       22.00
  Migration and Refugee Assistance.........................       52.60
  NADR Demining............................................        3.00
 
FY 2002 DOD Appropriation..................................       50.00
  International Disaster Assistance........................       50.00
 
FY 2002 International Affairs..............................      139.15
  Development Assistance...................................       12.00
  Transition Initiatives...................................        6.00
  P.L. 480 Food Assistance.................................       47.00
  Agriculture 416(b) Commodities...........................       44.90
  Economic Support Fund....................................       17.25
  NADR Demining............................................        4.00
  International Counter-Narcotics..........................        5.00
  International Organizations & Programs...................        3.00
 
Grand Total................................................      296.75
 


    Secretary Powell. But it is an open item right now for FY 
'03.
    The Chairman. Yes. I was, for a second pledge----
    Secretary Powell. Yes.
    The Chairman. I got you. The recurring costs associated 
with that. And I, to the extent you can enlighten us on that, 
it would be useful for the record. Second, I think you have 
probably sensed, I suspect there is a consensus, at least on 
this committee that with all the great effort in Afghanistan so 
far, spending a billion dollars a month, or is it a week now? A 
billion dollars a month pursuing what we have been doing, that 
the hard part is really coming now.
    And I see no way, Mr. Secretary, and I think my colleagues, 
Senator Lugar and, well, a number of Senators and the chairman 
can speak for himself, I see no way that Karzai has any shot of 
implementing the Bonn plan and 2 years from now there being in 
a democratic government after a Grand Council is called, 
without the extension of a multilateral force to other areas 
within the country, other municipal areas.
    And if we can do that without the United States having two 
feet on the ground and men in uniform, great, but if we cannot, 
if our allies say as the Brits said to me when I was there, how 
long do you think my parliament is going to let me stay here, 
if in fact you guys are not here? Whatever formula you come up 
with, I strongly, strongly, strongly urge that we not get hung 
up on this nation building malarkey. I promise you, as one 
Democrat, I will never call it nation building as long as the 
President does not. Because there is a need for the United 
States to be involved in a security force, whether it is 
guaranteeing extraction capability, whatever you divine, we 
have got to keep multinational force there and extend it to 
Herat and Mazar and other places, in my humble opinion.
    I am not asking you to comment.
    Secretary Powell. All of that is under consideration, 
Senator, and in our conversations with the Brits, and the 
Germans and the Turks and others.
    The Chairman. You are incredibly well respected, as is the 
President, and I am confident that you can get it done. But I 
am also confident if we do not get it done, this basically is a 
lost cause.
    Let me skip quickly to START II. The deal when the Russians 
ratified START II was that if we abandon ABM, START II was out. 
I realize you have other discussions going on, I realize we are 
talking about lower numbers, I realize you are talking about 
the fact of codifying that somehow. And we will have plenty of 
time to discuss that, hopefully.
    But one of the things that START II did which everyone 
thought as such a gigantic breakthrough, that Reagan tried, the 
first President Bush had tried and succeeded in getting agreed 
to in principle, was no MIRV'd ICBMs. Our folks in the 
intelligence community are telling us now, I think I can speak 
this publicly, that they are contemplating keeping MIRV'd 
weapons, and even working out their financial crunch by 
emphasizing MIRV'd weapons, which you as former Chairman of the 
Joint Chiefs know, they are the first things you aim at because 
they are the most dangerous and somewhat destabilizing.
    Does any part of this new discussion underway relate to 
trying to preserve the two things I thought most valuable about 
START II, no MIRVs, and two, enhanced verification? Are they 
part of the equation?
    Secretary Powell. Let me answer in two ways. One, the 
strategic framework discussions we have ongoing now are off to 
a pretty good start. Under Secretary Bolton and his 
administration colleagues met with Ambassador Mamedov last week 
and had a good set of discussions as to what should be in this 
new, legally binding, codified agreement. And we are looking at 
how to bring forward from START I the verification and 
transparency features that we do not want to lose and what 
modification of various rules have to be made. And we are also 
looking at how to deal with START II, an unratified treaty; in 
other words, a treaty not in effect and in force. And we are 
seeing what we should do there. And so all of that is under 
consideration. The answer to your question is yes.
    But here is a more interesting answer. President Bush has 
said to President Putin, ``You want MIRV? Go ahead.'' And the 
point he was making is that it is a different framework. He is 
thinking about it differently. As you well know, we have been 
without an agreement that is legally binding. You do what you 
have to do to defend yourself. We will do what we have to do to 
defend ourselves.
    We have made a judgment, independent of what the Russians 
do, that between 1,700 and 2,200 operationally deployed 
warheads, and some things that might be in reserve that could 
be generated, was enough for the United States to defend 
itself. And we were confident about that no matter what you 
did. If you feel you have to do something quite different, we 
are no longer in this lockstep symmetry that drove so much of 
the cold war period. And if the Russians had decided well, we 
are going to pick a different number and we do not want a 
legally binding agreement, that would have been fine with the 
President. It would have been fine with me.
    The Chairman. I think there is a difference between 
lockstep and what stabilizes and destabilizes.
    Iraq, very quickly. I said to you earlier, and I have been 
on record for sometime as saying I cannot imagine a safer, 
newer world 5 years from now with Saddam still around, and to 
me it is not a matter of if but how. But toward that end I 
would hope that at some point the President would not only 
indicate why Saddam is such a bad deal, but what is his vision 
for Iraq? Because as you know, one of the, and you were in the 
middle of the decision process at the time, one of the 
decisions President Bush made, and I am not second-guessing 
him, in the gulf war, was what happens if and when we take him 
out? What happens, what do the Kurds do, what do the Shiites 
do, what does Iran do? So I hope we are beginning to articulate 
this for our allies. One of the things they most wonder about 
is whether this administration has thought beyond, it is 
understandable, and whether I thought beyond when I talked 
about it, getting rid of the bad guy. What happens after that?
    And I am confident knowing you, you have been speaking to 
the Turks and have been speaking with others. But I hope at 
some point, I respectfully suggest to the extent we paint a 
vision for the world to understand what we are looking for,--
not dictating, not demanding, how we see a Iraq after Saddam. 
It may help on the second part, which I think is at some point 
getting consensus that we have to be much tougher on Saddam 
than we have been. And this is my final point. I mentioned this 
to you earlier. There was a very interesting article by Mr. 
Wines of the New York Times yesterday which you know a lot 
about, and we all do.
    Lukoil, which is the outfit in Russia that has control of 
oil, has a very lucrative contract that was signed back in I 
believe 1997, I am not sure, maybe 1998, for the most promising 
oilfield in Iraq, that they believe is worth about $20 billion 
to them. They have indicated at least on the circuit, whether 
they have indicated to you or not, that part of their 
reluctance to be as helpful as they very well could be on 
smarter sanctions with Iraq has to do with the amount of money 
Iraq owes them plus the opportunities that are available.
    And as one person I met with up in New York at the World 
Economic Summit said, and I am just telling you what I was 
told, I am repeating a comment, this administration being an 
oil administration would give all those contracts to American 
oil companies and Russia would be out. But they expect to be 
some total close to $40 billion worth of contract opportunities 
as the article lays out.
    My question to you is this seems like a win-win proposition 
here. We ought to be able to work something out here. First, do 
you think that the Russian reluctance thus far, notwithstanding 
their beginning to cooperate more, has anything to do with the 
assertion that they have economic interests there that they 
think they will lose if Saddam is taken down? And if you do 
think it has something to do with it, have you begun to even 
explore possibilities with the Russians about that issue?
    Secretary Powell. On the last question, yes, economic 
opportunities in Iraq, plus the $8 billion roughly of debt owed 
to Russia, has been a factor in their response to our efforts 
to achieve the smart sanctions policy. Also, the contracts that 
are currently in the queue that they are trying to process, we 
have taken all of this into account. We have had many 
discussions with the Russians about this and I think we are 
satisfying their concerns. I do not have a specific answer with 
respect to Lukoil. I do not think we have gotten into oilfield 
allocation issues yet. And I have not heard this commercial 
problem expressed in the terms of the Lukoil statement that you 
just made.
    But I do know that there are a number of businesses in 
Russia that are concerned about their commercial opportunities 
with this regime, as opposed to the next regime. And that is 
part of our dialog with Russia.
    With respect to your first point about thinking into the 
future, yes. What do we want to see in Iraq after? Who replaces 
him or them or it, if it is the whole regime? Another group of 
thugs from Tikrit? Or where? Or who? One country? Three? Bigger 
problem? Smaller problem? All of these issues we dealt with 
once before, as you noted, and a lot of people said, ``Well, 
why did you make the decision not to go to Baghdad?'' It was 
not made at the end of the war. That decision was made before 
the war. We were never going to Baghdad. The U.N. resolution 
said nothing about going to Baghdad; we would not have gotten a 
U.N. resolution if it had. This body, this Senate, this 
Congress passed a resolution that supported the U.N. 
resolution. Nothing in that resolution said anything about 
going to Baghdad.
    The Chairman. I was not being critical.
    Secretary Powell. I know that. I just want to go through 
the history. So I have to think about that, and we are in the 
process of thinking through what Iraq would look like. Because 
it does remain U.S. policy to try to achieve regime change. 
That is separate and distinct from the sanctions policy, which 
is a U.N. policy.
    The Chairman. I understand. To the extent the regime 
changed and the picture of what we looked for it to change to, 
not who, but a whole new lineup. For example, I am meeting 
today with the, what they call themselves the Iraqi National 
Congress representatives. And the first thing I am going to 
tell them is the same thing one of your generals, one of your 
emissaries to Israel told them, come up with the declaration of 
purpose. What do you see that country looking like? They have 
not done that yet. To the extent that that is done, you may 
find we have much less hostility about it. Senator Helms.
    Senator Helms. Mr. Chairman, I was thinking about years ago 
when Ronald Reagan was in office, and very often some of us met 
with him, and I remember one day you made a presentation in 
your uniform and you looked like a million bucks. You had an 
easel, you knew exactly what you were talking about, and you 
almost mesmerized all the Senators there. I do not remember if 
you remember that occasion or not. But anyway, President 
Reagan, he had a big thing about a pad that he would write a 
little something to me and slide it over and I read it and in 
that case it said, ``He was pretty good, huh?'' I said, 
``Greatest.'' He said, ``Next job for him?'' I said, I thought 
just a minute, I said, ``Joint Chiefs,'' and slid it back to 
him. And he wrote ``Chairman?'' With a question mark. I said 
``Yep.'' And how prophetic that little old pad was that 
afternoon. But Mr. Secretary, you have done a great job 
throughout your career. You have done a great job this morning. 
And I thank you, sir.
    Secretary Powell. Thank you, Mr. Chairman.
    The Chairman. We'll conclude with Senator Hagel.
    Senator Hagel. Only to state that the Secretary gets very 
mean if he does not get lunch, so I have no further questions. 
Thank you.
    The Chairman. Thank you very much. Thank you, Mr. 
Secretary. I was about to call you Mr. Chairman.
    [The hearing adjourned at 1:05 p.m.]
                              ----------                              


                   Statement Submitted for the Record


              Prepared Statement of Senator Sam Brownback

    Mr. Secretary, thank you for joining us today. You have a 
tremendously daunting job and I want to commend you and your staff for 
the dedicated and thoughtful way you address the multitude of difficult 
problems in today's foreign policy arena. Our nation needs your service 
now more than ever.
    There are a number of topics we are all very interested in today: 
the war on terrorism, Afghanistan's re-construction and the tensions 
with Pakistan and India to name a few. But in addition to these 
specific areas, I want to elicit your thoughts on some of the ways in 
which we can put into practice the eloquent themes laid out by 
President Bush in his recent State of the Union Address.
    Specifically, I was pleased to see the President illustrate the 
importance of democracy development and education outreach in parts of 
the world that have traditionally fomented anti-U.S. sentiment. I hope 
the foreign affairs budget will prioritize these areas along with 
military efforts to route out terrorist cells.
    Another important tenet our foreign policy should pursue is 
economic development and expanded trade with countries in transition 
toward democracy. As we drain the swamps that breed tomorrow's 
terrorists, we must also lend a hand to those who want a better life, 
more freedoms and a stable economy for their people. In turn, this 
investment will provide benefits to the U.S.--not only by creating new 
markets for our high end goods, but also in creating new strategic 
allies around the world--in regions which have traditionally only seen 
America through the twisted lies they have been taught since childhood. 
We must have an active presence in regions like Central Asia--countries 
that demonstrated their value and willingness to help during our fight 
in Afghanistan. Yet, many of these countries face fundamentalist, anti-
Western factions in their own countries. Like Pakistan's Pervez 
Musharraf, there are leaders in these countries who are now willing to 
take a stronger stance toward democracy and open markets. We can not 
afford to fail to take advantage of this opportunity.
    Just as we have agreed that the presence of open markets and trade 
will be a positive political force for nations like China, we must also 
look at preferred trade with Central Asia as a means of stabilizing a 
very important part of the world--and as an example to the Arab world 
that America can have a positive, peaceful and constructive partnership 
with Muslim countries.
    One final point I would make to the Chairman and my fellow 
colleagues on this committee--I am pleased that the Senate has finally 
confirmed Ambassador to the Philippines, Francis Ricciardone. As many 
of you may know, the terrorist group Abu Sayf is holding 2 Americans 
hostage--Martin and Gracia Burnham of Rose Hill, KS. We need to have 
our Ambassador officially in place to do all we can diplomatically to 
aid in their return. I understand that nominations can become political 
pawns--but this was not appropriate when Americans lives are on the 
line.
    Mr. Secretary, I look forward to your testimony--and thank you 
again, for your dedicated service to our country.
                              ----------                              


 Responses of Secretary of State Colin Powell to Additional Questions 
                             for the Record


 Responses of Secretary of State Colin Powell to Additional Questions 
        for the Record Submitted by Senator Joseph R. Biden, Jr.

                       non-proliferation control
    Question 1. Following disclosures of illicit nuclear weapons 
activities in Iraq and North Korea in the early 1990s, the 
international Atomic Energy Agency proposed enhanced inspections of 
non-nuclear weapons states under a model protocol that 55 states have 
signed so far. To encourage all non-nuclear weapons states to accept 
these stricter safeguards, the United States and the IAEA signed a 
narrower Additional Safeguards Protocol in 1998. This agreement has yet 
to be submitted to the Senate for its advice and consent. Last year, 
the State Department indicated in writing to this committee that the 
administration's objective was to have this protocol submitted by the 
end of 2001. When will the protocol be submitted?

    Answer. The International Atomic Energy Agency's (IAEA) 
international safeguards system, which provides confidence that nuclear 
materials are not diverted from civilian to military explosive purposes 
and that nuclear facilities are not misused to support covert nuclear 
weapons programs, serves vital U.S. security and nonproliferation 
interests. Additional Protocols strengthen the capability of the IAEA 
to deter undeclared nuclear activities in non-nuclear-weapon states and 
detect such activity should any occur.
    The administration strongly supports wide-spread ratification and 
entry into force of Additional Protocols. The administration is engaged 
in an intense examination of the impact on U.S. national interests of 
the U.S. IAEA Additional Protocol signed in 1998. The administration 
hopes to have a decision shortly on submitting the Protocol to the 
Senate for its advice and consent to ratification.

    Question 2. When do you expect that Russia will have met the 
preconditions that the United States and other NATO allies set at the 
Istanbul OSCE Summit for acting to ratify and bring into force the CFE 
Adaptation Treaty?

    Answer. The administration is currently reviewing this issue. We 
are in the process of assessing Russia's compliance with the flank 
limits, based on inspections and other means of verification, and 
Russia's progress concerning the Istanbul commitments on Georgia and 
Moldova. We will continue to consult closely with the Senate as our 
review proceeds.
    The Russians have made significant progress toward fulfillment of 
the commitments made at Istanbul regarding withdrawal of excess Russian 
equipment from the Conventional Armed Forces in Europe Treaty (CFE) 
flank region, and equipment withdrawal and closure of Russian bases in 
Georgia and Moldova. Russia claims, as of January 1, 2002, to have 
reduced its CFE equipment in the flank region to the levels set in the 
adapted CFE Treaty. The U.S. has a number of questions about the data 
and is working with NATO allies to verify the Russian claims. 
Meanwhile, important elements of the commitments with regard to Georgia 
and Moldova have not yet been fulfilled. NATO Allies have agreed that 
they will seek ratification of the adapted CFE Treaty only when Russia 
has verifiably reduced its forces in the flank to adapted flank levels, 
and under conditions consistent with the commitments on Georgia and 
Moldova.

    Question 3. At last November's annual conference of signatories of 
the Comprehensive Nuclear Test-Ban Treaty (CTBT), Russian presidential 
adviser Marshal Igor Sergeyev stated that Russia was open to: 
``additional verification measures for nuclear test ranges going far 
beyond the Treaty provisions. This could include . . . installation of 
additional sensors. . . .'' What is the administration doing to pursue 
this opening? Would it not be in our national security interest--treaty 
or no treaty--to work out confidence building measures that would 
improve substantially our ability to tell whether an event that Russia 
asserted was a sub-critical experiment was in fact that?

    Answer. The previous administration tried several times to engage 
Russia in discussion of nuclear test site transparency measures but 
without result. Sergeyev's statement was made contingent upon the entry 
into force of the CTBT, which this administration does not support. The 
administration does, however, see potential value in transparency 
measures that would help avoid or reduce any misunderstandings about 
test site activities. We are working with the National Nuclear Security 
Administration to identify specific transparency measures that we can 
support under the current moratorium.
               nunn/lugar programs for india and pakistan
    Question. Last year as part of the Defense Appropriations bill, a 
proposal was adopted in the Senate urging the administration to study 
the advisability of implementing Nunn/Lugar nonproliferation programs 
in India and Pakistan where the potential threat of these materials or 
technology getting into the wrong hands is perhaps even greater than 
the Russian case. What are your thoughts on the feasibility of 
undertaking such efforts with these governments?

    Answer. We share your concern and continue to stress to both 
governments how important it is that they not become a source of 
sensitive material and technology. We know they take this issue 
seriously and are confident they are taking strong measures to ensure 
the security of their programs.
    As we consider the questions you raised in the Defense 
Appropriations bill, we will need to take into account a number of 
factors, including how best to address the potential proliferation 
problem and what steps are consistent with U.S. law and international 
treaty obligations.

    Question. Does the President's State of the Union speech signal a 
change in our policy toward Iran? What is our current policy? Can you 
describe the role that official Iranian entities played in the recent 
attempt to smuggle weapons to the Palestinian Authority via the Karine-
A?

    Answer. U.S. policy toward Iran has not changed in any way on the 
fundamental issues of concern to us. We have serious and long-standing 
differences on Iran's support for terrorism and for groups violently 
opposed to the peace process, its development of WMD and ballistic 
missiles, and on human rights.
    Since September 11, we have had limited coordination in established 
channels with the Iranians on Afghanistan, with mixed results. Iran 
contributed to the success of the Bonn Conference, but recent Iranian 
actions with regard to both Afghanistan and the Middle East raise 
doubts about the regime's commitment to follow a moderate course. The 
Karine-A episode, about which the U.S. has compelling evidence of 
Iranian involvement, former President Rafsanjani's comments on a 
nuclear attack on Israel, and Iran's aggressive assertion of influence 
in Afghanistan, have been particularly troubling.
    The U.S. will continue to seek Iranian cooperation in achieving 
stability in Afghanistan, but we will not ignore the reality before us. 
While Iran remains the most active state sponsor of terrorism, it has 
the capacity to be a positive force in the region. We hope it makes the 
choice to become one.
              multilateral efforts on weapons inspections
    Question. Can you update us on the latest diplomatic developments 
with respect to Iraq? Has the administration decided upon a course of 
action with respect to Iraq? How would we respond if Iraq agrees to 
allow weapons inspectors in accordance with UN Security Council 
resolutions?

    Answer. We remain fully committed to working at the UN to fashion 
an effective multilateral approach that focuses effective controls on 
preventing the Iraqi regime from developing weapons of mass destruction 
and rebuilding its military. However, we cannot ignore Iraq's 
development of WMD and ballistic missiles or accept a multilateral 
system with ineffective or unenforced controls.
    We have called on Iraq to allow the resumption of UN weapon 
inspections, but we will reject any attempt to compromise the 
inspectors' authority or reduce Iraqi obligations. Iraq must fulfill 
all its obligations under UN resolutions, including cooperating fully 
with inspections, accounting for Kuwaiti missing persons/property, and 
complying with the UN oil-for-food program.
                coordination of iraqi opposition groups
    Question. What specific efforts is the administration making to 
encourage the various Iraqi opposition groups to better coordinate 
their efforts? What steps have the groups taken to plan for the period 
following the fall of Saddam Hussein's regime?

    Answer. The State Department is currently planning a broad based 
conference of Iraqi opposition groups and emigres that will focus on 
the future of a post-Saddam Iraq. This conference will serve the dual, 
complementary purposes of bringing together the full range of the Iraqi 
opposition in a cooperative forum, and preparing for the challenges 
that will face Iraq following the fall of the current regime. 
Discussion will focus on the future of the justice system, legal 
system, civil society, economy, public health, military, education, 
environment and building a free press.
    Additionally, we plan to give grants to various Iraqi-focused 
NGO's, who, in consultation with U.S. and international experts, will 
prepare plans for post-Saddam efforts to improve the lives of the Iraqi 
people. This will include steps a new Iraqi government will need to 
take to prosecute Saddam Hussein and his top associates for crimes 
against humanity; to create a justice, police and prison system in 
accordance with democratic norms; to improve public health and health 
care, especially in areas underserved by the present regime; to improve 
Iraqi education so it promotes values of peace, justice and tolerance; 
to remedy the damage done to the Iraqi environment by the regime; to 
build a free press; to promote an end to corruption; to make the Iraqi 
military a unifying force in Iraqi society that can defend the country 
but does not threaten any of Iraq's neighbors; and to rebuild Iraq's 
economy so that it can provide jobs for the Iraqi people and spur and 
diversify the regional economy. We are consulting with a wide range of 
Iraqis, both in the opposition and those who are non-political, in the 
framing of these issues and in generating practical ideas that can be 
used by a new Iraqi government.
                  training of iraqi opposition groups
    Question. Has the administration provided any training to Iraqi 
opposition groups so that they are capable of carrying out the basic 
functions of the state? If so, please describe such training in detail.

    Answer. The Iraq Liberation Act of 1998 authorized the Department 
of Defense to provide $97 million in ``drawdown of defense articles 
defense services . . . and military education and training . . .'' to 
the Iraqi National Accord, the Iraqi National Congress, the Islamic 
Movement of Iraqi Kurdistan, the Kurdistan Democratic Party, the 
Movement for Constitutional Monarchy, the Patriotic Union of Kurdistan, 
and the Supreme Council for the Islamic Revolution in Iraq. To date, 
training has been provided to only the Iraqi National Congress in a 
broad variety of areas, including international defense management, 
water systems, public sanitation, public affairs, and war crimes. 
Future courses to be offered to the Iraqi National Congress and other 
Iraqi opposition groups include leadership management, disaster 
preparedness, and international communications. I refer you to the 
Department of Defense for further details on the trainig.
                      allied and regional support
    Question. What has been the response of Turkey, Jordan, Saudi 
Arabia and our NATO partners respectively toward potential U.S. action 
to change the Iraqi regime?

    Answer. We consult regularly with friends in the region--including 
Turkey, Jordan, and Saudi Arabia--and elsewhere regarding Iraq. We 
believe our friends share the view that the people of Iraq deserve a 
better future in which the Iraqi government is committed to justice, 
the rule of law, and the rights of its citizens; lives at peace with 
its neighbors; abides by UNSC resolutions; and maintains Iraq's 
territorial integrity. We will continue to consult with them as we 
examine developments regarding Iraq and consider our policy options.
              multilateral efforts on weapons inspections
    Question. What steps has the United States Government taken to plan 
for contingencies in the event that the regime of Saddam Hussein were 
to fall? Wouhd the United States be prepared to use its military forces 
as part of a multinational effort to preserve Iraq's borders and to 
prevent internal strife in a post-Saddam environment?

    Answer. We are working closely with a variety of Iraqi opposition 
groups and non-governmental organizations to prepare the way for a 
secure, peaceful, and smooth transition to a post-Saddam Iraq. As we 
have repeatedly expressed, we support the continued territorial 
integrity of Iraq. To speculate at this time on specific steps that the 
U.S. might take would be premature.
           assistance to post-saddam hussein iraqi government
    Question. What specific types of assistance would the United States 
be prepared to provide a post-Saddam government?

    Answer. It is premature to address that question until we see 
whether a post-Saddam Hussein Iraqi government is prepared to commit to 
and uphold the principles of a government committed to justice, the 
rule of law, and respect for the rights of all the Iraqi people; that 
lives at peace with its neighbors; that complies with all U.N. Security 
Council resolutions; and that maintains Iraq's territorial integrity.
    So long as a post-Saddam Iraq commits to these principles, the 
United States is prepared to work with the Iraqi government and the 
Iraqi people to help make a better future for the people of Iraq. While 
Iraq has considerable resources in its people and its oil, there will 
need to be a period of transition before a post-Saddam Iraqi government 
will be able to draw upon these resources to put those four principles 
into practice. The Iraqi people face a daunting series of problems 
caused by Saddam Hussein's regime, including in the areas of justice, 
health, education, a free press, role of the military in a free 
society, environment, and the economy. Iraqi civil society will need to 
be rebuilt almost completely. The Iraqi people will play the most 
important role in rebuilding a post-Saddam Iraq, drawing on the talents 
and resources of Iraqi emigres around the world. The United States, 
together with our allies in the region and the world community, should 
be prepared to assist in ways to be determined with a post-Saddam 
Hussein government committed to the principles described above.
                                  iraq
    Question. Does the executive branch believe it is legally required 
to obtain authorization of the use of force against Iraq? If not, why 
not?

    Answer. Any decision concerning the use of force is a momentous 
matter, and has to be dealt with in the context of the specific 
circumstances of a proposed action. It bears noting, however, that 
Congress has previously addressed the use of force in Iraq for certain 
purposes, beginning with P.L. 102-1 (January 14, 1991) which remains in 
effect, and subsequently in a number of additional laws and 
resolutions. (See, P.L. 102-190, Sec. 1095 & Sec. 1096 (FY 92/93 
National Defense Authorization Act); P.L. 105-235 (Aug. 14, 1990); 
H.J.Res. 75, (Passed the House Dec. 12, 2001).) In addition, the 
President enjoys constitutional authorities to commit U.S. forces to 
protect U.S. national security interests in appropriate circumstances. 
Be assured, however, that the administration will continue to work 
closely with Congress on all phases of the war on terrorism.
                              middle east
    Question. Press reports indicate that some in the administration 
would like to withdraw nearly all U.S. troops participating in the 
Multinational Force and Observers in the Sinai. What impact would a 
U.S. withdrawal have on the MFO? How have Israel and Egypt reacted to 
the possibility of a U.S. withdrawal? Where does this matter now stand?

    Answer. The Egyptian-Israeli Peace Treaty and its security 
provisions, monitored by the MFO, are a cornerstone of U.S. policy and 
presence in the Middle East. The U.S. is especially mindful of its 
responsibilities and obligations to the MFO. As such, there are no 
plans to reduce our role in the MFO at this time.
    The Israelis and Egyptians are both on record in insisting that the 
U.S. continue its military presence in the MFO. They and we are 
concerned that any draw-down of U.S. troops, if not carried out in 
close consultation with all concerned parties, could prompt other 
contributors of both troops and finances to reevaluate their continued 
participation. If other contributors were to follow our lead, it could 
severely weaken the MFO, increasing tensions between Israel and Egypt 
during an already volatile time. It also could undermine our 
credibility as a guarantor of future Israeli-Arab security 
arrangements.
    U.S. participation in the MFO places a considerable burden on the 
U.S. Army. We are reviewing ways to lighten this burden without 
undermining the critical role and effectiveness of our troops in the 
MFO. We would review such modifications with the parties before taking 
any action. We will also keep Congress informed of any developments in 
this area.
                              libya update
    Question. Could you update us on the latest development's with 
respect to Libya? What has been discussed in meetings between U.S. and 
Libyan officials?

    Answer. Fulfillment of Libya's obligations relating to the Pan Am 
103 bombing continues to be the main focus of U.S. policy toward Libya. 
Since September 11, Libya has continued its efforts to improve its 
image with the international community, most notably by condemning the 
attacks and confirming the U.S. right to retaliate. Nonetheless, it has 
yet to fulfill its obligations under the relevant UN Security Council 
Resolutions on Pan An 103, including acceptance of responsibility and 
payment of compensation.
    U.S. and UK officials met with Libyan delegations in October 2001 
and again in January 2002. The focus of these meetings was to urge 
Libyan compliance with these obligations. We have told the Libyans that 
there is no way around their Pan Am 103 obligations; the first step in 
any movement forward with the United States is to address this 
terrorist incident in accordance with the UNCSR requirements.
                                 mexico
    Question. Does the Bush administration still consider the U.S.-
Mexico relationship to be an important one? Can we expect to see a 
comprehensive agreement on some of these issues, including the 
migration issue, this year?

    Answer. Our bilateral relationship with Mexico is one of the 
strongest and most important in the world. There is perhaps no other 
nation that has the impact of Mexico and Mexicans on day-to-day life in 
the United States. Mexico is our NAFTA partner and second leading trade 
partner. Over $235 billion worth of commerce crossed our common border 
in 2001. Approximately 350 million people cross the land border with 
Mexico on an annual basis.
    The Fox administration continues to be a special friend in the 
hemisphere and Mexico plays a key role in promoting our common values 
throughout the Americas. Concrete examples of the importance the 
administration attaches to Mexico as a neighbor and friend are the 
upcoming scheduled visits to Mexico by the President (March 21-23) and 
by Governor Ridge (March 4-6).
    We continue to discuss a broad range of issues on the bilateral 
agenda with Mexico. At this point, we cannot speculate as to where we 
will be at the end of the year in our discussions with Mexico on 
migration and other issues.
    Migration is an issue that is of great importance to the 
administration. We will strive to create, in partnership with Congress, 
a framework for migration that is fair, humane, takes into account the 
needs of people of both nations, and promotes the legal and orderly 
movement of people across our common border.
 reinstatement of section 245(i) of the immigration and nationality act
    Question. Until 1997, U.S. immigration law contained a provision, 
Section 245(i) of the Immigration and Nationality Act, which allowed 
individuals who qualify for a permanent visa, commonly called a ``green 
card,'' to obtain their permanent visa in the United States if they 
were already in the country. The law allowed people to continue to work 
and to stay with their families during the final step in obtaining 
their green card and recognized that it makes no sense to force those 
already in the country and in the last stages of obtaining an immigrant 
visa to leave their families and jobs to have their visa processed in 
their home country. In 1997, Congress allowed Section 245(i) to expire. 
In 2001, Section 245(i) was temporarily reinstated until April 30, 
2001. Does the administration have a position on this provision of 
immigration law? Would it like to see Section 245(i) permanently 
extended?

    Answer. The Department strongly supports the restoration of INA 
Section 245(i) on a permanent basis. The Department experienced 
significant savings in manpower and resources under the previous law 
and would expect to again see such savings. Further, while the expired 
provision does grant a benefit to aliens who some believe may not 
deserve it because of their violation of our immigration laws, it still 
is a practical solution to a tough problem. Practical because it would 
not require, as is the case now, whole families who may have been in 
the United States for many years to bear the expense and disruption to 
their lives of returning to distant places where they no longer have a 
home in order to process their immigrant visas for the purpose of 
immediately returning to the United States, or in some cases not being 
able to return for three to ten years, if they have remained illegally 
in the United States. Although a substantial fee is involved in 
obtaining adjustment of status in this manner, the fee is much less 
than the cost of return travel to a foreign country. Thus, it makes it 
more likely that families, especially poor families, will obtain the 
status to which they are legally entitled without suffering a major 
financial loss. We believe that, without 245(i), many of these 
``illegals'' will stay in the United States illegally rather than 
return home and face the expenses and uncertainties of applying for 
their visas in their home country. With 245(i), they may come forward 
and apply to INS, thus allowing their eligibility to be reviewed and 
their status to be regularized, if eligible. The Department recognizes, 
however, that the burden of administering section 245(i) falls 
exclusively on the Immigration and Naturalization Service (INS) since 
only the INS has the legal authority to process applications for 
adjustment of status. Therefore, in order to obtain a more complete 
picture of the current attitude on the question of 245(i) we strongly 
suggest that the Committee seek the views of that agency.
                               argentina
    Question. The Government of Argentina has been in serious economic 
crisis for some weeks now. Secretary of the Treasury O'Neill may or may 
not be correct when he says that we don't need to worry about the 
financial instability in Argentina spilling over to infect its 
neighbors, but that does not mean we should not be concerned that 
political instability in Argentina could have a negative impact 
throughout the region. On February 2 the Argentine Supreme Court 
complicated the Duhalde administration's efforts to manage the 
financial crisis by declaring that the actions by the government were 
unconstitutional. Now the Duhalde administration and the Congress are 
moving to unseat members of the court. We have seen what popular 
dissatisfaction with traditional government structures and political 
parties has meant for other countries in the region, most notably 
Venezuela. What is the United States doing to assist President Duhalde 
manage the current crisis?

    Answer. We consider Argentina to be a valued friend and ally and we 
are engaging with the Argentines frequently, at a high level, and 
across a wide range of issues including the economy, law enforcement, 
military cooperation and trade. We believe that the ultimate solution 
to the social tension lies in finding long-term answers to the deep 
structural problems in the Argentine economy.
    In recent meetings with the Minister of Foreign Affairs, the 
Minister of Economy, the Secretary for International Economics and 
government, we have emphasized the need for Argentina to find its own 
solutions to its economic problems. While we have publicly stated on 
numerous occasions that the U.S. stands ready to assist when Argentina 
develops a sustainable economic plan, we believe that any solution 
ultimately must come from Argentines and have the support of 
Argentines.
    We are encouraging the Argentine government to work with the 
International Monetary Fund to craft a credible, sustainable economic 
plan to resolve the crisis. We remain in constant contact with our 
other regional allies, and are working cooperatively with them on ways 
to assist Argentina. We believe that most countries in the region view 
Argentina's troubles as having uniquely Argentine origins. We do not 
anticipate significant political fallout among other countries of the 
region, and have been encouraged by the constitutional process that has 
guided political developments in Argentina.
  colombia: $98 million fmf training and equipment for the colombian 
                military to protect a major oil pipeline
    Questions:

          1. Where will training be conducted and by whom?
          2. Which Colombian units will receive training?
          3. Does the training of the Colombian units have any 
        relationship to counternarcotics purposes?
          4. What restrictions will be placed on the use of the 
        equipment provided by the United States? Will it be limited to 
        pipeline security?
          5. What are the U.S. private sector interests in this 
        pipeline?
          6. Why was this particular pipeline singled out for 
        protection?
          7. What are the estimated revenue losses to Colombia 
        resulting from sabotage of its oil pipelines? How are these 
        estimates derived?
          8. Are there other U.S. oil or commercial interests elsewhere 
        in Colombia which have been, or likely to be, targeted by the 
        guerillas?
          9. Are proposals under consideration designed to assist 
        Colombia protect other parts of its economic infrastructure?

    Answers. The administration's FY 03 budget request includes $98 
million in FMF for Colombia to provide training and equipment to 
enhance the Colombian military's ability to protect a major oil 
pipeline which has been the target of:

    1. Overall management of this program will be by the Military Group 
(MilGp) in the U.S. Embassy, Bogota. Current planning is to provide 
training at Colombian military bases in Saravena and Arauca, both in 
Arauca Department. Future assessments may suggest other sites. Training 
will be provided by several different units of the U.S. military, as 
was the case in training the three battalions of the Colombian Army's 
first counterdrug brigade, but a major portion of training will be by 
elements of the U.S. Army's Special Forces.
    2. Training is planned for both the existing 18th Brigade of the 
Colombian Army, headquartered in the city of Arauca, and the new Fifth 
Mobile Brigade, which Colombia has recently established. Elements of 
the Colombian Marines and Colombian National Police will also receive 
training. Human rights vetting will be done for all units receiving 
U.S.-provided training before it begins.
    3. The Government of Colombia has designated these two brigades to 
provide pipeline security as their primary responsibility although they 
are also not precluded from supporting counternarcotics missions.
    4. Restrictions on the use of equipment provided by the United 
States will be in accordance with all applicable regulations and law, 
including, for example, the Foreign Assistance Act of 1961, as amended 
(``FAA'') and Section 556 and Section 567 of the FY 2002 Foreign 
Operations Appropriations Act, P.L. 107-115. Equipment provided by the 
United States under this request will be for the use of those units 
whose primary responsibilities are pipeline protection. The concept of 
operations calls for the 16th Brigade and 5th Mobile Brigade to protect 
the pipeline by effectively exercising area control. Rather than 
static, fixed-point defense, the units will try to detect and counter 
potential threats before they reach the pipeline. This approach will 
also enhance protection of the civilian population and of other 
infrastructure. The U.S. Milgroup will monitor use, as it does for 
equipment provided to other Colombian military units.
    5. The Cano Limon-Covenas pipeline is a joint venture of Occidental 
Petroleum and Ecopetrol, a Colombian state-owned enterprise. The bulk 
of the petroleum transported in this pipeline is from the Cano Limon 
field, which is also a joint venture involving Ecopetrol, Occidental 
Petroleum and a Spanish oil concern, Repsol.
    6. This pipeline was selected in consultation with the Colombian 
Government in view of its important contributions to that country's 
economy and the serious effects caused by the nearly 170 attacks on the 
pipeline in 2001 (an increase of 48% over the previous year) which 
resulted in production stoppages for over 260 days, as well as 
significant environmental damage from oil spills.
    7. Terrorist groups' attacks on the pipeline in 2001 resulted in 
the Colombian central government, Arauca Department and various 
municipal governments losing nearly $500 million in revenue. These 
estimates were derived from several sources, including the U.S. 
Embassy, the Government of Colombia and Occidental Petroleum.
    8. The Drummond Coal Company has extensive operations in Colombia 
and has suffered serious attacks, as has the gas pipeline used by 
Texaco. Over 250 other U.S. businesses have offices in Colombia and in 
many cases have been the targets of extortion and violence.
    9. The situation in Colombia is under constant review but there are 
not now any specific proposals to assist Colombia to protect its 
economic infrastructure other than the Cano Limon-Covenas pipeline. 
Consultations with Congress would clearly be undertaken in the event 
additional proposals were to be considered.
     colombia: parameters for in-country training by dod personnel
    Question. Prior U.S. military training in Colombia for the counter- 
narcotics brigades was governed by two memos from Secretary of Defense 
Cohen (dated October 6, 1998 and March 9, 2000) which set forth 
parameters for in-country training by DOD personnel, and bar the use of 
any DOD funds, personnel or equipment for any training program 
``involving a Colombian unit that engages solely in counterinsurgency 
operations.''
    Are these memoranda still applicable to U.S. military training in 
Colombia? Have subsequent memoranda been issued by the DOD leadership 
applicable to such training? If so, please provide them. Will training 
of military personnel for pipeline security be governed by the above-
mentioned memoranda? If not, what limits will apply?

    Answer. The Department of Defense has informed us that the above-
referenced memoranda are still applicable to U.S. military training in 
Colombia and that no new memoranda governing this training are being 
proposed at this time. The details of the administration's proposal to 
train Colombian military personnel for security of the Cano Limon 
pipeline are still being formulated. At the present time, the above 
answer applies for pipeline security training as well.
                 philippines counterterrorism training
    Question. What role will U.S. forces play in the Philippines? How 
long will U.S. combat and combat service support units be deployed to 
the Philippines? Will U.S. forces be placed under the Philippines 
command while accompanying Philippine forces in the field? How are our 
joint efforts against Abu Sayyaf linked to the larger question of 
Mindanao separatism and the long-running insurgency there? Is there any 
risk that U.S. forces will get drawn into a counterinsurgency role not 
directly connected to the war on terrorism? Will there be notifications 
pursuant to the War Powers Resolution of this deployment to the 
Philippines? If not, why not?

    Answer. The purpose of the deployment of U.S. forces is to help the 
Armed Forces of the Philippines (AFP) defeat international terrorism in 
the Philippines, which affects both U.S. and Philippine interests. 
Training will continue to be at the core of our counterterrorism 
cooperation with the Philippines. U.S. forces will work closely with 
their AFP counterparts in activities focused on planning; gathering and 
disseminating intelligence; command, control and communication; and 
assessing AFP capabilities and neds.
                              north korea
    Question. The President named North Korea as part of an ``axis of 
evil'' in his State of the Union Address, and subsequently put North 
Korea ``on notice'' that it must abandon its pursuits of weapons of 
mass destruction and the means to deliver them, or face the 
consequences. South Korea, Japan, and U.S. European allies reacted to 
the ``axis of evil'' remarks with concern, taking note of a widely held 
belief that engagement with North Korea offers the best hope of 
fostering peace and reconciliation on the Korean Peninsula. Has the 
administration decided to abandon the approach the President 
articulated on June 6, 2001, when after a lengthy policy review, he 
pledged U.S. support for South Korea's engagement strategy?

    Answer. As the President reiterated during his February 19-21 trip 
to Seoul, the USG continues to support North-South engagement and 
remains willing to have a serious dialog with North Korea. Eliminating 
threats to peace posed by missiles and weapons of mass destruction is a 
critical task. This makes it all the more imperative for North Korea to 
respond to our repeated offer to undertake serious discussion on these 
and other issues of concern, including conventional force issues, 
terrorism, and humanitarian concerns, at any place, at any time, and 
without preconditions.

    Question. Last November, after the latest round of U.S., South 
Korean, and Japanese consultative talks, the three nations issued a 
joint statement which, ``took positive note of North Korea's signing of 
two UN Terrorism Conventions'' and welcomed additional steps which 
North Korea might take to demonstrate its oppositions to terrorism.
    Could you say that North Korea is generally moving in a positive or 
negative direction with respect to its involvement in international 
terrorism? Is there any evidence linking North Korea to the September 
11 terrorist attacks on the United States?

    Answer. North Korea has not distinguished itself in international 
efforts to combat terrorism. The DPRK reiterated in a statement 
released after the September 11 attacks its policy of opposing 
terrorism and any support for terrorism. It also signed two United 
Nations counter-terrorism conventions and told a visiting European 
Union delegation it would sign the remaining five. However, we have 
urged further DPRK steps to cooperate in international efforts to 
combat terrorism, and we remain ready to engage the DPRK on this and 
other issues of concern. According to the Global Terrorism Report for 
2000, some evidence suggested that the DPRK might have sold weapons 
directly or indirectly to terrorist groups in 2000. It also continues 
to harbor several Japanese Red Army hijackers of a Japanese Airlines 
flight to North Korea in 1970. The report cited statements from 
Philippine officials that the Moro Islamic Liberation Front had 
purchased weapons from North Korea. In our past talks with North Korea, 
we have made clear what actions the DPRK must take to be considered for 
removal from the list of state sponsors of terrorism.
    There is no evidence to date linking North Korea to the September 
11 terrorist attacks on the United States; however, as the President 
noted in his State of the Union Address, there are two primary forms of 
danger and instability in the world today, terrorism and the 
proliferation of weapons of mass destruction. These threats directly 
overlap as many of the states that are seeking nuclear, chemical, and 
biological weapons are also on the list of state sponsors of terrorism.

    Question. A key aspect of U.S.-North Korea relations is the Agreed 
Framework. Is North Korea currently in compliance with its obligations 
under the Agreed Framework? Does the United States remain committed to 
implementing the Agreed Framework, including the provision of two light 
water reactors to North Korea, provided that North Korea fulfills its 
obligations under the Framework?

    Answer. The administration has not yet concluded the review process 
of whether the DPRK is in compliance with all its obligations under the 
Agreed Framework.
    I expect we will soon do so, and we will provide our findings to 
Congress.
    I will say that the DPRK's nuclear freeze of its three graphite-
moderated reactors and related facilities at Yongbyon and Taechon 
remains intact under IAEA monitoring.
    The IAEA maintains a permanent presence at Yongbyon and, based on 
its monitoring activities, the IAEA believes that the DPRK has been 
complying with the freeze provisions of the Agreed Framework from 
November 1994 on.
    The Agreed Framework is an important mechanism for bringing the 
DPRK into compliance with its obligations under the Non-Proliferation 
Treaty (NPT).
    To do that, North Korea must: fully cooperate with the IAEA, accept 
implementation of its full-scope safeguards agreement, and permit the 
IAEA to verify the completeness and correctness of the DPRK's initial 
safeguards declaration, which should cover all nuclear facilities and 
nuclear material, including separated plutonium.
    Apart from maintaining the freeze, the DPAR has not taken these 
steps. We believe the DPRK must begin to act.
    Under the terms of the Agreed Framework, ``when a significant 
portion of the light water reactor (LWR) project is completed, but 
before delivery of key nuclear components, the DPRK will come into full 
compliance with its safeguards agreement with the IAEA.''
    It could take several years for the IAEA to complete its work. That 
makes it imperative for the DPRK to start the process or risk delays in 
the LWR project.
    The U.S., under the Agreed Framework, provides the DPRK 500,000 
tons of heavy fuel oil (HFO) annually to offset the foregone output 
from North Korea's frozen graphite-moderated nuclear reactors. KEDO's 
monitoring arrangements, along with other means, indicate the HFO has 
largely been used in the manner prescribed by the Agreed Framework.

    Question. A key aspect of U.S.-North Korea relations is the Agreed 
Framework. Is North Korea currently in compliance with its obligations 
under the Agreed Framework? Does the United States remain committed to 
implementing the Agreed Framework, including the provision of two light 
water reactors to North Korea, provided that North Korea fulfills its 
obligations under the Framework?

    Answer. The administration has not yet concluded the review process 
of whether the DPRK is in compliance with all its obligations under the 
Agreed Framework.
    I expect we will soon do so, and we will provide our findings to 
Congress.
    I will say that the DPRK's nuclear freeze of its three graphite-
moderated reactors and related facilities at Yongbyon and Taechon 
remains intact under IAEA monitoring.
    The IAEA maintains a permanent presence at Yongbyon and, based on 
its monitoring activities, the IAEA believes that the DPRK has been 
complying with the freeze provisions of the Agreed Framework from 
November 1994 on.
                            monterrey summit
    Questions. What is the United States prepared to put on the table 
during the Summit? Is serious consideration [being given] to some of 
the very innovative approaches that have been proposed by former 
President Zedillo, George Soros and other[s] for generating additional 
development financing, including the issuance and use of IMF Monetary 
units (SDRs) to provide financing for health, educational and 
environmental programs in developing countries?

    Answer. We see Monterrey as a chance to turn the corner on 
development by achieving a practical consensus on financing to spur 
growth and poverty reduction. We do not see it as a pledging 
conference. The United States will focus on total resources for 
development: trade, foreign direct investment, domestic savings, 
agriculture productivity, along with effective foreign aid. Foreign 
assistance is by far the smallest of the sources of development 
finance, though it can have a significant catalytic role in fostering 
change. We will also highlight the need for strong support of 
democratic and transparent governance and market-oriented economic 
policies as proven necessary conditions to unlock and effectively use 
these resources.
    We will urge the international community to promote more vigorously 
an economic growth agenda to benefit the developing countries. A part 
of this agenda is to challenge developed countries to increase grant-
based assistance to the poorest countries, so these countries can make 
investments in critical social sectors, such as education and health, 
without incurring debt burdens that such activities cannot cover 
financially. We will promote increases in assistance for developing 
countries that have achieved measurable results. We will urge developed 
and developing countries, and international organizations, to engage in 
greater and better efforts on trade and investment capacity building. 
The Conference is also an opportunity for us to showcase our own 
specific development efforts and priorities--e.g. trade and investment 
support, education and health, good governance and anti-corruption and 
agricultural productivity--and make clear our desire to engage and 
cooperate with others on these issues.
    In the already-agreed outcome document for Monterrey, the consensus 
did not support any concept of international taxes (such as a carbon 
tax or a currency transaction tax) or use of SDR reallocations, as some 
have proposed. The United States did not support such approaches, as we 
prefer to work directly with the public and Congress to seek well-
supported, legislatively approved sources of foreign assistance. 
Obviously, we were not alone. The allocation of SDRs for development 
assistance is inconsistent with the SDR's role as a monetary asset, and 
with the administration's efforts to focus IMF efforts on its core 
areas of expertise. We believe the way to further increase development 
assistance is to show that when well-used and targeted, it can leverage 
private resources and positive political change. That record and a 
clear strategy should be the basis for seeking more resources for what 
works.
                               __________

 Responses of Secretary of State Colin Powell to Additional Questions 
           for the Record Submitted by Senator Barbara Boxer

             u.s. assistance to the afghan women's ministry
    Question. Over the last several years, the Senate, and more 
specifically, this committee, has been outspoken in its condemnation of 
Taliban policies toward women. And, when the Taliban was ousted from 
power and the Ministry of Virtue and Vice disbanded, we felt it was 
important to insist that women be restored to their rightful place in 
Afghan society- including participation in the post-Taliban Afghan 
Government. I am pleased that two women now serve in the Afghan interim 
administration under Chairman Karzai.
    One of these remarkable women is Dr. Sima Samar, a vice-Chair in 
the interim government and head of the Ministry of Women's Affairs. 
Given the plight of women in Afghanistan under Taliban rule, this 
military needs funding immediately to provide opportunities to women 
and to undo the damage inflicted by the Taliban.
    Unfortunately, Dr. Samar is doing her best to restore hope in 
Afghan women with just one telephone, one desk and one car. For the 
past several weeks, the Women's Ministry has not even had an office 
from which to operate. There is no funding for programs, no funding for 
staff and no funding for equipment. As you know, Mr. Secretary, the 
mandate for the interim government runs out in just 5 months. Does the 
administration plan to provide direct funding for the Ministry of 
Women's Affairs? How much does the administration plan to provide?

    Answer. I met personally with Sima Samar, Vice Chair and Women's 
Affairs Minister, in December. When she returned in late January, a 
wide range of U.S. officials received Dr. Samar. We have conveyed to 
her our full support for her work.
    We have stressed to all elements of the AIA the importance of the 
Women's Ministry being fully integrated into the new government. To 
assist with the urgent needs of Afghan women, the United States is 
working closely not only with the Ministry of Women's Affairs but will 
all Afghan ministries. In meetings in Washington and Kabul, senior 
administration officials are stressing that the concerns of Afghan 
women must be addressed by all elements of the Afghan Government, not 
just the Women's Ministry.
    Due to widespread destruction and neglect of buildings, several 
ministries, including the Ministry of Women's Affairs, have had 
problems obtaining suitable office space. This matter has now been 
resolved for the Women's Ministry, to Minister Samar's satisfaction. 
The building that once housed the Women's Institute has been 
transferred to the Ministry of Women's Affairs.
    In addition to providing funds for the Women's Ministry through the 
UNDP, the United States has contributed directly to the Ministry's 
refurbishment through the Agency for International Development (AID). 
AID has provided $64,000 toward the renovation of the building, 
including office equipment and technical advisers. $55,000 of this 
grant will be used to help renovate the Women's Ministry. The 
refurbishment of the Ministry is now 70% complete, and Minister Samar 
noted her pleasure that Women's Affairs is the first ministry in the 
AIA to receive a grant from the United States Government. She is 
optimistic that significant renovations will be completed by March 8, 
in time to host ceremonial meetings in Kabul on the occasion of 
International Women's Day.
    Beyond supporting the bricks-and mortar aspects of the Women's 
Ministry, the U.S. Government is also working closely with Minister 
Samar to identify her specific needs and priorities for programs. She 
has particularly noted women's needs for education, health and 
security. Included in the $296.75 million the United States has pledged 
for Afghanistan for the current year are programs that will provide 
education and health and will generate jobs for Afghans, especially 
women. Women will be included as planners, implementers, and 
beneficiaries in all USG programs. In addition, to our overall emphasis 
on targeting women, the USG has in the past several months funded a 
number of specific programs in response to immediate needs on the 
ground.

Security:
  <bullet> The Department of State's Bureau of South Asian Affairs has 
        already provided public diplomacy funds to refurbish two floor 
        of a dormitory at the University of Kabul for the use of women 
        students.

Education and Training:
  <bullet> AID is sending nine million textbooks to Afghanistan for the 
        opening of school on March 23. For the first time in years, 
        girls will be attending these schools at all levels.
  <bullet> AID's Office of Transition Initiatives (OTI) is funding the 
        Afghan Women's Network to poll Afghan women in Peshwar about 
        their training needs, and to train women to enhance their 
        capabilities in political and economic skills.
  <bullet> OTI is also supporting the Agency Coordinating Body for 
        Afghan Relief to help provide library assistance to Afghan 
        women and girls to encourage them to read.
  <bullet> Finally OTI has just announced a small grant to assist in 
        rehabilitating offices for ARIANA, a women's NGO based in 
        Kabul, to continue providing educational and vocational courses 
        to women and girls of many ages. The grant will also provide 
        ARIANA with funds to purchase training supplies and equipment.

Health:
  <bullet> AID has contributed funds to UNICEF for an inoculation 
        programs for 2.26 million Afghan children returning to school.

    Many more programs are being planned.

U.S-Afghan Women's Council:
  <bullet> To complement our U.S. Government programs, President Bush 
        and Chairman Karzai recently announced the establishment of the 
        U.S.-Afghan Women's Council. Dr. Samar and Foreign Minister 
        Abdullah will serve as Afghan co-chairs and Under Secretary of 
        State Paula Dobriansky will serve as the U.S chair. The Council 
        will promote private/public partnerships and mobilize resources 
        to ensure that women gain the skills and education they were 
        not able to attain under years of Taliban misrule.
                       un population fund (unfpa)
    Question. Secretary Powell, last year, the Bush administration 
requested $25 million for the United Nations Population Fund (UNFPA) in 
its fiscal year 2002 budget. The Congress, recognizing the importance 
of this funding, increased that amount to $34 million.
    Not only did the Bush administration request funding for this 
program, last October, the administration announced the disbursement of 
$600,000 to the UNFPA for the purpose of providing emergency birthing 
kits to Afghan refugees. Clearly, this is a program that works and 
saves lives. Unfortunately, the $34 million in fiscal year 2002 has now 
been put on hold and no funding has been requested specifically for 
UNFPA in the fiscal year 2003 budget.
    Officials from the United Nations estimate that $34 million is 
enough to prevent two million unwanted pregnancies, 800,000 abortions 
and the deaths of 4,700 mothers and 77,000 infant children.
    Mr. Secretary, what is the status of this funding? When will a 
decision on funding be made? Do you still believe that UNFPA does 
``invaluable work'' and ``provides critical population assistance to 
developing countries?''

    Answer. The administration continues to support broadly the 
important work of UNFPA and specifically, its response to the emergency 
needs of vulberable populations, such as in Afghanistan. At the same 
time, we remain mindful of our obligations under the Kemp-Kasten 
amendment to the annual Foreign Operations, Export Financing and 
Related Programs Appropriations Act, which provides that no U.S. funds 
can go to an organization that supports or participate in the 
management of a program of coercive abortion or involuntary 
sterilization.
    The administration is also attentive to periodic reports of abuse 
and coercion in China's family planning and recent allegations of 
UNFPA's complicity in coercive family planning practices in China. 
These allegations assert that UNETA's program in China is in violation 
of the Remp-Kasten amendment. While we are aware of UNFPA's response 
that they are not involved in coercive practices and is, in fact, 
supporting a program that stresses the importance of voluntarism and 
non-coercion, it is incumbent upon us to investigate these allegations.
    The issue of UNFPA funding in light of these allegations is under 
review by the administration. The modalities of this review and the 
final determination are with the White House.
                         palestinian authority
    Question. There have been news reports about an ongoing 
reassessment of our relationship with Arafat and the PA. Have any 
conclusions been reached as a result of this reassessment?

    Answer. Chairman Arafat is leader of the Palestinian people, and we 
continue to deal with him on that basis.
                               palestine
    Question. How do you see our relationship with the Palestinian 
leadership changing?

    Answer. Chairman Arafat is the leader of the Palestinian people and 
we continue to deal with him on that basis. Chairman Arafat and the 
Palestinian Authority have an obligation to exercise that leadership 
and act immediately and decisively against violence and terrorism. We 
have not given up hope and we will continue to work with both sides to 
get to a process that will lead to a ceasefire and negotiations.
                               __________

 Responses of Secretary of State Colin Powell to Additional Questions 
            for the Record Submitted by Senator Bill Nelson

                       haiti: political stalemate
    Question. What is the status of the political stalemate in Haiti 
among President Aristide, opposition groups, and civil society? I 
understand the OAS is playing a key role, but what is the U.S. doing? 
Are you personally involved in the process?

    Answer. The Haitian parties have yet to resolve the country's 
political crisis. OAS-mediated negotiations in 2001 reached agreement 
on several key election issues, but intransigence on all sides and 
political violence have hampered further progress.
    The U.S. supported a January OAS resolution that condemned 
violence, called for an investigation by the Inter-American Commission 
on Human Rights (IACHR), and strengthened the OAS mandate to help 
improve conditions for a renewal of talks.
    I met on February 7 with my Caribbean counterparts and urged their 
continued support of the OAS process. We place primary responsibility 
on the Government of Haiti and the parties to reach an agreement that 
improves the well being of the Haitian people.
                       u.s. assistance for haiti
    Question. As U.S. and international assistance still cannot be 
directed to Haiti, the Haitian people are suffering. I have spoken with 
the Alternative Executive Director of the International Development 
Bank, about this issue prior to his confirmation. What can the 
administration do to expedite funding to the Haitian people at the 
earliest possible time once an agreement is reached?

    Answer. Current U.S. policy opposes assistance that goes to or 
through the Haitian Government. However, the U.S. does provide 
significant assistance to the Haitian people via non-governmental 
organizations. In FY 2002, approximately $50 million in assistance will 
go to Haiti for food aid, health, education, family planning, HIV/AIDs 
programs, democracy initiatives (including party support).
    We will not support renewed International Financial Institution 
(IFI) lending to the Government of Haiti (GOH) unless the GOH resolves 
the electoral impasse. Once the parties in Haiti negotiate and sign an 
agreement, the U.S. is prepared to work closely with other donor 
countries and the multilateral development banks to move forward 
rapidly on the disbursement of outstanding loans as well as to explore 
new projects.
                     holocaust-era insurance claims
    Question. Recently, Senator Fitzgerald and I wrote a letter to the 
former Secretary, and Chairman of the International Commission on 
Holocaust-Era Insurance Claims (ICHEIC), Larry Eagleberger. We are 
concerned over the extremely slow pace at which insurance claims are 
being resolved through the mechanism afforded by ICHEIC. Since an 
agreement was reached between the U.S. and Germany in July 2000, 
insurance companies have compensated less than 1% of the 77,800 claims 
received by ICHEIC, an abhorrent record.
    Are you personally engaged in this process? What is the State 
Department doing to ensure that the remaining issues in the 
negotiations between ICHEIC and the German Foundation are finalized 
swiftly and in a way that is fair to survivors? The recent extension of 
the deadline is helpful, but I am concerned that more and more 
survivors are dying before they can redeem the policies they have been 
fighting for over 60 years.

    Answer. The U.S.-German Executive Agreement of July 17, 2000, 
provides the framework for the treatment of claims made against German 
insurance companies. The Executive Agreement provides that insurance 
claims that come within the scope of the claims handling procedures 
adopted as of July 17, 2000, by the International Commission on 
Holocaust Era Insurance Claims (ICHEIC) and are made against German 
insurance companies shall be processed by the companies and the German 
Insurance Association (GDV) on the basis of such procedures and on the 
basis of any additional claims handling procedures that may be agreed 
among the Foundation, ICHEIC and the German Insurance Association.
    Reflecting the allocation agreed to among the parties during the 
German Foundation Negotiations, the July 2000 German law establishing 
the Foundation provides DM 200 million for claims and administrative 
expenses, as well as DM 350 million for the ICHEIC humanitarian fund.
    Although the United States in not a party to the negotiations to 
implement the insurance provisions of the German Foundation, we 
nonetheless have continued to work actively, under the leadership of 
Deputy Secretary of State Richard L. Armitage, to create an environment 
conducive to successful negotiations and to support efforts to reach an 
agreement quickly on outstanding issues.
    The Deputy Secretary has on several occasions urged all parties to 
demonstrate flexibility and work toward early agreement, and he 
continues to engage in intensive consultations with Secretary 
Eagleburger and the German Chancellor's Special Representative, Dr. 
Otto Graf Lambsdorff on these issues.
    It is essential that the ICHEIC-Foundation negotiations on 
additional claims handling procedures and ICHEIC administrative costs 
be concluded quickly so that insurance claims can be paid and 
humanitarian funds distributed.
  <bullet> Failure to reach agreement would have widespread 
        ramifications for the claimants, the survivors, and the family 
        members of those who did not survive.
  <bullet> We continue to press all parties to focus on resolving 
        outstanding issues so the DM 550 million can be made available 
        from the German Foundation.
                               __________

 Responses of Secretary of State Colin Powell to Additional Questions 
            for the Record Submitted by Senator Gordon Smith

                       un population fund (unfpa)
    Question. Secretary Powell, you testified only a few months ago 
about the invaluable work that the United Nations Population Fund 
(UNFPA) was doing in helping to provide reproductive health services to 
women in and around Afghanistan. Yet, the administration is seeking to 
eliminate the U.S. contribution to this important organization. Even 
more distressing is the failure of the administration to allocate the 
funds that Congress appropriated to UNFPA this year. As you know, women 
in Afghanistan have suffered under the most inhuman treatment 
imaginable for quite some time and their health has suffered. The 
average woman lives only to the age of 42, and pregnancy related causes 
are among the most dire threats to their lives. This administration has 
spoken often about protecting the ``rights and dignity of women'' in 
that part of the world, but the budget would eliminate some of the most 
important funds that help to do that. UNFPA is also working to provide 
crucial reproductive health care and voluntary family planning to women 
in nearly 150 other countries. Does the administration have some plan 
to provide the health care that UNFPA will be unable to provide if we 
eliminate our contributions?
    Throughout my public life I have supported policies to prevent 
abortion, and international family planning does just that. I strongly 
supported you last year when you spoke favorably of the work the United 
Nations Population Fund (UNFPA) does around the world, and I strongly 
supported your emergency grant of $600,000 to UNFPA this past November 
to help them provide safe delivery kits and sanitary supplies to Afghan 
refugee women. Yet, today, only 3 months after that grant, the 
administration is holding up the funding that Congress appropriated for 
UNFPA this year--funding that the President sought in his budget 
request last year--and is seeking to eliminate our contribution in 
2003. I am deeply disappointed by each of these actions and wonder if 
you might address this issue.

    Answer. This administration shares your belief that one of the best 
ways to prevent abortion is by providing quality voluntary family 
planning services. We continue to broadly support the important work of 
UNFPA world and specifically, its response to the emergency needs of 
vulnerable populations, such as in Afghanistan.
    At the same time, we remain mindful of our obligations under the 
Kemp-Kasten amendment to the annual Foreign Operations, Export 
Financing and Related Programs Appropriations Act, which provides that 
no U.S. funds can go to an organization that supports or participate in 
the management of a program of coercive abortion or involuntary 
sterilization. The administration is also attentive to periodic reports 
of abuse and coercion in China's family planning and recent allegations 
of UNFPA's complicity in coercive family planning practices in China. 
These allegations assert that UNFPA's program in China is in violation 
of the Kamp-Kasten amendment. While we are aware of UNFPA's response 
that it is not involved in coercive practices and is, in fact, 
supporting a program that stresses the importance of volunteerism and 
non-coercion, it is incumbent upon us to review these allegations.
    The issue of UNFPA funding in light of these allegations is under 
review. The modalities of this review and the final determination are 
with Lhe White House. Your concerns regarding how we can otherwise 
address the health care that UNFPA will be unable to provide if we 
eliminate our contributions will be taken into account.
                           children's health
    Question. Can you highlight the ways in which the President's 
proposed budget helps to improve children's health in developing 
countries?

    Answer. The President's budget responds to the global challenge of 
children's health in the developing world with $282.5 million for our 
ongoing core programs for children under five (such as breastfeeding, 
nutrition and childhood diseases). The budget also funds programs 
combating HIV/AIDS, a pandemic that besets children even before birth 
and also deprives them of parental care. Almost 1.5 million children 
under the age of 15 are HIV-positive; another 15 million are made 
vulnerable by the loss of a parent to HIV/AIDS. For FY 2003, we have 
increased USAID's direct funding for HIV/AIDS to $500 million. In 
addition, the administration has pledged $500 million to the newly 
created Global Fund to Fight AIDS, TB and Malaria, making this country 
the single largest donor. In FY 2003 the administration will increase 
to over $50 million its contribution to the Global Alliance for 
Vaccines and Immunizations (GAVI), bringing new vaccines and 
strengthening vaccine delivery to millions of children. The President's 
budget proposes $120 million for the United Nations Children's Fund 
(UNICEF), which spends approximately 60% of its resources on child 
health, and approximately $15 million for the World Health Organization 
(WHO) for programs in child and adolescent health. In 2003, the 
National Institutes of Health (NIH) will spend $222 million in 
international efforts on HIV/AIDS, and the Global AIDS Program (GAP) of 
the Centers for Disease Control (CDC) will spend $144 million. CDC will 
also invest $135 million in global immunization activities, and $13 
million in malaria prevention and control. Our contribution of $10 
million to the UN Environmental Program (UNEP) contributes to work to 
eliminate environmental health hazards, which have their greatest 
effects on pregnant women and children. Finally, the American people 
will again provide a projected $1.1 billion to feed and care for 
victims, especially child victims, of emergency and conflict situations 
through USAID, the World Food Program, and the UN High Commissioner for 
Refugees (UNHCR)
    We can be proud of these efforts, but the task ahead is enormous. 
Much remains to be done to create the conditions that will make the 
currently unacceptable levels of child mortality in the developing 
world a thing of the past.
                           children's health
    Question. What message will the administration take to the UN 
Special Session in May?

    Answer. The United States strongly supports the goals of the 
Special Session in the areas of child health and nutrition, education, 
HIV/AIDS, and protection from exploitation and armed conflict. We 
believe that investing in children is key to the eradication of poverty 
and economic development, with added dividends for peace and stability. 
We look to the Special Session to invigorate political will, seeking in 
the outcome document a global agenda which focuses on specific, 
achievable goals.
                   central asian strategic importance
    Question. One result of the war on terrorism and our military 
operation in Afghanistan is the increased awareness of the Central 
Asian Republics and their strategic importance to the United States. 
Could you lay out for us the strategic importance of the Central Asian 
Republics and what will guide our involvement in this increasingly 
important region?

    Answer. In the wake of the events of September 11, the most 
immediate strategic interest of the United States in Central Asia is to 
see that the countries of the region do not become new havens or 
sanctuaries for the forces of international terrorism. In what only a 
decade ago was the Soviet Union, the United States now has thousands of 
U.S. military personnel working alongside their Central Asian 
counterparts in this effort. We also rely on these governments for 
vital intelligence that has helped us to conduct such an effective 
military campaign in Afghanistan, and for the security and well-being 
of our troops while they are there. Additionally, for post-Taliban 
Afghanistan, these Central Asian frontline states represent a critical 
humanitarian corridor for food and emergency supplies that may save the 
lives of millions of people living in Afghanistan.
    Our country is now linked with this region in ways we could never 
have imagined before September 11. Our policy in Central Asia must 
include a commitment to deeper, more sustained, and better-coordinated 
engagement on the full range of issues upon which we agree and 
disagree. These include security cooperation, energy resource 
development, and internal strengthening of these countries through 
political and economic reforms. At every opportunity, we discuss with 
them the concept that security is not only a military concept but must 
also, in our view, include the economic and democratic reforms that 
will give their populations hope for the future. We include in these 
conversations the necessity to meet internationally accepted standards 
on human rights.

    Question. What principles will guide the administration in its 
deliberations with our NATO allies on a new NATO-Russia relationship?

    Answe. Russia's recent positive stance toward the West, as 
reflected in its substantial cooperation in the war against terrorism, 
demonstrates that we have a real opportunity to bring Russia into a 
more open, cooperative relationship with NATO that will further enhance 
European stability.
    In developing the new NATO-Russia body, we are looking to explore 
and develop new, effective mechanisms for more constructive cooperation 
between Russia and NATO, while preserving NATO's right to decide and 
act at 19 on all issues.
    The key to the success of the new body will be the development of 
serious, well-thought out, practical projects in areas where there is 
potential for joint cooperation between NATO and Russia, such as 
counterterrorism, civil emergency preparedness, airspace management, 
and joint training and exercises.
    However, the NATO-Russia Council will not provide Russia the 
ability to veto NATO actions in any areas. In developing this 
mechanism, we will insist that there must be a NATO consensus to place 
any item on the agenda of the new body. NATO must have the right to 
decide whether particular issues should be discussed or worked at 20 
and to what extent allies should coordinate positions. NATO also needs 
to preserve the right to take a decision on any issue at any time, 
whether or not that issue is the subject of discussion with Russia. Any 
ally must also be able to remove an issue from the agenda of the new 
mechanism at any time.
                               __________

 Responses of Secretary of State Colin Powell to Additional Questions 
           for the Record Submitted by Senator Sam Brownback

    Question. Last Sunday, in response to Yasser Arafat's statement 
condemning terrorist acts against Israeli civilians and pledging to 
crack down on these terrorist groups, you prudently responded that you 
were pleased to see the statement, but the U.S. needs to see action. 
Has the U.S. done enough to convey this sentiment to Arafat? It appears 
that Arafat is finally concerned with America's increasingly negative 
view of his actions. How is the administration leveraging this for 
furthering the peace process?

    Answer. Chairman Arafat and the Palestinian Authority must take 
strong, resolute, irreversible action immediately to halt the violence. 
In a range of meetings and communications with PA officials, including 
Arafat, we have been very clear and specific about what we expect from 
the PA with regard to ending the violence and terrorism which undermine 
their authority and the hopes of the Palestinian people for a better 
life. Arafat knows what steps he has to take. Palestinian security 
performance remains the essential first step to an improvement in the 
situation and a return to a political process.
                   assistance to the iraqi opposition
    Question. What is the status of our assistance to the Iraqi 
National Congress and other opposition groups within the country? Will 
the U.S. ramp up its investment and support of these groups, especially 
in the absence of Iraq's allowance of UN inspections?

    Answer. We continue to support the Iraqi National Congress (INC), 
and other Iraqi opposition groups, as they work to become a more 
effective voice for the aspirations of the Iraqi people, and build 
support for the forces of change in Iraq. Since March 2000, the U.S. 
has provided $14.6 million in funding to the INC. That funding has 
supported the production and distribution of the INC's newspaper, 
satellite TV broadcasts into Iraq, diplomatic outreach, information 
collection program, drawdown of Department of Defense training, three 
London offices, one DC office, and offices in Tehran, Damascus, and 
Prague. We also have provided $11.7 million in support to other groups 
doing humanitarian and war crimes research work. We are actively 
engaged in developing programs of increased support for Iraqis who are 
opposed to the current regime in Baghdad.
                            anti-americanism
    Question. Many of our Arab allies in the Middle East have strong 
anti-American factions within their countries. Are we monitoring the 
type of anti-American education that occurs in these countries? Will 
the U.S. take stepped-up action to provide basic education development 
in this region?

    Answer. Anti-Americanism in the Middle East is a problem that we 
are addressing head-on through our public diplomacy. We pay especially 
close attention to educational issues, and have worked for years to 
enhance educational exchanges and institutional linkages, increase the 
teaching of English as a second language at all levels, and encourage 
the development of American studies programs.
    Middle Eastern leaders recognize the need for reform and 
improvement of their educational systems in order to meet the needs of 
their youth for a place in the world of the 21st century. To play a 
productive role in their societies, youth must have a new set of skills 
and understanding of their role in a global economy. We are working on 
a number of new initiatives and proposals in this regard that respond 
to requests for cooperation and assistance we have received from these 
countries. Our aim is to assist in efforts to better prepare students 
from that part of the world for the new global economy, and lessen the 
propensity for the development of anti-American attitudes.
                   education assistance for pakistan
    Question. Is the administration's investment in education 
assistance for Pakistan sufficient enough to help break the 
stranglehold of the radical madrassas?

    Answer. We believe the level of funding the administration is 
proposing for this fiscal year will help Pakistan as it continues to 
reform its educational system.
    In the current fiscal year, our $600 million grant in balance of 
payments and budget support has enabled approximately $107 million 
equivalent in Pakistani rupees to support Pakistan's education 
programs. In addition, through an interagency effort, we will provide 
$34 million this year in bilateral assistance programs to support 
education reform in Pakistan. We hope this is the beginning of a $100 
million multi-year program. Other donors are also focusing a good 
amount of resources on education, including the United Kingdom, Canada, 
Japan, Germany, Norway and UNICEF.

    Question. Is the administration willing to accommodate Pakistanis 
request for tariff relief on textile and apparel imports?

    Answer. The administration is acutely aware of the hardship 
suffered by Pakistan's textile and apparel industry due to our ally's 
staunch support of the U.S. in the war on terrorism. We recently 
completed an assistance package, valued at $142 million in potential 
new market access, that provides quota enhancements for Pakistani 
apparel exports to the United States. The package was developed in 
extensive consultation with Congress to minimize its impact on our 
domestic textile industry.
    Early in our consultations with Congress, we found significant 
opposition to tariff relief, and there appeared to be no legislative 
vehicle available for such action by Congress. At this time the 
administration does not intend to provide further unilateral 
preferences for imports of textile or apparel products from Pakistan.
    We have serious market access issues with Pakistan that will need 
to be addressed in any further discussions with them. We would only 
consider future assistance on a reciprocal basis and after extensive 
consultations with Congress.
                        indo-pakistani tensions
    Question. What action is the administration taking to de-escalate 
tensions between Pakistan and India? Are these tensions taking away 
from Pakistan's ability to assist the U.S. in the war on terrorism in 
Afghanistan?

    Answer. Defusing tension between India and Pakistan has been a 
major focus since December 13, when the tragic terrorist attack on 
India's parliament prompted India to take a series of actions--
including mobilizing its forces on the border, downgrading its 
diplomatic relations with Islamabad, and closing air, bus, and train 
links with Pakistan--that created a very real possibility of war. The 
President, Dr. Rice, and I have been in regular contact with the 
leaders of both countries to urge caution in terms of rhetoric and 
public comment; the redeployment of forces away from the border or Line 
of Control; and the launching of a productive, substantive dialog. We 
delivered the same clear message during my visit to the region in mid-
January and during the visits here of senior Indian and Pakistani 
officials. It is in this context that we strongly pressed President 
Musharraf and his government to take firm action against extremists 
using their territory to attack India. These contacts are continuing 
and will continue until we have fully ``locked in'' the progress 
achieved so far.
    Heightened Indo-Pak tension clearly has added a major new burden 
onto the shoulders of the Pakistani authorities. So far, however, it 
has not diminished Pakistan's unstinting support for Operation Enduring 
Freedom.
                       assistance to afghanistan
    Question. The U.S. is committed to helping Afghanistan recover from 
decades of war. What steps is the administration taking to ensure 
accountability for the distribution of humanitarian aid to ensure that 
it is delivered to the local level without being used for illicit 
purposes by warlords? What steps is the administration taking to ensure 
that the loya jirga meets to form a national government? What 
conditions are placed on the aid to ensure accountability while 
empowering interim leader Karzai to develop effective political 
institutions at the local, regional and national level to assist in 
democratization?

    Answer. We view the recovery and reconstruction effort in 
Afghanistan that the international community has undertaken with our 
leadership as a continuation of the international campaign against 
terrorism. The military campaign has been successful, but it needs to 
be supported by an effort to stabilize Afghanistan economically to 
prevent it from becoming a haven for terrorists and drug traffickers 
again.
    We are committed to ensuring accountability of U.S. humanitarian 
and reconstruction assistance for Afghanistan. We have conveyed this to 
the Afghanistan Interim Authority (AIA), and received clear signals 
that they understand the recalcitrant provincial or local authorities 
who are tempted to defy the Bonn principles and appropriate policies of 
the central government.
    Deciding which conditions to apply to which areas of assistance is 
a complicated task. The administration is currently working to define a 
mechanism by which conditionality will be applied. Some areas--
humanitarian assistance--will clearly be delivered without regard to 
the cooperation of local political leaders: we will always work to feed 
starving people, for example. In addition to carefully designed 
bilateral measures, we will coordinate our actions on conditionality 
and accountability with other donors and the UN SRSG. If well-
coordinated and intelligently implemented, conditionality can 
successfully leverage reconstruction assistance in ways that 
meaningfully further our national interest.
                 central asian american enterprise fund
    Question. Do you know about the current status of the Central Asian 
American Enterprise Fund? What should be our foreign assistance 
priorities for the region?

    Answer. Our assistance priority in Central Asia is to address the 
causes of potential instability in the region. These threats include 
ineffective border controls, drug smuggling, poverty, lack of economic 
and democratic reforms, isolation from the outside world, and decrepit 
local infrastructure. To address these problems we requested and 
received additional funding for our Central Asian assistance programs 
in the Emergency Response Fund. We have also increased assistance 
funding for the region in our regular FY 2002 assistance budget and 
plan a further increase in FY 2003.
    The State Department and USAID have conducted a review of the past 
performance and future prospects of the Central Asian American 
Enterprise Fund. We have conveyed the conclusions of this review to the 
CAAEF Board. As matters of commercial confidentiality are involved, we 
would be happy to discuss this in greater detail in a private session.
                   central asia trade and development
    Question. What opportunities for trade and economic development do 
you foresee for the region? Is your Department engaged in putting 
together education and economic development packages for Central Asia?

    Answer. By driving the Taliban out of power in Afghanistan, 
Operation Enduring Freedom has improved the climate for expanding trade 
throughout Central Asia and linking it to South Asia. Indeed, part of 
our policy toward stabilizing and developing Afghanistan is to 
encourage a North-South trade corridor with improved roads, bridges, 
and infrastructure to facilitate access to markets.
    Economic development and trade, however, can only develop if the 
Central Asians governments have the political will to pursue meaningful 
economic and democratic reform and reduce harmful barriers to trade 
within the region. Sustained economic growth will ultimately depend 
upon these countries' ability to cooperate and expand their market base 
in order to compete in the world market for international investment.
    Toward that end, the U.S. is urging the Central Asian governments 
to redouble their economic reform efforts and renew their relationships 
with the IMF. Where they show commitment to do so, we are providing 
technical assistance to support their efforts as well as programs 
designed to cushion the effect on the most vulnerable members of 
society.
    In addition, the U.S. provides technical assistance and credit to 
develop small and medium private enterprises; and is helping to develop 
local infrastructure, which in the process provides jobs. The U.S. also 
funds projects focusing on the key areas of access to water for 
drinking and irrigation and public health to address the needs of the 
predominantly rural and impoverished population of Central Asia.
    We are also very much involved in efforts to improve education in 
Central Asia through support for higher education institutions such as 
the American University of Kyrgyzstan, curriculum development and 
teacher training for school-based civic education, and exchanges for 
teachers and students at the secondary and post-secondary levels. In FY 
2002 we increased funding for academic exchanges that bring future 
leaders from throughout Central Asia to study in the U.S., and we 
intend to increase these programs further in FY 2003.
                         central asia/caucasus
    Question. Related to the Caucasus, specifically, I believe that the 
President showed great leadership when he waived the Freedom Support 
Act section 907 sanctions against Azerbaijan. Doing that will allow 
Azerbaijan and the United States to further their relationship. Since 
the terrorist attacks, how has Azerbaijan contributed to our 
operations?

    Answer. Azerbaijan historically has an outstanding record of 
cooperation with the United States on counterterrorism issues, 
assisting in various investigations (including the 1998 Embassy 
bombings in East Africa) and helping protect Embassy Baku against 
suspected terrorist threats. Shortly after September 11, Azerbaijan 
offered ``whatever means necessary'' to the United States for the war 
on terrorism. These included but were not limited to blanket overflight 
rights, full intelligence cooperation, and the use of Azerbaijani 
bases. Azerbaijan is crucial to our air bridge into Afghanistan, and 
more than a thousand critical overflights have occurred since September 
11. Azerbaijan is party to eight of the twelve UN counterterrorism 
conventions, having ratified the 1999 International Convention on the 
Prevention of the Financing of Terrorism on October 1, 2001. Azerbaijan 
is currently preparing national legislation to implement this 
convention and has requested U.S. assistance in drafting that and other 
anti-terrorism legislation. In the interim, the Government of 
Azerbaijan is utilizing a Presidential decree to investigate and freeze 
potential terrorist assets.
    Before the waiver, section 907 hindered our ability to take full 
advantage of Azerbaijan's offer of support. Among other things, it 
prevented assistance to the Government of Azerbaijan in drafting and 
implementing anti-terrorist legislation, in building up Azerbaijan's 
ability to fight terrorist financing, and in helping Azerbaijan 
strengthen and secure its borders to prevent terrorist infiltration and 
exfiltration.
    Thanks to the leadership of Senator Brownback and Senator 
McConnell, Congress granted the President the authority to waive 
section 907 in Title II of the Kenneth M. Ludden Foreign Operations, 
Export Financing and Related Programs Act, 2002. The President 
exercised this authority on January 25. Various technical assessment 
assistance teams have visited Azerbaijan since January to discuss 
cooperation on terrorist financing, law enforcement, border control and 
other subjects. The Department of Defense plans to conduct its first-
ever bilateral working group with the Azerbaijan Ministry of Defense in 
late March, following an assessment visit in late February. The State 
Department will brief the Appropriations Committees as required under 
Title II before the second week in March. Once the briefing is done, we 
can begin new assistance to and work in cooperation with Azerbaijan to 
meet our objectives in the war on terrorism.
    The waiver of section 907 allows us not only to develop our 
relationship with Azerbaijan but also to develop our relationship with 
Armenia and engage both countries more deeply than we have been able to 
do in the past.
             religious freedom and our allies on terrorism
    Question. Secretary Powell, could you please speak to how, and how 
well, the United States is reconciling our need to recruit allies with 
our obligation to promote respect for human rights and religious 
freedom?

    Answer. The President has made it absolutely clear that the war on 
terrorism will not place our advocacy for human rights and religious 
freedom on hold. Indeed, the two priorities are mutually supportive. 
Our campaign to defeat international terrorism is a campaign to protect 
fundamental human rights, including religious freedom.
    Nowhere is this convergence of goals clearer than in Afghanistan, 
where the Bonn Agreement includes protections for human rights and 
religious freedom. In Pakistan, our partnership has already yielded 
results that, if carried through successfully, may be of profound 
importance for religious minorities, including the reform of electoral 
laws to abolish the discriminatory separate electoral system for 
religious minorities and government efforts to reform madrassas. In 
China, the President will raise religious freedom as a core element of 
our relationship. Our engagement with countries on counterterrorism 
affords us more opportunities in which to raise our human rights 
concerns.
    We recognize that our campaign against terrorism has increased our 
involvement with some countries whose records on religious freedom and 
human rights are disappointing. We are not ignoring these problems. On 
the contrary the campaign against terrorism has provided us with the 
opportunity for more active engagement with political leaders and civil 
society, and the fact that it is clear that we are committed over the 
long term increases the possibilities for moving countries in the right 
direction.
                                 sudan
    Question. Sudan has long been a particularly troublesome part of 
the world for human rights abuses--not the least of which include human 
slavery and religious persecution. I have heard conflicting reports of 
progress with the North and a potential easing off of American pressure 
to ensure self-determination and support of the South. I would urge the 
administration to remain aggressively involved in Sudan--particularly 
now as we are clamping down on world terrorism. Could you clarify the 
U.S. policy position in Sudan?

    Answer. Sudan has indeed had a tragic history, and the suffering of 
its people continues. There has been no easing of pressure by the 
United States on the parties, and particularly on the Government of 
Sudan, to stop targeting civilians, end the practice of slavery and 
abductions, cease hostilities in the Nuba Mountains, provide for the 
safety of humanitarian workers, and commit itself to ending the war. In 
fact, pressure on these matters has been mounting. We are also 
demanding from the government a coalition partners in the global war on 
terrorism. There is no quid pro quo--Sudan must improve both its 
cooperation on terrorism and bring an end to domestic abuses and the 
civil war if it wishes to improve relations with the United States. We 
remain hopeful that the modest beginnings made by the efforts of 
Special Envoy Danforth will soon grow into a sustainable, just peace 
for Sudan. To a large extent, however, the actions by the Sudanese 
Government over the next few months will determine the direction that 
U.S. policy will take.
    We will continue to pursue a just and lasting peace in Sudan. We 
recognize many points will have to be negotiated in order to reach a 
solution acceptable to the aggrieved party; the southern Sudanese. 
Although the exact formula of a peace settlement remains to be resolved 
by the parties to the conflict--which could be concluded under the 
terms of the Intergovernmental Agency on Development (IGAD) Declaration 
of Principals (DOP)--no specific points, including self-determination, 
confederation or unity, have been taken off the negotiating table. No 
agreement, regardless of who brokered it, would last unless all parties 
agree that a just and equitable solution has been reached.
                   human rights of women and children
    Question. Secretary Powell, I commend you, President Bush, and the 
First Lady for your leadership in making the needs and human rights of 
women a priority for current U.S. foreign policy on Afghanistan. Women 
and children are frequently the first victims in conflict situations. 
Are there further plans to integrate our efforts to promote the human 
rights of women and children into our war on terrorism and promotion of 
democracy abroad?

    Answer. Ensuring women's human rights and those of their children 
strengthens democracy. It is at the core of building a civil, law-
abiding society, which is an indispensable prerequisite for true 
democracy.
    In times of conflict, women disproportionately bear the brunt of 
the atrocities. At the same time, women are excluded from access to 
power structures and participation in decision-making with regard to 
armed conflict, leaving them powerless to draw attention to 
difficulties they. experience in conflict situations and voiceless to 
recommend any preventive action. The USG advocates participation of 
women in all activities aimed at assisting or protecting them, from 
design to implementation ot a program.
    There is need for much greater emphasis on gender-related issues, 
such as the human rights of women in conflict situations. We have 
supported initiatives (the Kosovar Women's Initiative; the Bosnian 
Women's Initiative, the Rwandan Women's Initiative) that aim to empower 
women to be able to rebuild their lives. There should be greater 
emphasis placed on addressing the protection and assistance needs of 
women in armed conflict and in the recovery from conflict as well. We 
have encouraged international organizations such as the ICRC to put 
greater focus on women conflict victims.
    We are proposing to promote women's welfare and political 
participation as a key objective in a regional strategy for the Middle 
East and South Asia including, of course, Afghanistan. This includes 
educating women not to idealize and raise martyrs; providing them with 
literacy and education to make informed judgements, and become 
economically productive, therefore leaving them less vulnerable to 
messages from extremists and radicals; and providing women with 
sufficient opportunities for participation in public life to give them 
a stake in the system.
    We have recently provided $60,000 for leadership training for women 
from the Middle East. In Syria this interactive training and 
participatory training focused on leadership, NGO development, 
strategic planning and mediation and conflict resolution. In addition, 
the International Visitor Program, the Fulbright Scholarship Program 
and the Humphrey Fellowships all promote democratic and economic 
development and closer ties between the U.S. and countries around the 
world participating in the programs. The Department's Bureau of 
Educational and Cultural Affairs' budget for FY 2002 is approximately 
$240 million for worldwide academic and professional exchanges, many of 
which involve women participants. For example, 50 percent of the 
Humphrey Fellows are women.
    The United States plans to resume a broad range of educational and 
cultural exchange programs with Afghanistan, including programs focused 
on education and training for women. Under the auspices of the 
Fulbright Teacher Exchange programs, the Department's Bureau of 
Educational and Cultural Affairs proposed to organize a one-year multi-
phase program this year to enhance the skills of Afghan women teachers 
working in basic education. The program will bring ten women teachers 
to the United States to prepare them to become master teachers and 
teacher trainers. They will be trained in basic education, curriculum 
development and computer skills. Following their return to Afghanistan, 
they will train at least 100 more teachers in basic education skills, 
potentially impacting thousands of Afghan children.
    The annual Country Reports on Human Rights Practices is one of our 
major tools for raising awareness and promoting the human rights of 
women. These cover sex-based discrimination stemming from laws, 
regulations, or state practices that are inconsistent with equal access 
to housing, employment, education, health care, or other governmental 
benefits. Among the topics covered are societal violence against women, 
e.g., ``dowry deaths,'' ``honor killings,'' wife beating, rape, female 
genital mutilation and government tolerance of such practices. Also 
covered is the extent to which the law provides for, and the government 
enforces, equality of economic opportunity for women. Additionally, the 
Department has strengthened the Office of the Senior Coordinator for 
International Women's Issues that raises awareness of women's issues 
and is the focal point for the development and implementation of our 
pro-women agenda.
    We will continue to promote inclusion of the concerns and human 
rights of women and children in our programs abroad, including those in 
war-torn countries and in our promotion of democracy around the world.

                                   - 

</pre></body></html>
